<html>
<title> - H.R. 65, LUMBEE RECOGNITION ACT; & H.R. 1294, THOMASINA E. JORDAN INDIAN TRIBES OF VIRGINIA FEDERAL RECOGNITION ACT OF 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  H.R. 65, LUMBEE RECOGNITION ACT; & H.R. 1294, THOMASINA E. JORDAN 
       INDIAN TRIBES OF VIRGINIA FEDERAL RECOGNITION ACT OF 2007 
=======================================================================
                           LEGISLATIVE HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                       Wednesday, April 18, 2007

                               __________

                           Serial No. 110-16

                               __________

       Printed for the use of the Committee on Natural Resources


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov

                              -------

                     U.S. GOVERNMENT PRINTING OFFICE

34-823 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001




















                     COMMITTEE ON NATURAL RESOURCES

               NICK J. RAHALL II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Ken Calvert, California
Frank Pallone, Jr., New Jersey       Chris Cannon, Utah
Donna M. Christensen, Virgin         Thomas G. Tancredo, Colorado
    Islands                          Jeff Flake, Arizona
Grace F. Napolitano, California      Stevan Pearce, New Mexico
Rush D. Holt, New Jersey             Henry E. Brown, Jr., South 
Raul M. Grijalva, Arizona                Carolina
Madeleine Z. Bordallo, Guam          Luis G. Fortuno, Puerto Rico
Jim Costa, California                Cathy McMorris Rodgers, Washington
Dan Boren, Oklahoma                  Bobby Jindal, Louisiana
John P. Sarbanes, Maryland           Louie Gohmert, Texas
George Miller, California            Tom Cole, Oklahoma
Edward J. Markey, Massachusetts      Rob Bishop, Utah
Peter A. DeFazio, Oregon             Bill Shuster, Pennsylvania
Maurice D. Hinchey, New York         Dean Heller, Nevada
Patrick J. Kennedy, Rhode Island     Bill Sali, Idaho
Ron Kind, Wisconsin                  Doug Lamborn, Colorado
Lois Capps, California               Vacancy
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                   Jeffrey P. Petrich, Chief Counsel
                 Lloyd Jones, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                






















                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, April 18, 2007........................     1

Statement of Members:
    Rahall, Hon. Nick J., II, a Representative in Congress from 
      the State of West Virginia.................................     2
        Prepared statement on H.R. 65 and H.R. 1294..............     3
    Renzi, Hon. Rick, a Representative in Congress from the State 
      of Arizona.................................................     4
    Shuler, Hon. Heath, a Representative in Congress from the 
      State of North Carolina....................................     5
        Prepared statement on H.R. 65............................     6

Statement of Witnesses:
    Adkins, Chief Stephen R., Chickahominy Indian Tribe, Charles 
      County, Virginia...........................................    93
        Prepared statement on H.R. 1294..........................    99
    Artman, Carl J., Assistant Secretary--Indian Affairs, Bureau 
      of Indian Affairs,, U.S. Department of the Interior, 
      Washington, D.C............................................    40
        Prepared statement on H.R. 65 and H.R. 1294..............    41
    Barton, Rev. Jonathan, General Minister, Virginia Council of 
      Churches, Inc., Richmond, Virginia.........................   106
        Prepared statement on H.R. 1294..........................   108
        Statements submitted for the record......................   110
    Branham, Chief Kenneth, Monacan Indian Nation, Madison 
      Heights, Virginia..........................................   102
        Prepared statement on H.R. 1294..........................   105
    Campisi, Dr. Jack, Consultant, Lumbee Tribe of North 
      Carolina, Red Hook, New York...............................    72
        Prepared statement on H.R. 65............................    74
    Dole, Hon. Elizabeth, a U.S. Senator from North Carolina.....    22
        Prepared statement on H.R. 65............................    24
    Goins, Chairman James E., Lumbee Tribe of North Carolina, 
      Pembroke, North Carolina...................................    54
        Prepared statement on H.R. 65............................    56
    Hayes, Hon. Robin, a U.S. Representative in Congress from the 
      State of North Carolina....................................    17
        Prepared statement on H.R. 65............................    17
    Hicks, Principal Chief Michell, Eastern Band of Cherokee 
      Indians, Cherokee, North Carolina..........................    59
        Prepared statement on H.R. 65............................    62
    Jones, Hon. Walter B., a U.S. Representative in Congress from 
      the State of North Carolina................................    30
        Prepared statement on H.R. 65............................    32
        Letters submitted for the record.........................    33
    McHenry, Hon. Patrick, a U.S. Representative in Congress from 
      the State of North Carolina................................    37
        Prepared statement on H.R. 65............................    39
    McIntyre, Hon. Mike, a U.S. Representative in Congress from 
      the State of North Carolina................................     6
        Prepared statement on H.R. 65............................     9
        Letters submitted for the record.........................    11
    Moran, Hon. James, a U.S. Representative in Congress from the 
      State of Virginia..........................................    18
        Prepared statement on H.R. 1294..........................    20
    Rountree, Helen C., Ph.D., Professor Emerita of Anthropology, 
      Old Dominion University, Norfolk, Virginia.................   112
        Prepared statement on H.R. 1294..........................   114
    Sampson, Kelvin, Basketball Coach, Indiana University, 
      Bloomington, Indiana.......................................    68
        Prepared statement on H.R. 65............................    71
    Scott, Hon. Robert C. ``Bobby,'' a U.S. Representative in 
      Congress from the State of Virginia, Statement submitted 
      for the record on H.R. 1294................................    26
    Wolf, Hon. Frank R., a U.S. Representative in Congress from 
      the State of Virginia......................................    27
        Prepared statement on H.R. 1294..........................    29

Additional materials supplied:
    Burr, Hon. Richard, a U.S. Senator from the State of North 
      Carolina, Statement submitted for the record on H.R. 65....    25
    Beckwith, Lyle, Senior Vice President, Government Relations, 
      The Association for Convenience & Petroleum Retailing, 
      Letter submitted for the record on H.R. 1294...............    91
    Davis, Hon. Jo Ann, a U.S. Representative in Congress from 
      the State of Virginia, Statement submitted for the record 
      on H.R. 1294...............................................   117
    Kaine, Hon. Timothy M., Governor, Commonwealth of Virginia, 
      Statement submitted for the record on H.R. 1294............    93
    Locklear, Arlinda F., Esquire, Attorney for the Lumbee Tribe 
      of North Carolina, Statement submitted for the record on 
      H.R. 65....................................................   118
    O'Connor, Michael J., President, Virginia Petroleum, 
      Convenience and Grocery Association, Statement submitted 
      for the record on H.R. 1294................................   124


 LEGISLATIVE HEARING ON H.R. 65, TO PROVIDE FOR THE RECOGNITION OF THE 
   LUMBEE TRIBE OF NORTH CAROLINA, AND FOR OTHER PURPOSES. ``LUMBEE 
RECOGNITION ACT;'' AND H.R. 1294, TO EXTEND FEDERAL RECOGNITION TO THE 
   CHICKAHOMINY INDIAN TRIBE, THE CHICKAHOMINY INDIAN TRIBE--EASTERN 
DIVISION, THE UPPER MATTAPONI TRIBE, THE RAPPAHANNOCK TRIBE, INC., THE 
 MONACAN INDIAN NATION, AND THE NANSEMOND INDIAN TRIBE. ``THOMASINA E. 
   JORDAN INDIAN TRIBES OF VIRGINIA FEDERAL RECOGNITION ACT OF 2007''

                              ----------                              


                       Wednesday, April 18, 2007

                     U.S. House of Representatives

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 10:05 a.m. in Room 
1324, Longworth House Office Building, Hon. Nick J. Rahall, II, 
[Chairman of the Committee] presiding.
    Present: Representatives Rahall, Young, Christensen, 
Napolitano, Boren, Sarbanes, Shuler, Duncan, Renzi, and 
Shuster.
    The Chairman. The Committee will please come to order. We 
are going to go ahead and proceed with our list of witnesses 
this morning. It is the Chair's understanding that the Senate 
is conducting a roll-call vote at the current time, and 
therefore our distinguished visitor from that other body will 
be late in getting here. But we will go ahead, and at the very 
outset I want to note that Representative Bobby Scott is here 
with testimony and may have to leave because of circumstances 
that require his presence on the Floor.
    We have with us several Native Americans and other 
individuals from Virginia who have come here this morning to 
give and to listen to testimony of great import. I know the 
Virginia community has been hit the hardest by the horror at 
Virginia Tech, and I can assure that community that it has 
touched all of us very deeply. I think it would be appropriate 
if we begin the morning with a moment of silence for the 
students, the faculty, and the families of Virginia Tech.
    [Pause.]

 STATEMENT OF THE HON. NICK J. RAHALL, II, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF WEST VIRGINIA

    The Chairman. Thank you. The Committee is meeting to hold a 
hearing on two bills this morning, one pertaining to the Lumbee 
Tribe of North Carolina and another concerning six tribes in 
the Commonwealth of Virginia.
    Frankly, I am embarrassed to be here this morning facing 
the good people of the Lumbee Tribe yet again. When 240 of us 
voted in the House of Representatives for the Federal 
recognition during the 102nd Congress, that should have 
resolved the question of Lumbee status. When we voted again in 
favor of similar legislation in the 103rd Congress, that 
certainly should have meant that the United States had finally 
taken a stand and done the right thing by acknowledging a trust 
relationship with the Lumbee Tribe. But it was not to be.
    I personally have sat through several hearings on 
legislation of this nature over the course of several 
Congresses. Every time this Indian tribe gets close to its goal 
of recognition by the Federal government, there is always 
somebody somewhere ready to knock them down.
    The Lumbee Tribe has been trapped inside a cruel carnival 
that never ends. They have been on a roller coaster of exciting 
highs, always followed by devastating lows. And just like a 
roller coaster ride, the treatment of the Lumbee Tribe quite 
honestly is starting to make me sick.
    Before this day is over, we will no doubt have those who 
say the Lumbee should go through Federal administrative 
acknowledgement process. Well, we all know what that is; that 
is the never-ending regulatory maze filled with distorted 
mirrors, rubber rooms, and trick doors that this committee has 
examined in the past.
    In the face of adversity, the determination and sheer 
stamina of the Lumbee serve as a testament to their strong 
belief in who they are as a people. They have endured rejection 
by Congress, hostility by the Bureau of Indian Affairs, and 
have been snubbed in their quest by neighboring Indian tribes. 
All the Lumbee want is respect--the respect of being 
acknowledged for who they are: an American Indian tribe.
    I want to commend our colleague from North Carolina, 
Representative Mike McIntyre for picking up the mantle for the 
Lumbee people. He has been very forceful on this issue, has 
discussed it with me a number of times, and I certainly want to 
commend his very effective and determined and persistent 
leadership on behalf of the Lumbee people.
    I also want to commend Senator Elizabeth Dole for her 
efforts in this matter. And it is our hope that we will have 
her with us before the morning is out.
    This is not the first time that Senator Dole has appeared 
before our committee on behalf of the Lumbee Tribe. However, it 
is my hope that it will be the last time she finds it necessary 
to do so.
    And of course, I welcome Representative Walter Jones to the 
Committee, as well. A dear colleague, while perhaps on the 
other side of the aisle, still a very good friend, and helps us 
a great deal on many non-partisan issues.
    As for the Virginia tribes, the bill is being advanced by 
my good friend, Jim Moran. As we approach the 400th anniversary 
of the founding of Jamestown, it is strange, to say the least, 
that the very Native Americans who greeted the English settlers 
are still not fairly recognized Indian tribes today.
    The members of these tribes have faced decades of 
deliberate discrimination from policies aimed at stripping them 
of their identities. They were targeted and subject to having 
their race designation changed on their birth certificates and 
other legal documents. Yet they have endured, and all six 
tribes that are the subject of H.R. 1294 are recognized by the 
Commonwealth of Virginia.
    There is new leadership on this committee. There is new 
leadership in the Congress. It is a new Congress. So let us now 
seriously go about the business of rectifying wrongs to the 
Lumbee and the Virginia tribes.
    And before recognizing our witnesses, I will recognize the 
gentleman from Arizona, the acting Ranking Member today, Mr. 
Renzi.
    [The prepared statement of Mr. Rahall follows:]

 Statement of The Honorable Nick J. Rahall, II, Chairman, Committee on 
 Natural Resources, on H.R. 1294, The Lumbee Recognition Act, and H.R. 
     65, The Thomasina E. Jordan Indian Tribes of Virginia Federal 
                            Recognition Act

    The Committee will come to order. We have with us several Native 
Americans and other individuals from Virginia who have come here this 
morning to give and listen to testimony of great import. I know the 
Virginia community has been hit the hardest by the horror at Virginia 
Tech, but I assure you that it has touched us all deeply. I want to 
begin this morning with a moment of silence for the students, faculty, 
and families of Virginia Tech. Thank you.
    The Committee is meeting to hold a hearing on two bills this 
morning, one pertaining to the Lumbee Tribe of North Carolina and 
another concerning six Tribes in the Commonwealth of Virginia.
    Frankly, I am embarrassed to be here this morning, facing the good 
people of the Lumbee Tribe yet again.
    When 240 of us voted for Federal recognition during the 102- 
Congress, that should have resolved the question of Lumbee status. When 
we voted again in favor of similar legislation in the 103rd Congress, 
that certainly should have meant that the United States had finally 
taken a stand and done the right thing by acknowledging a trust 
relationship with the Lumbee Tribe. But it was not to be. I personally 
have sat through several hearings on legislation of this nature over 
the course of several Congresses.
    Every time this Indian Tribe gets close to its goal of recognition 
by the Federal government, there is always somebody ready to knock them 
down.
    The Lumbee Tribe has been trapped inside a cruel carnival that 
never ends. They have been on a roller coaster of exciting highs always 
followed by devastating lows. And just like a roller coaster ride--the 
treatment of the Lumbee Tribe is starting to make me sick.
    Before this day is over, we will, no doubt, have those who say the 
Lumbee should go through the Federal administrative acknowledgement 
process. You know what that is--that is the never-ending regulatory 
maze filled with distorted mirrors, rubber rooms, and trick doors that 
this committee has examined in the past.
    In the face of adversity, the determination and sheer stamina of 
the Lumbee serve as testament to their strong belief in who they are as 
a people. They have endured rejection by Congress, hostility by the 
Bureau of Indian Affairs, and have even been snubbed in their quest by 
neighboring Indian Tribes.
    All the Lumbee want is the respect of being acknowledged for who 
they are--an American Indian Tribe.
    I want to commend our colleague, Mike Mclntyre, for picking up the 
mantle for the Lumbee people. I also want to salute Senator Elizabeth 
Dole for her efforts in this matter. This is not the first time Senator 
Dole has appeared before this Committee on behalf of the Lumbee Tribe. 
It is my hope, however, that this will be the last time she finds need 
to do so.
    As to the Virginia Tribes, and the bill being advanced by my good 
friend Jim Moran as we approach the 400th anniversary of the founding 
of Jamestown, it is strange to say the least that the very Native 
Americans who greeted the English settlers are still are not federally 
recognized Indian Tribes today.
    The members of these tribes have faced decades of deliberate 
discrimination from policies aimed at stripping them of their 
identities. They were targeted, and subjected to having their race 
designation changed on their birth certificates and other legal 
documents.
    Yet they have endured, and all six tribes that are the subject of 
H.R. 1294 are recognized by the Commonwealth of Virginia.
    There is new leadership in this Committee, this is a new Congress. 
Let us now seriously go about the business of rectifying wrongs, to the 
Lumbee and to the Virginia Tribes.
    Thank you.
                                 ______
                                 

STATEMENT OF THE HON. RICK RENZI, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. Renzi. Thank you, Mr. Chairman, and good morning to you 
all. The decision to recognize a tribe is one of the most 
important decisions this committee will ever make, and there 
are many reasons for this.
    Recognition entitles a tribe to services and benefits, 
immunities and powers that can have profound impacts on the 
tribe's members, the surrounding communities, the states in 
which they live. But most importantly, it is a nation-to-nation 
recognition of independence and sovereignty.
    It affects the Departments of Interior, Health and Human 
Services, Justice, and every agency that interacts with the 
tribes, whether it is meeting a trust responsibility, dealing 
with water rights, land claims or studying impacts of Federal 
actions.
    Although the Department of Interior would prefer 
Petitioners to meet the seven mandatory criteria of the Office 
of Federal Acknowledgement, Congress reserves the power to have 
the final say. And given the inherent delays in the 
administrative process, Congress may well have to step in and 
make that decision for some of these tribes.
    I want to thank the Chairman for again holding a hearing on 
this issue. I look forward to the testimony of the witnesses 
today, and thank you all for coming by.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. The Chair did fail to recognize as 
well another colleague of ours that is here, a very important 
Member of the Appropriations Committee, Representative Frank 
Wolf. We do welcome you, as well.
    Before going further, though, I do want to recognize a new 
Member of our committee, I guess I should say, and a very 
superb Member of the Freshman class--not the Freshman class, I 
take it back. We don't call them Freshmen, we call them new 
Members, right, Heath?
    Mr. Shuler. Majority.
    The Chairman. Majority Members, right. Majority makers; 
they make us who we are, I guess. So I do want to recognize the 
gentleman from North Carolina; indeed, a valued Member of this 
committee, Mr. Heath Shuler.

    STATEMENT OF THE HON. HEATH SHULER, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Shuler. Thank you, Mr. Chairman. I want to thank 
Chairman Rahall and Ranking Member Young for holding this 
hearing today, and for all the good work that they have done on 
behalf of Native Americans throughout their careers.
    I also want to welcome Principal Chief Michell Hicks and 
other leaders of the Eastern Band of Cherokee Indians who have 
traveled from western North Carolina to the hearing today.
    Mr. Chairman, I grew up in North Carolina near the Eastern 
Band of Cherokee Indian Reservation. I have heard the Cherokee 
speak their native language. I have seen them play a game that 
belongs to them they call stickball. I conducted youth camps on 
the Eastern Band Reservation for young men and women who attend 
the reservation school.
    The Cherokee people have a distinct living culture that 
makes them different from any other people in the world. I am 
embarrassed to say that our Federal government at one time 
tried to take their language and their culture away from them. 
I respect the Cherokee people because the resistance of these 
efforts, and continue to maintain these separate cultures.
    Mr. Chairman, in 1978 the United States Department of 
Interior recognized the need to end the inconsistent process of 
native recognition, and adopted uniform guidelines for Federal 
acknowledgement.
    H.R. 65, the Lumbee Recognition Act, would circumvent that 
process. I cannot support such legislation. I believe that the 
Federal government's process allows for the uniform and 
rigorous evaluation necessary to make an informed and accurate 
decision. This process requires that any petition group must 
meet mandatory criteria in order to become Federally 
recognized.
    This process is a thorough one, managed and overseen by 
qualified experts in the field of genealogy, anthropology, this 
establishment process by any group, including Lumbees. Members 
of Congress should not arbitrarily rule on the identity of a 
people without establishing the facts.
    And the best way to establish those facts is to let the 
system work, and let the experts do their job. The fair way to 
address this situation is to allow the Lumbees to complete the 
administrative process at the Office of the Federal 
Acknowledgement in the Department of Interior. This process 
protects not only the interests of the United States, but 
allows the political and cultural integrity of established 
Indian tribes.
    Mr. Chairman, thank you, and I yield back my time.
    [The prepared statement of Mr. Shuler follows:]

 Statement of The Honorable Heath Shuler, a Representative in Congress 
              from the State of North Carolina, on H.R. 65

    I want to thank Chairman Rahall and Ranking Member Young for 
holding this hearing today and for all the good work they have done on 
behalf of Native Americans throughout their careers.
    I also want to welcome Principal Chief Michell Hicks and the other 
leaders of the Eastern Band of Cherokee Indians who have traveled from 
Western North Carolina to be here for this hearing.
    Mr. Chairman, I grew up in North Carolina near the Eastern Band of 
Cherokee Indian Reservation.
    I have heard the Cherokee people speak their native language, and I 
have seen them play a game that belongs to them they call ``stick 
ball.''
    I conducted youth camps on the Eastern Band Reservation for young 
men and women who attended the reservation schools.
    The Cherokee people have a distinct, living culture that makes them 
different from any other people in the world.
    I am embarrassed to say that our Federal Government at one time 
tried to take their language and culture away from them.
    I respect that the Cherokee people resisted these efforts and 
continue to maintain their separate culture.
    Mr. Chairman, in 1978, the United States Department of Interior 
recognized the need to end the inconsistent process of native 
recognition, and adopted a uniform guideline for federal 
acknowledgement.
    H.R. 65, the ``Lumbee Recognition Act,'' would circumvent that 
process. I cannot support such legislation.
    I believe the federal acknowledgement process allows for the 
uniform and rigorous evaluation necessary to make an informed and 
accurate decision.
    This process requires that any petitioning group meet seven 
mandatory criteria in order to become federally recognized.
    The process is a thorough one, managed and overseen by qualified 
experts in the fields of genealogy, anthropology, and Native American 
history.
    I strongly oppose any attempts to circumvent this established 
process by any group, including Lumbees. Members of Congress should not 
arbitrarily rule on the identity of a people without establishing the 
facts.
    And the best way to establish those facts is to let the system 
work, and let the experts do their job.
    The fair way to address this situation is to allow the Lumbees to 
complete the administrative process at the Office of Federal 
Acknowledgement in the Department of the Interior.
    This process protects not only the interests of the United States 
but also the political and cultural integrity of established Indian 
tribes.
    Thank you.
                                 ______
                                 
    The Chairman. The Chair thanks the gentleman from North 
Carolina, and also wishes to recognize another of our Members 
of the House that has joined us today: our colleague, Mr. 
Patrick McHenry. And we will look forward to his testimony, as 
well.
    At this point, the Chair will recognize a gentleman from 
North Carolina, Mr. Mike McIntyre.

  STATEMENT OF THE HON. MICHAEL McINTYRE, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. McIntyre. Thank you, Mr. Chairman and Members of the 
Committee. Thank you for this opportunity to testify before you 
regarding Federal recognition for the Lumbee Indians.
    Chairman Rahall and Ranking Member Young, the members of 
the Lumbee Tribe and I greatly appreciate your support of the 
Lumbee Tribe in the past, your willingness to conduct this 
hearing today, and your support in the present; and also your 
willingness to let us act and move forward in the future.
    The Lumbee Tribe has two true friends on this committee--
Chairman Nick J. Rahall and Representative Don Young, the 
Ranking Member. We greatly appreciate your commitment and your 
concern about this situation.
    I also want to thank my North Carolina colleagues who have 
joined us, and especially Senator Dole, who will be joining us, 
for her leadership, as well as Senator Burr's commitment to 
this. And to my colleague, Congressman Robin Hayes, whose 
district adjoins mine, and who also has a large constituency of 
the Lumbee people.
    Chairman Rahall, I would like to unanimous consent to place 
into the record three letters from the last three Governors for 
the last 31 years in North Carolina, both Republican and 
Democrat, who have written letters in support of the 
recognition of this tribe. For 31 years our top official in our 
state from both parties have recognized the need to allow 
Federal recognition to go forward. Thank you, Mr. Chairman.
    Over the last four years the Lumbee Tribe and many of its 
members have faithfully traveled to Capitol Hill. They are now 
attending their fourth hearing in the last four years to 
present this strong and solid case for Federal recognition. And 
this doesn't even take into account the numerous other times 
that members of the tribe, over the last several decades, have 
come up here to seek recognition. They have been patient, they 
have been respectful, and yes, they have been persistent.
    But Mr. Chairman, the time for action has come now. The 
time has come for moving this legislation. And I greatly 
appreciate your allowing this hearing to be this early in this 
session, so we can do just that. The time has come for 
discrimination to end, and recognition to begin.
    During the past few hearings the Lumbee Tribe has heard 
concerns raised about whether or not they are ``true Indians,'' 
and I am certain that will be raised here again today.
    Chairman Rahall, that question is a dagger in the heart of 
the good, decent, and honorable citizens who compose the Lumbee 
Tribe. It represents a weak attempt to try and confuse the 
issue of Federal recognition.
    Mr. Chairman, the record and the facts are crystal clear 
that the Lumbee Tribe exists as an Indian tribe, and has done 
so over its long history. In fact, the U.S. Department of 
Interior has on several occasions concluded that the Lumbees 
are a distinct Indian community.
    You will also hear comments today about the names that they 
have had. The various names by which the tribe has been known 
were the result of state law. In no case, except for the name 
Lumbee, were these other names chosen by the tribe itself. All 
of these other names were imposed on the tribe, or chosen for 
them.
    Furthermore, the BIA regulations on acknowledgement of 
Indian tribes specifically provide--again, the BIA regulations 
specifically provide that changes in name are not relevant to 
Indian identity.
    Now, why the need for Federal legislation? Why not let the 
tribe go through the regular process? We are going to hear that 
today; in fact, it has already been alluded to. Because in 1956 
Congress passed the Lumbee Act, which acknowledged the Lumbee 
as Indians in name only, but denied them any further Federal 
recognition or benefits.
    Since then, the tribe has tried to go through the BIA 
process, faithfully following the regulations put forth. But in 
1989, the Solicitor General of the United States himself ruled 
that only Congress could extend full recognition because of the 
1956 Act. That in a nutshell is why we are here today.
    There is exact precedent for this case. The Tiwa Tribe of 
Texas were recognized in name only in 1968, just as the Lumbee 
Tribe. In fact, that bill was patterned after the 1956 Lumbee 
bill. And the Department of Interior said it could not proceed 
with the regular process because of the fact of the Solicitor 
General's opinion, that they would have to go back before 
Congress to correct this unfortunate and unfair situation.
    And so in 1987, Congress did enact legislation to grant the 
Tiwas full recognition. So now what are we left with? The only 
Indian tribe in America in this unique situation, the only 
tribe where Congress has recognized the tribe in name only, but 
then never granted the full recognition, and left this tribe in 
perpetual limbo.
    Now, the Lumbee Indians have been inhabitants of this land 
since Englishmen first arrived on the coast of North Carolina 
and discovered Native Americans in the late 1500s. In fact, 
included among those Native Americans were both the Cheraw and 
Pee Dee Indians, who are direct ancestors of the Lumbees.
    Later, in 1888, the Lumbees made their first effort at 
gaining Federal recognition. What does that mean? It means for 
over half the time that our country has been in existence, 119 
of the 231 years of our great American history, the Lumbee 
Indians have been seeking the recognition and respect they 
deserve from our U.S. Government. As the largest tribe east of 
the Mississippi and the largest non-recognized tribe in 
America, it is unfathomable that this tribe of 55,000 people do 
not have the dignity to be recognized by our Federal 
government.
    I was born and reared in Robeson County, North Carolina, 
the primary home of the Lumbee people. I go home virtually 
every weekend. I have the honor of representing approximately 
40,000 members of the Lumbee Tribe who live in my home county. 
In fact, there are more Lumbees in Robeson County than there 
are any other racial or ethnic group.
    The Lumbee Indians, many of whom are here in the audience 
today, many of whom are lining the halls who came up here by 
the busloads for this hearing, as they have done in the past, 
are honorable friends, many friends who I have known all my 
life. And they are supportive to the success of everyday life 
in southeastern North Carolina, and indeed, to our nation.
    From medicine and law, to banking and business, from farm 
and factories to the schools and the churches, from the 
government, military, and community service to entertainment 
and to athletic accomplishments, as you will hear from our 
friend, Coach Kelvin Sampson, the Lumbees have made tremendous 
contributions to our county, state, and nation. In fact, in my 
home county, the former Sheriff, the current Clerk of Court, 
the Registrar of Deeds, the school superintendent, several 
county commissioners and school board members, and my own 
representative in the State Legislature up in Raleigh are all 
members of the Lumbee Tribe, as well as two of our District 
Court Judges and one of our Superior Court Judges.
    The Lumbees are fully incorporated into society. I have 
Lumbee members in every facet of society that are involved, as 
I know, even in my own church. Friends of mine that I have 
known all my life.
    Mr. Chairman, the contributions recognized by our 
colleagues here in the U.S. House through their support of H.R. 
65 have been to let this recognition proceed. I am pleased that 
we have 206 Members of the U.S. House from both parties who 
have cosponsored the Lumbee recognition.
    Mr. Chairman, in conclusion, let me urge this committee and 
this Congress not to delay any more on this issue. Justice 
delayed is justice denied. And as we will hear from the next 
panel, on the evidence, it is clear, cogent, and convincing. It 
is time to say yes to dignity. It is time to say yes to 
respect, yes to fundamental fairness, yes to decency, yes to 
honor; indeed, yes to Federal recognition.
    As I said earlier, it is time for discrimination to end, 
and recognition to begin.
    Thank you, Mr. Chairman, for this opportunity to testify. I 
look forward to working with you and the Committee for this 
long-overdue recognition. Indeed, may God grant that justice 
will finally be done. And with your help, I am confident it 
will. Thank you.
    [The prepared statement of Mr. McIntyre follows:]

 Statement of The Honorable Mike McIntyre, a U.S. Representative from 
      the 7th Congressional District of North Carolina, on H.R. 65

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to testify before you today regarding federal recognition 
for the Lumbee Indians.
    Chairman Rahall and Ranking Member Young, the members of the Lumbee 
Tribe and I appreciate your support of the Lumbee Tribe in the past, 
your willingness to cosponsor our bill for federal recognition in this 
Congress, and your willingness to listen again today as the tribe 
presents its case for federal recognition. The Lumbee Tribe has two 
true friends in Representatives Nick Joe Rahall and Don Young, and I 
know that I speak on behalf of all the Lumbee members when I say, 
``thank you.''
    A special thanks to my North Carolina colleague--Senators Dole for 
her leadership and work on this important effort and for being here 
today to testify.
    Chairman Rahall, I would like to ask unanimous consent to place 
into the record 3 letters from North Carolina's only Governors over the 
last 31 years--Jim Hunt, James Martin and Mike Easley. These letters 
show bipartisan support for federal recognition for the Lumbee Tribe 
from our state's highest official.
    Mr. Chairman, over the last four years, the Lumbee Tribe and many 
of its members have faithfully traveled to Capitol Hill. They are now 
attending their fourth hearing in four years to present their strong 
and solid case for federal recognition by the U.S. Congress. And this 
does not take into account the numerous times the Congress has 
discussed this issue prior to this time. The Lumbees have been patient. 
They have been respectful. And, yes they have been persistent.
    But Mr. Chairman, the time has come for action. The time has come 
for movement of legislation. The time has come for discrimination to 
end and recognition to begin! The time for Lumbee recognition is now!
    During the past few hearings, the Lumbee Tribe has heard concerns 
raised about them as to whether they are ``true Indians,'' and I am 
certain that it will be raised again here today. Chairman Rahall, that 
question is a dagger in the heart of the good, decent, and honorable 
people who compose the Lumbee Tribe! It represents a weak attempt to 
try and confuse the issue of federal recognition.
    Mr. Chairman, the record and the facts are crystal clear--the 
Lumbee Tribe exists as an Indian tribe and has done so over its long 
history. The Department of Interior has, on several occasions, 
concluded that the Lumbees are a distinct Indian community. The various 
names by which the tribe has been known were the result of State law. 
In no case, except for the name Lumbee, were the names chosen by the 
tribe itself. All the other names were imposed upon the tribe or chosen 
for them! Furthermore, the BIA regulations on acknowledgement of Indian 
tribes specifically provide that changes in names are not relevant to 
Indian identity.
    In the late 1500's, when English ships landed on the shores at 
Roanoke Island on the North Carolina coast, the Englishman discovered 
Native Americans. Included among those Native Americans were both the 
Cheraw and Pee Dee Indians, who are direct ancestors of the Lumbee 
Indians. Later, in 1888, the Lumbees made their first effort at gaining 
federal recognition. For at least 500 years, Lumbee Indians have been 
inhabitants of this land, and for over half of the time that our 
country has been in existence, 119 (First petition to Congress was in 
1888) of the 231 (2007-1776 = 231) years, the Lumbee Indians have been 
seeking the recognition and respect that they deserve. As the largest 
tribe east of the Mississippi and the largest non-recognized tribe in 
America, it is unfathomable that this tribe of 55,000 people has never 
been fully recognized by our government.
    I was born and reared in Robeson County, North Carolina, the 
primary home of the Lumbee people. I go home there virtually every 
weekend, and I have the high honor of representing approximately 40,000 
of the 55,000 Lumbees who live in my home county. In fact, there are 
more Lumbees in Robeson County than any other racial or ethnic group. 
The Lumbee Indians, many of whom are in the in the audience today, are 
my friends, many of whom I have known all my life. They are important 
to the success of everyday life in Southeastern North Carolina, and 
their contributions to our society are numerous and endless. From 
medicine and law to business and banking, from the farms and factories 
to the schools and the churches, from government, military, and 
community service to entertainment and athletic accomplishments, the 
Lumbees have made tremendous contributions to our county, state, and 
nation. In fact, in my home county, the former sheriff, the current 
clerk of court, the register of deeds, the school superintendent, 
several county commissioners and school board members, and the 
representative in the state legislature of the area where I live, as 
well as two of the district court judges and one of the superior court 
judges are all Lumbee Indians.
    Mr. Chairman, those contributions are being recognized by our 
colleagues here in the U.S. House through their support of H.R. 65, 
legislation that I have introduced to grant the Lumbees federal 
recognition. I am pleased to report to the Natural Resources Committee, 
that 206 members of the U.S. House from both parties have cosponsored 
Lumbee recognition!
    Lumbee contributions are also being recognized at home by both the 
public and private sector. From City Councils to County Commissioners, 
from the Chamber of Commerce to the Southeastern Regional Medical 
Center--all have endorsed the effort to grant the Lumbees federal 
recognition.
    Mr. Chairman, in conclusion, let me urge this Committee, and this 
U.S. Congress, not to delay any more on this issue. Justice delayed is 
justice denied! As you will hear from the next panel, the evidence is 
clear, cogent, and convincing. It is time to say ``yes''--yes to 
dignity and respect; yes to fundamental fairness; yes to decency; yes 
to honor; yes to federal recognition! And as I said earlier, it's time 
for discrimination to end and recognition to begin!
    Thanks again for the opportunity to testify, and I look forward to 
working with you and the committee for this long over-due recognition. 
May God grant that justice finally be done! With your help, I am 
confident that it will!
                                 ______
                                 

    [NOTE: Letters submitted for the record by Mr. McIntyre 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

The Chairman. Thank you, Mike. The Chair at this time 
will ask unanimous consent that all Members' testimony will be 
made part of the record as if actually read, and they are 
encouraged to summarize. And we are going to recognize Members 
in the order that is listed here. And that would be Robin Hayes 
next, but there needs to be room made for Robin at the 
testimony table.
    Mr. Renzi. A lot of room.
    The Chairman. I didn't say that. Your friend, Rick, up here 
said a lot of room, Robin.
    Mr. Renzi. Make some space over there.
    The Chairman. Welcome. You may proceed.

STATEMENT OF THE HON. ROBIN HAYES, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF NORTH CAROLINA

    Mr. Hayes. Thank you, Mr. Chairman. I was fortunate enough 
to hail from Robinson County until recent redistricting, so 
this is very special to work with Mike McIntyre and others to 
get this done.
    Chairman Rahall and Ranking Member Young, and in this case, 
Ranking Member Renzi, thank you for taking time to hold this 
hearing on the Lumbee Recognition Act, H.R. 65.
    Since I have been a Member of Congress I have worked hard 
to see that the Lumbee Tribe receives full Federal recognition. 
I am very pleased that Lumbee Tribal Chairman Jimmy Goins is 
able to join us today and testify on this important issue, as 
well.
    As you know, I am an original cosponsor of H.R. 65, which 
was sponsored by my friend and colleague, Congressman Mike 
McIntyre. Mike has been a very strong advocate of the Lumbee 
Tribe for years. It has been an honor to work with him on this 
important issue, as well.
    Senator Dole and Senator Burr are working hard to garner 
support for the Lumbee Recognition Act in the Senate, and I 
appreciate their leadership on this issue.
    The Lumbee Indian Tribe has an extensive history in North 
Carolina, ranging back to 1724 on Drowning Creek, which is now 
referred to as the Lumbee River. The Lumbee Tribe has been 
recognized by the State of North Carolina since 1885.
    The Lumbee Tribe has over 40,000 members, the largest tribe 
in the state. I think Mike corrected it to 65,000. Eighth 
District, which I serve, is home to many of the Lumbees that 
reside in North Carolina, primarily in Hoke, Scotland, and 
Cumberland Counties. These important members of my constituency 
should be Federally recognized so they are able to receive 
various Bureau of Indian Affairs and other Federal government 
services and programs that they rightly deserve.
    The heritage of the Lumbee Tribe is as strong today as when 
first recognized by North Carolina. And the tribe should be 
proud of the rich and valued cultural contribution they have 
given to our communities.
    My hope is that we, as a Congress, do what the Federal 
government should have done decades ago, and give the Lumbee 
Tribe the distinction of a Federally recognized tribe.
    Thank you all again for holding this hearing. I look 
forward to continuing to work with you on this important issue.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Hayes follows:]

 Statement of The Honorable Robin Hayes, a Representative in Congress 
              from the State of North Carolina, on H.R. 65

    Chairman Rahall and Ranking Member Young, I appreciate you taking 
the time to hold this hearing on the Lumbee Recognition Act, H.R. 65. 
Since I have been a Member of Congress, I have worked hard to see that 
the Lumbee Tribe receives full federal recognition. I am very pleased 
that Lumbee Tribal Chairman Jimmy Goins is able to join us today and 
testify on this important issue as well.
    As you know, I am a proud original cosponsor of the H.R. 65, which 
was sponsored by my friend and colleague Congressman Mike McIntyre. 
Mike has been a strong advocator of the Lumbee Tribe for years and it 
has been an honor to work with him on this important issue as well. I 
know Senator Dole and Senator Burr are working hard to garner support 
for the Lumbee Recognition Act in the Senate, and I appreciate their 
leadership on this issue.
    The Lumbee Indian Tribe has an extensive history in North Carolina 
ranging back to 1724 on Drowning Creek, which is now referred to as the 
Lumbee River. The Lumbee Tribe has been recognized by the state of 
North Carolina since 1885. The Lumbee Tribe has over 40,000 members and 
is the largest Tribe in the state of North Carolina.
    The 8th District, which I serve, is home to many of the Lumbees 
that reside in North Carolina, primarily in Hoke, Scotland and 
Cumberland counties. These important members of my constituency should 
be federally recognized so they are able to receive various Bureau of 
Indian Affairs and other federal government services and programs they 
rightly deserve.
    The heritage of the Lumbee Tribe is as strong today as when first 
recognized by North Carolina and the Tribe should be proud of the rich 
and valued cultural contribution they have given to our communities. It 
is my hope that we as a Congress do what the federal government should 
have done decades ago and give the Lumbee Tribe the distinction of a 
federally recognized Tribe.
    Thank you all again for holding this hearing. I look forward to 
continuing to work with you all on this important issue.
                                 ______
                                 
    The Chairman. All right. The next witness is Representative 
Jim Moran from the State of Virginia.

 STATEMENT OF THE HON. JIM MORAN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VIRGINIA

    Mr. Moran. Thank you very much, Mr. Chairman. Thank you for 
your leadership. And the other Members of the Committee, Mr. 
Renzi, the Ranking Member.
    I do appreciate your willingness to hold this hearing and 
provide me with an opportunity to tell the story of six of 
Virginia's Native American tribes.
    This is one of the worst cases of injustice that was 
perpetrated by the European settlers upon Native Americans. And 
this is a long and very troubling history. But I think you will 
find that this is one of the unique aspects of that history.
    Back in 1607 it was these six tribes that welcomed the 
English settlers at Jamestown, and in fact, enabled them to 
survive. In 1677, however, after having been subdued and pushed 
off their land, they did sign a treaty with what was then the 
government; of course, there was no sovereign United States at 
that time. It was with England, King Charles II.
    This treaty is the longest existing treaty. It spans 329 
years. It has been recognized by the Commonwealth of Virginia 
every year, and by the English Government.
    But unfortunately, throughout the history of these tribes, 
they have been treated in a fashion that gave them no rights, 
treated them in the same despicable manner that the children of 
slaves were treated in the Commonwealth of Virginia; denied 
them the ability to live on their land, denied them the ability 
to get an education, a public education; denied them the 
ability to hold down jobs. And yet, they survived, these six 
Indian tribes.
    Now, in addition to the uniqueness of having the longest 
treaty, which incidentally was ratified by Chief Justice John 
Marshall, and will be recognized this year in Jamestown when we 
celebrate the Jamestown Settlement, the 400th Anniversary of 
the Jamestown Settlement, there is a second unique circumstance 
with regard to these tribes. And that is the paper genocide 
that was allowed to occur.
    In 1924, at the time that Native Americans were being given 
the right to vote in other states, the Eugenics Movement, which 
was this racial superiority concept, was very strong in 
Virginia, and it culminated with the enactment of the Racial 
Integrity Act of 1924. And that empowered state officials to go 
into state and local courthouses, and to destroy the records 
that pertained to these Indian tribes. If they didn't destroy 
them, they changed their designation as, in the language of 
that day, colored. The actual term was issued.
    As a result of this Act in 1924, every resident of the 
state had to check a box whether you were white or colored or 
issued. And they were put in the same category as the 
descendants of slaves, which obviously is another aspect of 
Virginia's history that is despicable.
    But Native Americans were particularly targeted in order to 
eliminate their identity. The guy that was pushing this 
movement bragged about having eliminated the Indian population. 
And in fact, it was a crime to identify yourself as an Indian, 
punishable with a year's jail time.
    If you wanted to take your child out of a hospital, you 
could not take your child out of a hospital if you were an 
Indian spouse without identifying them as non-white or colored. 
And by the implementation of that law, which incidentally in 
Virginia existed for more than 50 years--it was not struck down 
until 1967--it, as a result, denied the existence of these 
tribes. And they have tried now, as a result of legislation 
that Governor George Allen signed back in 1997, to try to 
recoup these records, but most of them have been destroyed.
    They have gone to the Bureau of Acknowledgement in BIA to 
get recognition, but it is extraordinarily difficult because 
their records were legally destroyed. And they had been told by 
the Bureau of Acknowledgement that the process cannot be 
completed within their lifetimes.
    They have suffered. They were not allowed education, they 
were not allowed employment. They are very conservative in a 
cultural sense, because the only people who were willing to 
educate them were Christian missionaries. I know gambling is an 
issue. They believe gambling is a sin.
    Down the street from where they live, there are Bingo 
parlors run by the American Legion, the VFW, whatever. They 
don't participate. As far as I have been told, they don't even 
participate in the state lottery, which Virginia uses to 
finance its education system, because they believe gambling is 
a sin.
    But nevertheless, the last seven years they have been 
denied recognition.
    Mr. Chairman, there is no doubt that the Chickahominy, the 
Eastern Chickahominy, the Monacan, the Nansemond, the 
Rappahannock, the Upper Mattaponi Tribes all exist. They have 
existed on a continuous basis since before the Western European 
settlers stepped foot in America. They are here with us today.
    Helen Rountree, who will testify today, has spent her 
career verifying their history and their existence. Her 
publications are well known and well regarded. Her expertise on 
Virginia tribes cannot be matched at the Bureau of Indian 
Affairs.
    I know there is great resistance from some Members in 
Congress to grant any Native American tribe Federal 
recognition. And I can appreciate how the issue of gambling and 
its economic and moral dimensions have influenced many Members' 
perspective on tribal recognition issues. But I think the 
circumstances of the situation that these tribes have endured, 
and the legacy that they still confront today, outweigh these 
concerns, which have little to do with these Indians, but are a 
larger issue.
    These are Native American people who have been subject to 
grievous injustice for hundreds of years. In this legislation 
we have made substantial compromises to give the Governor of 
Virginia and the Virginia General Assembly, who I think anyone 
would recognize is a pretty conservative Legislature, the 
option to say no to any kind of gaming compact.
    So I stand ready to work with you to find the right 
equation that is respectful of tribal sovereignty and rights, 
and the Members' concerns about this issue. But the Congress 
has the power to recognize these tribes. It has exercised this 
power in the past, and it should exercise this power again with 
respect to these six tribes.
    The Jamestown Settlement is going to be celebrated very 
soon. It would be almost criminal to be celebrating that 
settlement without recognizing the very Indian tribes that 
enabled that settlement to survive.
    Mr. Chairman, I thank you for your cosponsorship of this. I 
had a very good talk with Mr. Young last night. He has told me 
he is strong in favor of this. This is the right thing to do, 
and I have every confidence that this committee will do the 
right thing with regard to these six Indian tribes.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Moran follows:]

Statement of The Honorable James P. Moran, a Representative in Congress 
                from the State of Virginia, on H.R. 1294

    Good morning and thank you, Mr. Chairman and Members of this 
Committee.
    I appreciate your willingness to hold this hearing and provide me 
with an opportunity to help tell the story of six of Virginia's Native 
American tribes. This is not the first time this story has been told. 
Nor is it the first time I or my fellow witnesses have been on a panel 
before this committee to plead our case that Virginia's historic tribes 
should be recognized by the federal government.
    Like most Native Americans, the Virginia tribes first welcomed 
western settlers, but quickly became subdued, pushed off their land, 
and, up through much of the 20th Century, denied full rights as U.S. 
citizens. Despite their devastating loss of land and population, the 
Virginia Indians successfully overcame years of racial discrimination 
that denied them equal opportunities to pursue their education and 
economic security and to preserve their cultural identity. Their story 
of survival doesn't encompass decades, it spans centuries of racial 
hostility and coercive state and state-sanctioned actions.
    Their story, however, is unique in two ways:
    First, unlike most tribes that resisted encroachment and obtained 
federal recognition when they signed peace treaties with the federal 
government, Virginia's tribes signed their peace treaties with the 
Kings of England. Most notable among these was the Treaty of 1677 
between these tribes and Charles II. This treaty has been observed by 
Virginia every year for the past 329 years when the Governor accepts 
tribute from the tribes in a ceremony now celebrated at the State 
Capitol every November. I understand that this is the longest 
celebrated treaty in the United States.
    In the intervening years between 1677 and the birth of this nation, 
however, these six tribes were dispossessed of most of their land and 
became too weak pose a threat. They were never in a position to 
negotiate with and receive recognition from our nascent federal 
government. Last year, the English government reaffirmed its 
recognition and hosted a visit by the modern Virginia tribes. But, as 
we are about to kick off the 400th anniversary of Jamestown, scheduled 
for early next month, these same tribes, who ensured the survival of 
this first English permanent settlement in the new world, have yet to 
be recognized by the federal government.
    The second unique circumstance for the Virginia tribes, and this 
point speaks to the reason why Congress must act to recognize them, is 
that the Virginia tribes have experienced what has been called a 
``paper genocide'' perpetrated by the Commonwealth of Virginia. At the 
time when the federal government granted Native Americans the right to 
vote, Virginia's elected officials were embracing the eugenics movement 
and began adopting racially hostile laws targeted at those classes of 
people who did not fit into the dominant white society.
    These actions culminated with the enactment of the Racial Integrity 
Act of 1924. This act empowered zealots, like Walter Plecker, a state 
official, to destroy state and local court house records and reclassify 
in Orwellian fashion all non-whites as ``colored.'' It targeted Native 
Americans and sought to deny them their identity. To call yourself a 
``Native American'' in Virginia was to risk a jail sentence of up to 
one year. The law remained in effect until it was struck down in the 
federal courts in 1967.
    For up to 50 years, state officials waged a war to destroy all 
public and many private records that affirmed the existence of Native 
Americans in Virginia. Historians have affirmed that there is no other 
state that compares to Virginia's efforts to eradicate its citizens' 
Indian identity. All of Virginia's state-recognized tribes have filed 
petitions with the Bureau of Acknowledgement seeking federal 
recognition.
    But it is a very heavy burden the Virginia tribes will have to 
overcome and one fraught with complications that officials from the 
bureau have acknowledged may never be resolved in their lifetime. The 
acknowledgement process is already expensive, subject to unreasonable 
delays, and lacks dignity. Virginia's legacy of paper genocide only 
further complicates these tribes' quest for federal recognition, making 
it difficult to furnish corroborating state and official documents and 
aggravating the injustice already visited upon these tribes.
    It wasn't until 1997 when Governor George Allen signed legislation 
directing state agencies to correct state records that the tribes were 
given the opportunity to correct official state documents that had 
deliberately been altered to list them as ``colored.'' The law allows 
living members of the tribes to correct their records, but the law 
cannot correct the damage done to past generations. Two years later, 
the Virginia General Assembly adopted a resolution calling upon 
Congress to enact legislation recognizing the Virginia tribes. I am 
pleased to have honored that request and beginning in 2000 and in 
subsequent sessions, I and Virginia's Senators have introduced 
legislation to recognize the Virginia tribes. I also greatly appreciate 
the fact that you, Mr. Chairman, and several Members of this Committee 
have agreed to cosponsor this year's bill.
    Mr. Chairman, there is no doubt that the Chickahominy, the Eastern 
Chickahominy, the Monacan, the Nansemond, the Rappahannock and the 
Upper Mattaponi tribes exist. These tribes have existed on a continuous 
basis since before the first western European settlers stepped foot in 
America, and, they are here with us today. Helen Rountree, who will 
testify today, has spent her career verifying their history and their 
existence. Her publications are well known and well regarded. Her 
expertise on Virginia tribes cannot be matched at the Bureau of Indian 
Affairs.
    I know there is great resistance from Congress to grant any Native 
American tribe federal recognition. And, I can appreciate how the issue 
of gambling and its economic and moral dimensions have influenced many 
Members' perspectives on tribal recognition issues. I think the 
circumstances and situation these tribes have endured and the legacy 
they still confront today, however, outweigh these concerns. We have 
made significant compromises to give the Governor and the Virginia 
General Assembly the option to say ``no'' to a gaming compact. And, I 
stand ready to work with you to find the right equation that is 
respectful of tribal sovereignty and rights and Members' concerns about 
this issue.
    Congress has the power to recognize these tribes. It has exercised 
this power in the past, and it should exercise this power again with 
respect to these six tribes. I stand ready to work with you and this 
committee to make it happen.
    Thank you.
                                 ______
                                 
    The Chairman. Thank you, Mr. Moran. The Chair has already 
recognized the gentlelady from North Carolina, the Senator, Ms. 
Dole. We welcome you to the Committee. If a gentleman would 
yield his seat there, maybe we can have you up to testify.
    We always welcome you to the Committee. We know this is not 
your first time on this issue. We hope it will be the last time 
on this issue, but we welcome you back all the time.

 STATEMENT OF THE HON. ELIZABETH DOLE, A UNITED STATES SENATOR 
                FROM THE STATE OF NORTH CAROLINA

    Senator Dole. Chairman Rahall, thank you very much. And my 
apologies. Two votes were scheduled in the Senate this morning, 
and so I am a bit late. But I want to thank you very much for 
holding this important hearing today. I want to thank you for 
your leadership on so many issues affecting Native Americans, 
in particular for your attention to the plight of the Lumbees, 
and for strongly considering full Federal recognition of this 
tribe.
    I deeply appreciate the hard work and the leadership of 
Congressman Mike McIntyre on this issue. Mike's district 
includes Robinson County, the traditional home of the Lumbee 
Tribe. This recognition effort enjoys bipartisan support both 
in the House, including Congressman Robin Hayes and others, 
with, of course, Robin's adjacent district has many Lumbee 
residents, and in the Senate, where I have introduced companion 
legislation to the bill we are considering today.
    I welcome the support of my good friend, Senator Richard 
Burr, who is a cosponsor of my bill. Senator Burr wishes he 
could be here today, and Mr. Chairman, I request that his 
statement be included in the record.
    The Lumbee Recognition Act was the very first bill that I 
introduced as a Member of the U.S. Senate. I have since 
continued to champion this cause because I passionately and 
fervently believe that Congress must act to provide full 
Federal recognition for the Lumbees.
    With more than 50,000 members, the Lumbee Tribe is the 
largest east of the Mississippi River, as well as the largest 
non-Federally recognized tribe in America. For more than a 
century the Lumbees have been recognized as American Indians. 
North Carolina formally recognized the tribe in 1885, and three 
years later, in 1888, the tribe began what has become a very 
long quest for recognition and assistance from the Federal 
government.
    Over the years many bills were introduced in Congress to 
provide the Lumbees with Federal recognition, but these bills 
were never acted upon, or they were passed by only one Chamber. 
Finally, in 1956, Congress passed the Lumbee Act, which 
recognized the tribe, but it included a terribly unfair caveat. 
The Lumbees were denied the benefits that every other Federally 
recognized tribe receives.
    Refusing to accept this partial nod to their legitimacy, 
the Lumbees and their allies in Congress have remained 
dedicated to the quest for the full recognition that this tribe 
deserves.
    I know there are those who have argued, and will do so 
again today, that the Lumbees should be required to go through 
the Bureau of Indian Affairs, rather than receive full 
recognition through an Act of Congress. However, the Lumbee Act 
of 1956 actually prohibits the tribe from going through the BIA 
process. As the law now stands, the Lumbee Tribe can only be 
recognized by an Act of Congress.
    Just one other tribe, the Tiwas of Texas, faced a similarly 
unfair situation following the passage of a comparable bill in 
1965. But in 1987, Congress enacted special legislation to 
recognize them. This makes the Lumbees the only tribe in this 
country still trapped in this legal limbo, and ineligible for 
the administrative acknowledgement process because of an 
earlier Act of Congress.
    But the BIA process is actually reserved for tribes whose 
legitimacy must be established. And as we know, that is 
certainly not the case with the Lumbees. Their legitimacy has 
been established time and time again, Mr. Chairman. There have 
been numerous studies by the U.S. Department of the Interior, 
beginning as early as 1912 and again in 1914, and yet again in 
1943. And each time it has been determined that the Lumbees are 
indeed an Indian tribe, descended from the historic Cheraw 
Indians.
    There is no need to waste the tribe's time and money or the 
government's time and money again. It has also been documented 
by GAO that getting through the BIA process can be arduous and 
extensive. A 2001 GAO report revealed that it can take up to 15 
years to resolve petitions for recognition. And a 2005 follow-
up report underscored that even with some improvements to the 
BIA process, it would still take years for BIA to work through 
its current backlog of recognition petitions, and even longer 
to consider new petitions.
    It is clear that even if the Lumbees could legally go 
through BIA, this would only impose yet another lengthy delay.
    I have had many opportunities to visit with the Lumbees. 
They are a people of great pride, and I am in awe of their 
steadfastness on this issue, even after years of 
disappointments. One occasion in particular stands out in my 
mind. This is a 2003 rally in Robinson County with Congressman 
McIntyre.
    This rally brought together the entire community, folks 
from all backgrounds and walks of life uniting for a common 
goal: getting the Lumbee Indians the full recognition and 
benefits they deserve.
    Today we continue working to achieve that goal, Mr. 
Chairman. Since my arrival in the Senate in 2003, this is the 
third committee hearing that Lumbee Chairman Jimmy Goins and 
members of the Lumbee Tribe have journeyed to Washington to 
attend. Each time they have made their case for Federal 
recognition. Even though we have been delighted, and I must say 
I have been very proud that a number of times the Senate 
Committee has approved this legislation, the full House and 
Senate have yet to take positive action.
    Undeterred, the Lumbee tribal leadership is here once 
again. And I am inspired, and again immensely proud, to 
continue this fight alongside them.
    I am confident that after hearing testimony today, this 
committee will agree that the Lumbee Tribe deserves full 
Federal recognition. And I urge you to report out this 
legislation as expeditiously as possible. The long record 
compiled by the Congress and the Department of the Interior 
demonstrates the legitimacy of the Lumbee Tribe. And let me 
again underscore, the State of North Carolina has acknowledged 
the Lumbee Tribe's existence for well over a century.
    Simply put, this is about righting a wrong and allowing 
future generations of Lumbees to benefit from the recognition 
for which their ancestors have tirelessly fought. The time is 
now, Mr. Chairman, the time is now. It is time for decisive 
action by Congress. Providing the tribe full recognition and 
benefits is the only fair and just course.
    So I thank you again for giving this issue the attention it 
deserves, Mr. Chairman. And I thank you for the privilege, and 
all the Committee Members, thank you for the privilege of 
presenting my heartfelt concerns regarding the need for full 
Lumbee recognition.
    Thank you, Mr. Chairman.
    [The prepared statement of Mrs. Dole follows:]

  Statement of The Honorable Elizabeth Dole, a U.S. Senator from the 
                        State of North Carolina

    Chairman Rahall and Ranking Member Young, thank you very much for 
holding this important hearing today. Thank you for your leadership on 
so many issues affecting Native Americans--in particular, for your 
attention to the plight of the Lumbees and for strongly considering 
full federal recognition of this tribe.
    I greatly appreciate the hard work of Congressman Mike McIntyre on 
this issue. Mike McIntyre's district includes Robeson County, the 
traditional home of the Lumbee Tribe. This recognition effort enjoys 
bipartisan support both in the House--including Congressman Robin 
Hayes, whose adjacent district has many Lumbee residents--and in the 
Senate, where I have introduced companion legislation to the bill we 
are considering today. I welcome the support of my good friend Senator 
Richard Burr, a cosponsor of my bill. Senator Burr wishes he could be 
here today, and Mr. Chairman, I request that his statement be included 
in the record.
    The Lumbee Recognition Act was the very first bill I introduced as 
a member of the United States Senate. I have since continued to 
champion this cause because I passionately and fervently believe that 
Congress must act to provide full federal recognition for the Lumbees. 
With more than 50,000 members, the Lumbee Tribe is the largest east of 
the Mississippi River, as well as the largest non-federally recognized 
tribe in America. For more than a century, the Lumbees have been 
recognized as American Indians. North Carolina formally recognized the 
tribe in 1885, and three years later, in 1888, the tribe began what has 
become a very long quest for recognition and assistance from the 
federal government.
    Over the years, many bills were introduced in Congress to provide 
the Lumbees with federal recognition, but these bills were never acted 
upon or were passed by only one chamber. Finally, in 1956, Congress 
passed the Lumbee Act, which recognized the tribe ``but it included a 
terribly unfair caveat: the Lumbees were denied the benefits that every 
other federally recognized tribe receives. Refusing to accept this 
partial nod to their legitimacy, the Lumbees--and their allies in 
Congress--have remained dedicated to the quest for the full recognition 
that the tribe deserves.
    I know there are those who have argued--and will do so again 
today--that the Lumbees should be required to go through the Bureau of 
Indian Affairs, rather than receive full recognition through an act of 
Congress; however, the Lumbee Act of 1956 actually prohibits the tribe 
from going through the BIA process. As the law now stands, the Lumbee 
Tribe can only be recognized by an act of Congress. Just one other 
tribe, the Tiwas of Texas, faced a similarly unfair situation following 
the passage of a comparable bill in 1965. But in 1987, Congress enacted 
special legislation to recognize them. This makes the Lumbees the only 
tribe in the country still trapped in this legal limbo and ineligible 
for the administrative acknowledgement process because of an earlier 
act of Congress
    The BIA process is reserved for tribes whose legitimacy must be 
established, and as we know, that is certainly not the case with the 
Lumbees. Their legitimacy has been established--time and time again. 
There have been numerous studies by the U.S. Department of the 
Interior, beginning as early as 1912, then again in 1914, and yet again 
in 1933. Each time, it has been determined that the Lumbees are indeed 
an Indian tribe, descended from the historic Cheraw Indians. There is 
no need to waste the tribe's or the government's time and money again.
    It has also been documented by GAO that getting through the BIA 
process can be arduous and extensive. A 2001 GAO report revealed that 
it can take up to 15 years to resolve petitions for recognition. And a 
2005 follow-up report underscored that even with some improvements to 
the BIA process, it would still take years for BIA to work through its 
current backlog of recognition petitions, and even longer to consider 
new petitions. It is clear that even if the Lumbee could legally go 
through BIA, this would only impose yet another lengthy delay on this 
tribe.
    I have had many opportunities to visit with the Lumbees. They are a 
people of great pride, and I am in awe of their steadfastness on this 
issue, even after years of disappointments. One occasion in particular 
stands out in my mind, a 2003 rally in Robeson County with Congressman 
McIntyre. This rally brought together the entire community--folks from 
all backgrounds and walks of life--uniting for a common goal: getting 
the Lumbee Indians the full recognition and benefits they deserve.
    Today, we continue working to achieve that goal. Since my arrival 
in the Senate in 2003, this is the third committee hearing that Lumbee 
Chairman Jimmy Goins and members of the Lumbee tribe have journeyed to 
Washington to attend. Each time they have made their case for federal 
recognition. Even though we've been delighted a number of times by the 
Senate committee approval of this legislation, the full House and 
Senate have yet to take positive action. Undeterred, the Lumbee tribal 
leadership is here once again, and I am inspired and immensely proud to 
continue this fight alongside them.
    I am confident that after hearing testimony today, you will agree 
that the Lumbee Tribe deserves full federal recognition, and I urge you 
to report out this legislation as expeditiously as possible. The long 
record on this effort compiled by the Congress and the Department of 
the Interior demonstrates the legitimacy of the Lumbee Tribe. The State 
of North Carolina has acknowledged Lumbee tribal existence for well 
over a century.
    Simply put, this is about righting a wrong--and allowing future 
generations of Lumbees to benefit from the recognition for which their 
ancestors have tirelessly fought. The time is now Mr. Chairman. The 
time is now. It is time for decisive action by Congress--and providing 
the tribe full recognition and benefits is the only fair and just 
course.
    Thank you again, Mr. Chairman and Mr. Ranking Member, for giving 
this issue the attention it deserves. And thank you for the privilege 
of presenting my heartfelt concerns regarding the need for Lumbee 
recognition.
                                 ______
                                 
    [The statement submitted for the record by Senator Burr 
follows:]

Statement of The Honorable Richard Burr, a U.S. Senator from the State 
                           of North Carolina

    Good morning Chairman Rahall and Ranking Member Young, and Members 
of this Committee. I appreciate the Committee's time and effort 
regarding federal recognition of the Lumbee tribe. I would also like to 
thank my North Carolina colleagues, Senator Elizabeth Dole and 
Representative Mike McIntyre, for their passion and dedication to this 
issue. Upon taking office, Senator Dole made it her first legislative 
priority that the issue of Lumbee recognition be resolved. In the House 
of Representatives, Mike McIntyre has relentlessly pursued federal 
recognition of the Lumbees. Unfortunately, committee votes in the 
Senate prevent me from being at the hearing in person today. But it is 
a pleasure to share my support for federal recognition of the Lumbee 
tribe with Senator Dole and Representative McIntyre.
    To me, the most important aspect of the Lumbee recognition issue is 
simple--fairness. In 1956 Congress designated the Indians ``residing in 
Robeson and adjoining counties of North Carolina'' as the ``Lumbee 
Indians of North Carolina'' in the Lumbee Act. However, this Act also 
prevented the Lumbees from being eligible for any services performed by 
the federal government or any benefits derived by law on behalf of 
other recognized tribes.
    When the Bureau of Indian Affairs (BIA) established its process for 
formal recognition of Federal Indian tribes, the Lumbees were 
effectively denied from pursuing this option. In 1989, the Department 
of Interior decided that the 1956 Act prevented the Lumbees from being 
considered for federal recognition under the BIA process. Therefore, 
the limited federal recognition of the Lumbees in the 1956 Act has been 
as much a detriment as a benefit. Simply put, this is not fair.
    Congress should consider the difficult situation the Lumbees have 
been in since 1956, and finally fulfill its commitment to achieve 
fairness and justice in the federal recognition process for the tribe. 
Congress has indeed fixed these situations before. For example, in 1987 
Congress enacted special legislation to recognize the Tiwa Tribe of 
Texas, a tribe that was similarly prevented from gaining recognition 
through the BIA process due to a previous Act of Congress. As a result 
of the Tiwa's eventual Congressional recognition, the Lumbees find 
themselves as the only tribe in the United States who are prevented 
from gaining recognition through the BIA process. How can that be fair?
    The Lumbees have been part of eastern North Carolina's history for 
centuries. They have served their community as farmers, doctors and 
lawyers, small business owners and bankers. They have provided their 
county with sheriffs and clerks of courts; served our state as 
legislators and judges; and have protected our nation by serving in the 
U.S. Armed Forces.
    Although some members of this Committee may prefer to resolve this 
issue by changing the BIA recognition criteria to allow the Lumbees to 
work through this process, I believe this option is simply too little, 
too late. How long must this go on? It is clear to me that after fifty 
years the Lumbees deserve to have their status quickly, and finally, 
resolved.
    I appreciate the opportunity that this Committee has provided to 
the Lumbees today, and I hope that their pursuit of fairness, again 
this Congress, will be successful.
                                 ______
                                 
    The Chairman. Thank you, Senator Dole, for your testimony. 
And I did note your leadership on this issue. And once again, 
welcome you back to the Committee. We hope it is your last 
time, as I said, although you are welcome again any time.
    And I want to also recognize a former colleague of ours and 
a dear friend of mine, Charlie Rose, with whom we worked very 
much on this issue when he was in the Congress. And I failed to 
mention his strong leadership on this issue in the past, as 
well.
    We understand your schedule. You are free to stay if you 
like, you are free to leave if you would like.
    The Chair would like to recognize out of order very quickly 
the gentlelady from the Virgin Islands for a unanimous consent 
request.
    Ms. Christensen. Thank you. Mr. Chairman, as you noted, 
Congressman Scott had to leave. That is why I would like to ask 
unanimous consent to include his statement into the record.
    The Chairman. Without objection, so ordered. Thank you, 
Donna.
    [The prepared statement of Mr. Scott follows:]

Statement of The Honorable Robert C. ``Bobby'' Scott, a Representative 
          in Congress from the State of Virginia, on H.R. 1294

    Good Morning and thank you, Chairman Rahall, Ranking Member Young, 
and members of this Committee for holding this hearing on H.R. 1294, 
the Thomasina E. Jordan Indian Tribes of Virginia Federal Recognition 
Act, introduced by my fellow Virginian, Congressman Jim Moran.
    This year marks the 400th Anniversary of the founding of Jamestown, 
Virginia, the first permanent English settlement in North America. 
Jamestown is the cornerstone of our great republic and its success 
relied heavily on the help of the indigenous people of Virginia. 
Virginia's Native Americans played a critical role in helping the first 
settlers of Jamestown survive the harsh conditions of the New World.
    After the Jamestown colony weathered its first couple years in the 
New World, the colony expanded and the English pushed further inland, 
and the same Native Americans that helped those first settlers were 
coerced and pushed from their land without compensation. Treaties, many 
of which precede our own Constitution, were often made in an effort to 
compensate the Virginia Native Americans. As history has shown, these 
treaties were rarely honored or upheld.
    Like many other Native Americans, the Virginia Indian Tribes were 
marginalized from society. They were deprived of their land, prevented 
from getting an education, and denied a role in our society. Virginia's 
Native Americans were denied their fundamental human rights and the 
very freedoms and liberties enshrined in our Constitution.
    The bill before this Committee will finally grant federal 
recognition to the Chickahominy, the Eastern Chickahominy, the Upper 
Mattaponi, the Rappahannock, the Monacan Indian Nation, and the 
Nansemond tribes. Some may argue that H.R. 1294 supersedes the standard 
process of federal recognition through the Bureau of Indian Affairs. 
Unfortunately this route towards federal recognition by an act of 
Congress is necessary and long overdue because of the actions of one 
state government official in the early 20th century. During that time, 
Virginia's leaders experimented with eugenics, the so-called science of 
improving the human race by controlled breeding to increase the 
occurrence of desirable heritable traits, and implemented harsh racial 
laws. These laws led to the actions of Walter Plecker, State Registrar 
for the Commonwealth of Virginia, who purged Virginia's birth and 
marriage records of ``Indian'' and other non-white classifications. 
Virginia's Native Americans refer to Plecker's actions as the ``paper 
genocide.'' Without this paper trail, standard federal recognition 
through the BIA is all but impossible. The legacy of Walter Plecker's 
actions and Virginia's regrettable harsh racial laws should no longer 
stand. The legislation before this Committee will be the first step in 
correcting this injustice.
    The tribes in Virginia have made great strides in protecting their 
culture and history, even without the aid of federal recognition. 
During my time in the Virginia General Assembly, I had the privilege to 
serve on the study committee that looked into state recognition of 
Virginia's tribes. Based on the study committee's recommendations, the 
Commonwealth of Virginia recognized these tribes in the 1980s and has 
made great efforts to correct these injustices at the state level. H.R. 
1294 will ensure the rightful status of Virginia's tribes in our 
national history. Federal recognition will provide housing and 
educational opportunities to those who cannot afford it. Federal 
recognition will also promote tribal economic development that will 
allow Virginia's tribes to become self-sustaining. These new 
opportunities will allow Virginia's tribes to flourish culturally and 
economically, which will lead to a brighter future for a whole new 
generation.
    In 2002, this Committee held hearings on a similar bill to grant 
federal recognition to Virginia's tribes and many of my colleagues on 
this panel have heard about the struggles of Virginia's Native 
Americans before. As the Commonwealth of Virginia, our entire Nation, 
and the international community commemorate the 400th anniversary of 
the founding of Jamestown, there is no better time to grant federal 
recognition to the descendants of the Native Americans who were first 
to welcome the English settlers at Jamestown.
    We have waited too long to recognize Virginia's tribes. The time 
has come for this Congress to act and I urge you to support H.R. 1294. 
Thank you again for allowing me to address you on this issue.
                                 ______
                                 
    The Chairman. The Chair now recognizes the gentleman from 
Virginia, whom I recognized in the beginning as a very powerful 
Member of the House Appropriations Committee, and a dear friend 
to myself, Mr. Frank Wolf.

STATEMENT OF THE HON. FRANK WOLF, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VIRGINIA

    Mr. Wolf. Thank you, Mr. Chairman. I want to begin by 
thanking you for your comments about the Virginia Tech at the 
beginning. It has impacted our community, our state, and quite 
frankly, the nation, and I appreciate that very much.
    I want to thank you and Mr. Young for the hearings, and for 
the other Members for giving us the ability to testify.
    The Virginia Indian tribes were the first to greet the 
settlers at Jamestown when they arrived 400 years ago. Without 
the Indians' friendship, the Jamestown Settlement very likely 
would not have survived. We owe the Virginia tribes a huge debt 
of gratitude.
    I don't think it is an exaggeration to say that without 
them, our great nation may not have been born, or born at that 
time. However, I remain very concerned that Mr. Moran's 
legislation to provide sovereign status for six Virginia Indian 
tribes could lay the foundation for casino gambling in the 
Commonwealth, and threaten Virginia's long history of clean 
government, economic growth, and low crime.
    Specifically, the legislation does not, unfortunately, shut 
the door on the opportunity for these tribes to acquire land, 
and eventually establish tribal casinos. I know, and I believe 
that the current tribal leadership has indicated they do not 
want to pursue gambling, and I believe them. I believe them 
when they say that. But I worry that future leadership of the 
tribes may not share their views, and will pursue establishing 
tribal casinos.
    There is no guarantee that a future generation of 
Virginia's tribes would hold the same view as the current 
leaders. Case in point, and I have attached two stories to the 
testimony, an Indian tribe in the Michigan area reassured 
Congress that it did not intend to pursue gambling when it was 
granted Federal recognition in the early 1990s. And yet, only 
months after, the tribe voted unanimously to pursue the 
gambling. And if you can look at testimony and the articles 
that attach to it, both of these Members were shocked, because 
at the time they were promised that there would not be any 
gambling.
    More recently, Mr. Chairman, an Indian tribe in California, 
whose chairman in 2000 said they weren't interested in 
gambling, changed his mind in 2003, and moved to develop off-
reservation casino sites. I am submitting with my statement 
newspaper articles about both tribes.
    Why won't the tribes accept a law that would prevent 
gambling on tribal lands? If the tribes are not interested in 
gambling, why not make the law? I want to support the 
legislation to recognize the tribes, and have offered, when 
Congressman Hanson was the Chairman here, the lobbyists for the 
tribes came around, and we said fine, put the prohibition with 
regard to gambling. And that was not of interest at that time, 
and unfortunately efforts were rebuffed.
    If gambling casinos come to our state, we will be opening a 
door to the myriad of financial and social ills associated with 
gambling. Virginia's tourism sector, its economy, and its 
communities are some of the strongest in the country. Places 
such as Williamsburg, Yorktown, Jamestown are national 
treasures that draw visitors from all over the world. Small 
businesses thrive in Virginia. The Commonwealth should not risk 
tarnishing its reputation by allowing casino-style gambling 
within its borders.
    There are examples of places across the country which have 
been overwhelmed with problems attendant to gambling since the 
arrival of gambling casinos. Virginia does not have casino 
gambling. And because we do not, we have avoided the crime, the 
corruption, and the scandal that a number of other states have 
fallen victims to.
    A few years ago I asked the Library of Congress to provide 
me with a list of all the government officials across the 
country who have been implicated in gambling-related corruption 
cases or have been forced to resign due to gambling-related 
activities during the year. I haven't had it updated. I was 
sickened by what I saw.
    The package was about two inches thick. It was page after 
page after page of media reports of officials being caught in 
gambling-related schemes. And I am submitting with my statement 
the list of officials.
    And we ought not forget, this Congress was rocked over the 
last several years, and this city was rocked, and this country 
was rocked by the Abramoff scandal. And it resided and began on 
this very, very issue. And so we in the State of Virginia do 
not want that to come to our state.
    We have great respect for whatever other states want to do, 
but we do not want that. And we say you can have recognition, 
but let us have that prohibition. As the author of the 
legislation which created the National Gambling Impact Study 
Commission that released its two-year study in 1999, a 
bipartisan commission that looked at this in depth, I know 
first-hand about the devastating social and financial costs of 
gambling. Crime, prostitution, corruption, suicide, destroyed 
families, child abuse, bankruptcy. Probably a week or two don't 
go by that I still get calls from people all over the country 
saying that their son or their daughter or their husband or 
their wife, because of the effort that we did in that time, 
have gotten addicted by this, and cannot control it. And there 
is convenience gambling and destination gambling. And the 
closer it is to that location, the greater the danger.
    But just look at that report. Just look at the report, what 
it said in a bipartisan way. My concern is not with the Federal 
recognition of the Virginia Indian tribes. My concern, and 
hopefully you can recognize them, that provide us with this 
opportunity. But my concern is with the explosive spread of 
gambling and the potential for casino gambling to come to 
Virginia, no bill should become law unless it protects the 
interests of the Commonwealth.
    I stand ready to work with my Virginia colleagues and the 
tribes seeking recognition to make sure the proud state that is 
home to presidents and many other well-known Americans is not 
vulnerable to the political and the social corruption, the 
destruction of families that it leaves in the wake. And so I 
would ask you, and I sense that Mr. Moran feels pretty 
confident with regard to this bill, and Jim is a good friend. 
We worked closely on a lot of issues. You live out in my area. 
You know my record. You know my interests, you know my 
concerns.
    But what I would ask as you move this bill, if you do move 
it, that you protect us, so that whatever others may want to do 
around the country they will be able to do. But that we not get 
calls here in this state with regard to the potential of what I 
see, where you generally will have a situation whereby a 
wealthy non-Indian will come in. Sometime it will be a big 
billionaire from South Africa, sometime it will be a Donald 
Trump, sometime it will be somebody else, and begin to bring 
these influences here that we do not want.
    So Mr. Chairman, I thank you for the hearing. I thank you 
for the opportunity to testify.
    [The prepared statement of Mr. Wolf follows:]

  Statement of The Honorable Frank Wolf, a Representative in Congress 
                from the State of Virginia, on H.R. 1294

    Good morning. Mr. Chairman, thank you for allowing me to testify 
today.
    The Virginia Indian tribes were the first to greet the settlers at 
Jamestown when they arrived 400 years ago. Without the Indians' 
friendship, the Jamestown settlement very likely would not have 
survived.
    We owe the Virginia tribes a huge debt of gratitude. I don't think 
it's an exaggeration to say that without them, our great nation may not 
have been born. However, I remain concerned that Mr. Moran's 
legislation to provide sovereign status for six Virginia Indian tribes 
could lay the foundation for casino gambling in the Commonwealth and 
threaten Virginia's long history of clean government, economic growth 
and low crime.
    Specifically, the legislation does not shut the door on the 
opportunity for these tribes to acquire land and eventually establish 
tribal casinos. I know that the current tribal leadership has indicated 
that they do not want to pursue gambling--and I believe them--but I 
worry that future leadership of the tribes may not share their views 
and will pursue establishing tribal casinos.
    There is no guarantee that future generations of Virginia's tribes 
would hold the same view as the current leaders. Case in point: an 
Indian tribe in the Michigan area reassured Congress that it did not 
intend to pursue gambling when it was granted federal recognition in 
the early-1990's, yet only months later the tribe voted unanimously to 
pursue gambling. More recently, an Indian tribe in California whose 
chairman in 2000 said they weren't interested in gambling, changed his 
mind in 2003 and moved to develop off-reservation casino sites. I am 
submitting with my statement newspaper articles about both tribes.
    Why won't the tribes accept a law that would prevent gambling on 
tribal lands? If the tribes are not interested in gambling, why not 
make that the law? I want to support legislation to recognize the 
Virginia tribes and have worked with the tribes to find language that 
would accomplish their aim of recognition without opening the door to 
casino gambling in Virginia. Unfortunately, my efforts have been 
rebuffed.
    If casino gambling comes to our state we will be opening the door 
to the myriad of financial and socials ills associated with gambling. 
Virginia's tourism sector, its economy and its communities are some of 
the strongest in the country. Places such as Williamsburg, Yorktown and 
Jamestown are national treasures which draw visitors from all over the 
world. Small businesses thrive in Virginia. The Commonwealth should not 
risk tarnishing its reputation by allowing casino-style gambling within 
its borders. There are examples of places across the country which have 
been overwhelmed with problems attendant to gambling since the arrival 
of Indian casinos.
    Virginia does not have casino gambling, and because we do not, we 
have avoided the crime, corruption and scandal that a number of other 
states have fallen victim to. A few years ago I asked the Library of 
Congress to provide me with a list of all the government officials 
across the country who had been implicated in gambling-related 
corruption cases or had been forced to resign due to gambling-related 
activities during the year.
    I was sickened by what I saw. The package was about two inches 
thick. It was page after page after page of media reports of officials 
being caught in gambling-related schemes. I am submitting with my 
statement the list of officials.
    As the author of legislation which created the National Gambling 
Impact Study Commission that released its two-year study in 1999, I 
know firsthand about the devastating social and financial costs of 
gambling. Crime. Prostitution. Corruption. Suicide. Destroyed families. 
Child and spouse abuse. Bankruptcy.
    My concern is not with the federal recognition of Virginia's Indian 
tribes. My concern is with the explosive spread of gambling and the 
potential for casino gambling to come to Virginia. No bill should 
become law unless it protects the interests of the Commonwealth. I 
stand ready to work with my Virginia colleagues and the tribes seeking 
recognition to make sure the proud state that is home to presidents and 
many other well known Americans is not vulnerable to the political and 
social corruption that gambling leaves in its wake.
    NOTE: Additional information submitted for the record by 
Congressman Wolf has been retained in the Committee's official files.
                                 ______
                                 
    The Chairman. Thank you, Frank, for your testimony. The 
Chair recognizes the gentleman from North Carolina who has been 
very patient with us all morning, Walter Jones.

    STATEMENT OF THE HON. WALTER JONES, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Jones. Mr. Chairman, thank you very much. And I thank 
the Ranking Member, as well, and the Members of this committee. 
I miss not serving on this committee, but circumstances 
sometimes are beyond our control.
    Mr. Chairman, thank you for the opportunity to make a 
statement today on H.R. 65, the Lumbee Recognition Act. Like 
many in North Carolina, I feel strongly about this bill. My 
view is that the Lumbees should be given a fair opportunity to 
attain Federal acknowledgement as an Indian tribe through the 
Interior Department's Office of Federal Acknowledgement. We 
should leave these complicated matters to the expert agency.
    It would be unfair to the United States and other Indian 
tribes to pass H.R. 65 and circumvent the established 
administrative process.
    Mr. Chairman, I have met with another Indian group from 
North Carolina, the Tuscarora, who find themselves in a similar 
situation to the Lumbee. And I understand there might be a few 
here of the Tuscarora Tribe.
    The Tuscarora also want to be Federally recognized as a 
tribe, but are constrained from accessing the process because 
of the 1956 Lumbee Act. They, too, oppose this bill because it 
would undermine their efforts to maintain their separate 
identity as Tuscaroras. Their solution, Mr. Chairman, give us 
access to the process.
    Another North Carolina organization, the North Carolina 
Family Policy Council, also opposes this bill, but for 
different reasons. Mr. Chairman, I have a letter from the 
Policy Council that I would like to be part of the record. I 
ask unanimous consent that it be submitted.
    From that letter I would like to briefly read a paragraph. 
This is a letter that was sent to Congressman Mike McIntyre, 
and he is my friend, he is my brother in Christ. I have a lot 
of respect for him, and on this issue we just disagree.
    From the letter from the North Carolina Family Policy 
Council, and I read. ``I am writing to express our concern over 
H.R. 65, Lumbee Recognition Act. The North Carolina Family 
Policy Council does not oppose full Federal recognition for the 
Lumbee Tribes of North Carolina, but we strongly oppose the 
potential that full Federal recognition would have toward the 
expansion of gambling in North Carolina.
    ``In its current form, H.R. 65 could set the stage to allow 
the Lumbee Indians to establish gambling operations along the 
I-95 corridor in Robinson and perhaps Cumberland, Hoke and 
Scotland Counties. As a result, we ask that you amend H.R. 65 
to expressly prohibit the Lumbee Tribe from obtaining the 
authorization to conduct any form of gambling in North Carolina 
should this legislation move forward.''
    I am pretty much asking the same thing that Congressman 
Wolf was asking. The Family Research Council is very concerned 
that I-95, which is a major corridor between north and south, 
south and north, that what could happen in four counties, that 
there could be gambling created that would create a serious 
problem to the people of North Carolina, in my humble opinion.
    Mr. Chairman, in addition, another organization of 
Federally recognized tribes, the United South and Eastern 
Tribes known as USET, also oppose this bill. I have a letter 
from this group, and I ask unanimous consent that this might be 
submitted, as well. Thank you.
    Mr. Chairman, in closing, I would hope that this committee 
would consider legislation that would give the Lumbee, the 
Tuscarora, and other Indian groups in North Carolina and across 
this nation a fair opportunity for tribal acknowledgement 
through the appropriate administrative process.
    And Mr. Chairman, again I want to thank you for the 
opportunity to make these brief statements. Again I want to say 
that I believe that the process should be expedited, so that 
not only the Lumbees but other tribes could have an opportunity 
to present their case to the proper agency, and the agency have 
the authority to move in an expeditious way toward a final 
decision as to these tribes and their recognition.
    So with that, Mr. Chairman, I close my comments. And thank 
you again for this opportunity.
    [The prepared statement of Mr. Jones follows:]

 Statement of The Honorable Walter Jones, a Representative in Congress 
                    from the State of North Carolina

    Mr. Chairman, thank you for the opportunity to make a statement 
today on H.R. 65, the ``Lumbee Recognition Act.'' Like many in North 
Carolina, I feel strongly about this bill. My view is that the Lumbee 
should be given a fair opportunity to attain federal acknowledgement as 
an Indian tribe through the Interior Department's Office of Federal 
Acknowledgement. We should leave these complicated matters to the 
expert agency. It would be unfair to the United States and other Indian 
tribes to pass H.R. 65 and circumvent the established administrative 
process.
    I have met with another Indian group from North Carolina, the 
Tuscarora, who find themselves in a similar situation to the Lumbee. I 
understand representatives of the Tuscarora are here today. The 
Tuscarora also want to be federally recognized as a tribe, but are 
constrained from accessing the process because of the 1956 Lumbee Act. 
They too oppose this bill because it would undermine their efforts to 
maintain their separate identity as Tuscaroras. Their solution: give us 
access to the process.
    Another North Carolina organization, the North Carolina Family 
Policy Council, also opposes this bill, but for different reasons. I 
have a letter from the Policy Council that I would like to be a part of 
the record, Mr. Chairman. The Policy Council is concerned about the 
proliferation of gambling in North Carolina, and I share their views. 
This bill would open the door to an enormous expansion of gambling in 
North Carolina and could harm many communities in the region.
    Another organization of federally-recognized tribes, the United 
South and Eastern Tribes (USET), also opposes this bill. I have a 
letter of opposition from USET, Mr. Chairman, that I would like to 
include in the record. USET also supports the idea of the Lumbee having 
access to the administrative process.
    My House colleagues, let's address this issue fairly. I urge the 
Committee to reject this bill, and to consider legislation that would 
give the Lumbee, the Tuscarora, and other Indian groups in North 
Carolina and across this nation a fair opportunity for tribal 
acknowledgement through the appropriate administrative process.
    Thank you.
                                 ______
                                 

    [Letters submitted for the record by Mr. Jones follow:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    

    The Chairman. Thank you, Walter. The Chair recognizes 
the gentleman from North Carolina, Mr. McHenry.

  STATEMENT OF THE HON. PATRICK McHENRY, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. McHenry. I thank the Chairman. Thank you for having us 
here today, and for having a lot of opening statements or a lot 
of testimony from colleagues that are interested in this issue.
    Being from North Carolina, I have a distinct interest in 
this issue. And thank you for letting me testify today on H.R. 
65, the Lumbee Recognition Act.
    My position on this bill is very straightforward. All 
groups seeking Federal acknowledgement as Indian tribes should 
go through the administrative process at the Department of 
Interior's Office of Federal Acknowledgement.
    The Chairman spoke passionately about the need to reform 
that department, and that is a whole separate issue that is so 
important to the larger context of Federal recognition. And I 
will get to that in a second.
    At the Office of Federal Acknowledgement, it is staffed 
with expert historians, anthropologists, and genealogists whose 
focus is to evaluate data provided by petitioning groups, and 
determine the merits of the group's claim for Federal 
recognition as an Indian tribe, including whether the group 
existed since historical times as a distinct political entity.
    In this case the Department of Interior has said the 1956 
Lumbee Act prevents Lumbee from going through this process, as 
my colleague from eastern North Carolina, Mr. McIntyre, said. 
Congress should lift this restriction.
    Like all other groups, Lumbee should have the opportunity 
to attain Federal recognition as a tribe. But I cannot support 
this legislation, which would allow the Lumbee, or any other 
group for that matter, to circumvent the process, while other 
groups diligently work toward the goal of Federal 
acknowledgement through the Office of Federal Acknowledgement.
    This would be unfair to those groups. And also, there have 
been internal groups within the Lumbee that have raised serious 
questions about the tribal identity of the Lumbee. In fact, the 
name Lumbee is based on the group's proximity to the Lumbee 
River. The same Lumbee group has sought Federal 
acknowledgement, as my colleague Mr. McIntyre mentioned, they 
have sought Federal acknowledgement from Congress on numerous 
occasions as Cherokee, Croatan, Cheraw, among other names.
    As a matter of fact, I, along with other Members of 
Congress, in order to remedy this problem, this issue that is 
before us here today, have sponsored legislation that would put 
the Lumbee at the front of the line and allow them to go 
through the Federal acknowledgement process. Put them at the 
front of the line, remove the burden of the 1956 Lumbee Act.
    In the previous Congress, my colleagues from North 
Carolina, including Mr. Jones, as well as Representatives Foxx 
and Myrick, cosponsored a bill written by Charles Taylor. His 
successor in the 11th District, Mr. Heath Shuler, as I 
understand it, intends to file the same bill, which I will be 
proud to cosponsor. A bipartisan bill that would remedy this 
problem, and actually adheres to the Office of Federal 
Acknowledgement's role in recognizing Indian tribes.
    Additionally, it is unfair to existing Federally recognized 
tribes, such as the Eastern Band of Cherokee Indians, who 
simply don't want to diminish or undermine their cultural 
identity by legislation such as this. The Eastern Band has a 
tremendous cultural and historical impact on western North 
Carolina and the region in large. And you will soon hear 
testimony by Principal Chief Michell Hicks about the interest 
at stake for the Eastern Band.
    Look, Federal recognition is really an emotional issue, I 
understand that. There is a lot of politics at play here. But 
this legislation I think would diminish the longstanding 
government-to-government relationship the United States has 
with established tribes. We should take the politics out of 
Federal recognition, and allow the experts at the Office of 
Federal Acknowledgement to do their job.
    If there is concern about the Office of Federal 
Acknowledgement and their ability to get through the backlog of 
cases that they have, that is the duty of this committee to 
remedy this process through the oversight process. And to clean 
up that process for all those that seek recognition.
    I don't believe that going around and circumventing that 
process is the right way to go. And I concur with my colleague 
in the 11th District on this matter, and that it is important 
that we actually look for a remedy for the Lumbee group to have 
Federal recognition. But in order to do that, they should go 
through the longstanding process that we have established as a 
Congress, and it is a regulatory process. As we know, 
regulatory processes are not very easy to comply with, but it 
is intended to have the experts within the bureaucracy work 
their will and understand the details and the historical 
records in this case and all cases involving Indian tribe 
recognition.
    And I urge my colleagues to vote down the Lumbee 
Recognition Act, and support what my colleague in the 11th 
District is seeking to do, which is another way to remedy this 
Lumbee group's concerns.
    Thank you for the opportunity to testify, and I appreciate 
your patience.
    [The prepared statement of Mr. McHenry follows:]

  Statement of The Honorable Patrick T. McHenry, a Representative in 
         Congress from the State of North Carolina, on H.R. 65

    Thank you for the opportunity to testify today on H.R. 65, the 
Lumbee Recognition Act. My position on this bill is very 
straightforward and fair.
    ALL groups seeking federal acknowledgement as Indian tribes should 
go through the administrative process at the Department of the 
Interior's Office of Federal Acknowledgement.
    The OFA is staffed with expert historians, anthropologists and 
genealogists whose focus is to evaluate data provided by petitioning 
groups and determine the merits of a group's claim that it is an Indian 
tribe, including whether the group existed since historical times as a 
distinct political entity.
    In this case, the Department Interior has said the 1956 Lumbee Act 
prevents the Lumbee from going through the process, Congress should act 
to lift that restriction. Like all other groups, the Lumbee should have 
the opportunity to attain federal recognition as a tribe.
    I CANNOT support this legislation, which would allow the Lumbee or 
any other group, to circumvent the process, while other groups 
diligently work toward the goal of federal acknowledgement through the 
Office of Federal Acknowledgement.
    This would be unfair to those groups, and in addition there have 
been internal groups within the Lumbee that have raised serious 
questions about the tribal identity of the Lumbee.
    In fact, the name ``Lumbee,'' is based on this group's proximity to 
the Lumber River. The same ``Lumbee Group'' has sought federal 
acknowledgement from Congress on numerous occasions as Cherokee, 
Siouan, Croatan and Cheraw Indians.
    As a matter of fact, I, along with other members of the North 
Carolina delegation, cosponsored legislation by Former Congressman 
Charles Taylor that would have cleared the way for ALL groups in North 
Carolina seeking federal acknowledgement under the 1956 Lumbee Act to 
complete the process through the Office of Federal Acknowledgement.
    Additionally, it is unfair to existing federally recognized tribes, 
such as the Eastern Band of Cherokee Indians, who does not want to see 
its cultural identity undermined by legislation such as this.
    The Eastern Band has a tremendous cultural and historical impact on 
Western North Carolina and you will soon hear the testimony of 
Principal Chief Michell Hicks about the interests at stake for the 
Eastern Band.
    Federal recognition matters get caught up in emotion and, let's 
face it, politics. This legislation would diminish the longstanding 
government-to-government relationship the United States has with 
established tribes. We should take the politics out of federal 
recognition and allow the experts at the Office of Federal 
Acknowledgement to do their job.
    Thank you.
                                 ______
                                 
    The Chairman. Thank you, Patrick. The Chair at this time 
would ask unanimous consent that our colleagues who have been 
on the witness table this morning, any of them that wish to 
join us on the dais be allowed to do so and participate in the 
remainder of the hearings today.
    The Chair will now recognize The Honorable Carl Artman, I 
am sorry. Carl J. Artman, the Assistant Secretary for Indian 
Affairs, Bureau of Indian Affairs in Washington. And at this 
point, while he is coming to the table, I would like to 
congratulate Mr. Artman on his confirmation as Assistant 
Secretary of Indian Affairs. I enjoyed meeting you a few weeks 
ago, and appreciate your coming by my office, and I'm looking 
forward to your testimony today.

   STATEMENT OF CARL J. ARTMAN, ASSISTANT SECRETARY, INDIAN 
            AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Artman. Good morning, Mr. Chairman, Ranking Member 
Young and Members of the Committee.
    I am here today to provide the Administration's testimony 
on H.R. 65 and H.R. 1294. I would also like to take a moment to 
introduce the Director of our Office of Federal 
Acknowledgement, Leif Fleming, to my right. I think he has been 
here before.
    I will summarize my statements and ask that my entire 
written statement be entered into the record.
    The Chairman. Without objection. And the Chair would ask 
that of all the panelists today.
    Mr. Artman. Thank you, Mr. Chairman.
    The Chairman. You may proceed.
    Mr. Artman. We recognize that under the United States 
Constitution Commerce Clause that Congress has the authority to 
recognize a distinctly Indian community as an Indian tribe. 
Congress has plenary power.
    But along with that authority, it is important that all 
parties have the opportunity to review all of the information 
available before recognition is granted. That is why we support 
a recognition process that requires the groups to go through 
the Federal acknowledgement process found under 25 CFR, part 
83, because it provides a deliberative and uniform mechanism to 
review and consider groups seeking Indian tribal status. 
Legislation, such as H.R. 65 and H.R. 1294, allows the groups 
to bypass the Federal acknowledgement process.
    In reference to H.R. 65, Congress designated Indians then 
residing in Robeson and adjoining counties of North Carolina as 
the Lumbee Indians of North Carolina in the 1956 Act. In 1989, 
the Department's Office of the Solicitor advised that the 1956 
Act forbade Federal relationship within the meaning of the 
Federal Acknowledgement Regulations, thereby precluding the 
Lumbee Indians from consideration under the acknowledgement 
process. Legislation is necessary for the Lumbee Indians to 
petition for tribal status under those regulations.
    If Congress enacts H.R. 65 as drafted, we do have some 
comments. H.R. 65 extends Federal recognition to the Lumbee 
Tribe of North Carolina, and permits any other group of Indians 
in Robeson and adjoining counties whose members are not 
enrolled in the Lumbee Tribe to join the Lumbee Tribe, or to 
petition under the acknowledgement process. We recommend 
Congress clarify the Lumbee group that would be granted 
recognition under this bill. Not doing so could potentially 
expose the U.S. Government to numerous lawsuits, and possibly 
delay the acknowledgement process.
    We are concerned with the provision requiring the Secretary 
to, within one year, to verify a membership roll and develop a 
determination of needs and budget to provide Federal services 
to the Lumbee group's eligible members. H.R. 65 is silent as to 
the meaning of verification for inclusion on the Lumbee group's 
membership roll.
    And H.R. 65 may raise a constitutional problem, by 
requiring the President to submit annually to the Congress, as 
part of his annual budget submission, a budget that is 
recommended by the heads of departments for programs and 
services and benefit to the Lumbee. Under the Recommendations 
Clause of the Constitution, the President submits for 
consideration of Congress such measures as the President judges 
necessary and expedient.
    In the alternative, the Department supports an amendment to 
the 1956 Act to afford the Lumbee Indians the opportunity to 
petition for tribal status under the acknowledgement process.
    In our review of H.R. 1294, the Thomasina E. Jordan Indian 
Tribes of Virginia Federal Recognition Act provides Federal 
recognition for Indian tribes for six Virginia Indian groups. 
To date, none of these petitioning groups have submitted 
completed documented petitions demonstrating their ability to 
meet all seven of the criteria under the acknowledgement 
process. In addition, there are six additional petitioners that 
are not included within the legislation, and two state-
recognized tribes within the reservations are also missing from 
the legislation.
    We ask that the Office of Federal Acknowledgement be a 
resource as you deliberate H.R. 65 and H.R. 1294.
    That concludes my remarks, and I would be happy to take 
questions.
    [The prepared statement of Mr. Artman follows:]

   Statement of Carl J. Artman, Assistant Secretary--Indian Affairs, 
                    U.S. Department of the Interior

    Good morning, Mr. Chairman and Members of the Committee. My name is 
Carl Artman. I am the Assistant Secretary for Indian Affairs at the 
Department of the Interior (Department). I am here today to provide the 
Administration's testimony on H.R. 65, the ``Lumbee Recognition Act'' 
and H.R. 1294, the ``Thomasina E. Jordan Indian Tribes of Virginia 
Federal Recognition Act of 2007.''
    The acknowledgement of the continued existence of another sovereign 
is one of the most solemn and important responsibilities delegated to 
the Secretary of the Interior. Federal acknowledgement enables Indian 
tribes to participate in Federal programs and establishes a government-
to-government relationship between the United States and the Indian 
tribe, and has considerable social and economic impact on the 
petitioning group, its neighbors, and Federal, state, and local 
governments. Acknowledgement carries with it certain immunities and 
privileges, including exemptions from state and local jurisdictions and 
the ability of newly acknowledged Indian tribes to undertake certain 
economic opportunities.
    We recognize that under the United States Constitution, Congress 
has the authority to recognize a ``distinctly Indian community'' as an 
Indian tribe. But along with that authority, it is important that all 
parties have the opportunity to review all the information available 
before recognition is granted. That is why we support a recognition 
process that requires groups go through the Federal acknowledgement 
process because it provides a deliberative uniform mechanism to review 
and consider groups seeking Indian tribal status.
    Legislation such as H.R. 65 and H.R. 1294 would allow these groups 
to bypass this process--allowing them to avoid the scrutiny to which 
other groups have been subjected. While legislation in Congress can be 
a tool to accomplish this goal, a legislative solution should be used 
sparingly in cases where there is an overriding reason to bypass the 
process.
    The Administration strongly supports all groups going through the 
Federal acknowledgement process under 25 CFR Part 83. The 
Administration believes that the Federal acknowledgement process set 
forth in 25 CFR Part 83, ``Procedures for Establishing that an American 
Indian Group Exists as an Indian Tribe,'' allows for the uniform and 
rigorous review necessary to make an informed decision establishing 
this important government-to-government relationship. Before the 
development of these regulations, the Federal government and the 
Department of the Interior made determinations as to which groups were 
Indian tribes when negotiating treaties and determining which groups 
could reorganize under the Indian Reorganization Act (25 U.S.C. 461). 
Ultimately, treaty rights litigation on the West coast, and land claims 
litigation on the East coast, highlighted the importance of these 
tribal status decisions. Thus, the Department, in 1978, recognized the 
need to end ad hoc decision making and adopt uniform regulations for 
Federal acknowledgement.
    Under the Department's regulations, petitioning groups must 
demonstrate that they meet each of seven mandatory criteria. The 
petitioner must:
    (1)  demonstrate that it has been identified as an American Indian 
entity on a substantially continuous basis since 1900;
    (2)  show that a predominant portion of the petitioning group 
comprises a distinct community and has existed as a community from 
historical times until the present;
    (3)  demonstrate that it has maintained political influence or 
authority over its members as an autonomous entity from historical 
times until the present;
    (4)  provide a copy of the group's present governing document 
including its membership criteria;
    (5)  demonstrate that its membership consists of individuals who 
descend from an historical Indian tribe or from historical Indian 
tribes that combined and functioned as a single autonomous political 
entity and provide a current membership list;
    (6)  show that the membership of the petitioning group is composed 
principally of persons who are not members of any acknowledged North 
American Indian tribe; and
    (7)  demonstrate that neither the petitioner nor its members are 
the subject of congressional legislation that has expressly terminated 
or forbidden the Federal relationship.
    A criterion shall be considered met if the available evidence 
establishes a reasonable likelihood of the validity of the facts 
relating to that criterion. A petitioner must satisfy all seven of the 
mandatory criteria in order for the Department to acknowledge the 
continued tribal existence of a group as an Indian tribe. Currently, 
the Department's workload of 17 groups seeking Federal acknowledgement 
consists of 8 petitions on ``Active Consideration'' and 9 petitions on 
the ``Ready, Waiting for Active Consideration'' lists.
H.R. 65
    In 1956, Congress designated Indians then ``residing in Robeson and 
adjoining counties of North Carolina'' as the ``Lumbee Indians of North 
Carolina'' in the Act of June 7, 1956 (70 Stat. 254). Congress went on 
to note the following:
        Nothing in this Act shall make such Indians eligible for any 
        services performed by the United States for Indians because of 
        their status as Indians, and none of the statutes of the United 
        States which affect Indians because of their status as Indians 
        shall be applicable to the Lumbee Indians.
    In 1989, the Department's Office of the Solicitor advised that the 
1956 Act forbade the Federal relationship within the meaning of the 
acknowledgement regulations, and that the Lumbee Indians were, 
therefore, precluded from consideration for Federal acknowledgement 
under the administrative process. Because of the 1956 Act, legislation 
is necessary for the Lumbee Indians to be afforded the opportunity to 
petition for tribal status under the Department's regulations. The 
Department would welcome the opportunity to assist the Congress in 
drafting such legislation.
    If Congress elects legislative recognition of the Lumbee, then the 
Department makes the following comments on H.R. 65, as currently 
drafted.
    H.R. 65 extends Federal recognition to the ``Lumbee Tribe of North 
Carolina'' and permits any other group of Indians in Robeson and 
adjoining counties whose members are not enrolled in the Lumbee Tribe 
to join the Lumbee Tribe or to petition under the Department's 
acknowledgement regulations. The Department's Office of Federal 
Acknowledgement (OFA) has received letters of intent to petition from 
eight groups that may overlap with each other: the Cherokee Indians of 
Robeson and Adjoining Counties, the Lumbee Regional Development 
Association, the Cherokee Indians of Hoke County, Inc., the Tuscarora 
Nation of North Carolina, the Tuscarora Nation East of the Mountains, 
the Hatteras Tuscarora Indians, the Tuscarora Indian Tribe--Drowning 
Creek Reservation, and the Tuscarora Nation of Indians of the 
Carolinas. In addition, OFA has identified over 90 names of groups that 
derive from these counties and are affected by the 1956 Lumbee Act. 
Some of these groups claim to be the ``Lumbee'' Tribe. Therefore, we 
recommend Congress clarify the Lumbee group that would be granted 
recognition under this bill. Not doing so could potentially expose the 
Federal government to unwarranted lawsuits and possibly delay the 
Federal acknowledgement process.
    Under H.R. 65, the State of North Carolina has jurisdiction over 
criminal and civil offenses and actions on lands within North Carolina 
owned by or held in trust for the Lumbee Tribe or ``any dependent 
Indian community of the Lumbee Tribe.''
    We are concerned with the provision requiring the Secretary, within 
one year, to verify the membership roll and then to develop a 
determination of needs and budget to provide Federal services to the 
Lumbee group's eligible members. Under the provisions of this bill, the 
``Lumbee Tribe'', which the Department understands includes over 53,000 
members, would be eligible for benefits, privileges and immunities that 
are similar to those possessed by members of other Federally recognized 
Indian tribes. In our experience verifying a membership roll is an 
extremely involved and complex undertaking that can take several years 
to resolve with much smaller Indian tribes. While we believe there are 
approximately 53,000 members, we do not currently have access to the 
Lumbee's current membership roll and thus do not have the appropriate 
data to estimate the time to verify them nor do we know how many Lumbee 
members may be eligible to participate in Federal needs based programs. 
Moreover, H.R. 65 is silent as to the meaning of verification for 
inclusion on the Lumbee group's membership roll.
    In addition, H.R. 65 may raise a constitutional problem by 
purporting to require the President to submit annually to the Congress 
as part of his annual budget submission a budget that is recommended by 
the head of an executive department for programs, services and benefits 
to the Lumbee. Under the Recommendations Clause of the United States 
Constitution, the President submits for the consideration of Congress 
such measures as the President judges necessary and expedient.
    Should Congress choose not to enact H.R. 65, the Department feels, 
at a minimum, Congress should amend the 1956 Act to afford the Lumbee 
Indians the opportunity to petition for tribal status under the 
Department's Federal acknowledgement regulations.
H.R. 1294
    H.R. 1294, the ``Thomasina E. Jordan Indian Tribes of Virginia 
Federal Recognition Act of 2007,'' provides Federal recognition as 
Indian tribes to six Virginia groups: the Chickahominy Indian Tribe, 
the Chickahominy Indian Tribe--Eastern Division, the Upper Mattaponi 
Tribe, the Rappahannock Tribe, Inc., the Monacan Indian Nation, and the 
Nansemond Indian Tribe.
    Under 25 CFR Part 83, these six groups have submitted letters of 
intent and partial documentation to petition for Federal 
acknowledgement as Indian tribes. Some of these groups are awaiting 
technical assistance reviews under the Department's Federal 
acknowledgement regulations. As stated above, the purpose of the 
technical assistance review is to provide the groups with opportunities 
to supplement their petitions due to obvious deficiencies and 
significant omissions. To date, none of these petitioning groups have 
submitted completed documented petitions demonstrating their ability to 
meet all seven mandatory criteria.
    We look forward to working with you as you deliberate H.R. 65 and 
H.R. 1294.
    This concludes my prepared statement. I would be happy to answer 
any questions the Committee may have.
                                 ______
                                 
    The Chairman. Thank you, Carl. I just have one question. I 
do thank you for your testimony this morning, particularly your 
specific recommendations to language in the Lumbee Bill 
affecting certification of membership rolls and future 
presidents' budget.
    As we move forward, we will take a hard look at addressing 
your concerns. Your testimony is silent, almost silent, on the 
Virginia tribes recognition. And I am not sure what to make of 
that, but I think that I will not push our luck on that issue 
and just move on.
    I do want to ask you about the proposal to pass a law to 
permit the Lumbee Tribes access to the administrative Federal 
acknowledgement process. I happen to reject the notion by some 
that legislative recognition is fraught with emotions and 
potential politics, but the administrative process is not. I 
don't know how you can differentiate that. But if people in 
this town are involved, you know, both are possible in both the 
processes.
    The Lumbees are certainly not the only tribe which is 
prohibited from going through that process. There are, to take 
one example, several terminated tribes in California, which are 
also prohibited from going through the process.
    Do you support changing the law to permit all of those 
tribes to go through the process, as well? And what would that 
do to the decades-long wait tribes have in the process now? 
Would you be able to guarantee that the President would request 
the needed number of positions in funding in future budgets to 
accommodate such a process? I know that is a couple questions, 
more than one.
    Mr. Artman. Well, if I miss any, please let me know, Mr. 
Chairman. And thank you for the question.
    The Federal acknowledgement process can be sometimes 
cumbersome and seemingly opaque, but it does lead to a very 
important result. Either if the tribe, the petitioners are 
acknowledged or if they are denied acknowledgement, the end 
result is, if positive, is a sovereign relationship with the 
United States Government; a government-to-government 
relationship. Something that is a solemn responsibility on both 
parties. So we view it as a very serious deliberative, 
investigative, and sometimes academic process.
    The staff currently in the Office of Federal 
Acknowledgement not only stays within the narrow bounds of 
reviewing it, but also helps tribes, helps petitioners through 
the process as well, through the technical assistance letters, 
extensions, what-have-you. So it is something that is, there is 
a dedicated group of individuals over there, to be sure.
    In terms of how the process works, its efficiency, whether 
or not there are the right number of people there, that is 
something that I mentioned during the confirmation process, 
that is something of great importance to me. And I will be 
spending a lot of time with the Office of Acknowledgement to 
look into that matter. And I will be looking forward to working 
with Mr. Fleming on that matter.
    If, as you mentioned, we were to lift the ban on the Lumbee 
Tribe from petitioning for recognition, you do hit on a very 
important point. How that would impact the process. Not 
touching on the California tribes, the additional California 
tribes you mentioned, but just focusing on the Lumbee for just 
a moment, there are potentially 50,000 members there. And 
determining the correct membership rolls is going to be a 
cumbersome process.
    In the bill it notes that the Department would have one 
year to determine that, and then another year to determine the 
impact on the budget afterwards. We think that it would 
probably take closer to four years to determine whether or not 
the membership roll is correct. But if we were to get it down 
to one year, we would need additional funds and additional 
individuals to assign to that process. So that is something 
that we are very concerned with.
    With regards to the California tribes, I haven't had a 
chance to review that, Mr. Chairman, but I would be happy to 
look into that as this process continues forward.
    The Chairman. Fair enough, thank you. The Chair recognizes 
the gentleman from Alaska.
    Mr. Young. Mr. Chairman, thank you, and I have a series of 
questions. I would also like to make a statement, if I could. 
Because what brings me up to this tribal recognition action by 
the Department, and I think we should be talking about another 
tribe that is called the Shinnecock Indians in New York.
    The State of New York has formally recognized the 
Shinnecock Indian Nation for over 340 years. It was half the 
tribes and their members currently live in the reservation set 
aside under state law. By all intents and purposes, the State 
of New York, in fact the County of New York has always treated 
the Shinnecock as a tribe. And this, Mr. Artman, is for you 
because in 1978 they asked the Federal government for 
assistance in filing a lawsuit to obtain justice for the theft 
of their lands. They testified to this in some of the hearings 
a year ago.
    The Bureau of Indian Affairs, Mr. Artman, decided they 
first should be Federally recognized and treated to litigation 
because of the petition for Federal acknowledgement. In 
response, they created the Shinnecock Federal Recognition 
Committee to manage the petition for Federal recognition with 
the Department of Interior. That was 30 years ago, and they are 
still waiting for that decision.
    Despite the three decades of delay, I hope we can commit to 
helping them, as well. On November 7, 2005, a Federal court, in 
a case in which their tribal status was at issue, and after 
receiving a petition to the Department of Interior, thousands 
of pages of legal briefs and documents, issued a decision 
holding that the Shinnecock Indian Nation is a sovereign Indian 
tribe as a matter of Federal law.
    It is from this perspective that the Committee needs to 
consider the Shinnecock as a tribe, who has played by the 
rules, has met with years of bureaucratic inaction, and 
deserves to be put on the list of Federally recognized tribes. 
They should not be penalized by the Department of Interior's 
prolonged inaction and response for the application to 
acknowledge a status as an Indian tribe.
    In fact, Mr. Artman, I think the Shinnecock should be 
placed on the list of Federally recognized tribes immediately. 
And I say this, and I bring this up, Mr. Chairman, because I 
have heard about the Virginia tribes, the Lumbee tribes, and 
let us go back to this recognition process. It doesn't work.
    We have had two hearings on this in the last two 
Congresses, and all I hear is excuses. I am one of these people 
that have been supporting the American Indian tribes for years; 
I have to. And if I don't, I get killed.
    But the reality is the Bureau itself is non-functional. And 
this is why--and by the way, Mr. Artman, how many tribes have 
been recognized by the legislative process?
    Mr. Artman. I believe nine have been recognized by the 
legislative process.
    Mr. Young. Twenty. Twenty.
    Mr. Artman. Twenty?
    Mr. Young. Twenty. And so this is not new. This is a 
process we have gone through. And usually it is because of 
inaction of the, what we call the Federal acknowledgement 
process. And I believe one of them said maybe we ought to 
change this process, maybe we need a little bit of 
reorganization downtown. The Bureau is not my favorite bureau 
right now; hasn't been for years.
    You have grown, you have asked for money. It is not your 
fault, you just got sworn in. You have asked for money each 
year, and I have followed those dollars, and it doesn't get to 
the recipients. It stays with the Administration, and the 
Administration grows every year. And that is not what it should 
be like. That is why I support the contracting privileges in 
trying to get, you know, more tribes involved in running their 
own businesses.
    I think that is something that we really ought to look at. 
Because, Mr. Chairman, I have not seen the growth in this 
agency it should have, as far as recipients receiving those 
dollars.
    And as we go through this authorization process in asking 
for dollars, maybe we ought to think about where we are going.
    I do support the Virginia tribes. I do support the Lumbee. 
I know there are some in this room who do not. But I have been 
on this committee long enough to know, 34 years, there has been 
little action downtown.
    And by the way, let us go back to how many tribes have been 
recognized by your agency in the last 20 years?
    Mr. Artman. In the last 20 years I think that there have 
been 14.
    Mr. Young. Fourteen. Twenty years and 14. How many in 30 
years?
    Mr. Artman. Forty have been determined through the 
acknowledgement process.
    Mr. Young. Forty?
    Mr. Artman. Forty.
    Mr. Young. That is better than you said the first number, 
yes. OK. How many about in the last 35 years?
    Mr. Artman. That I don't know, sir. I think that goes all 
the way back to, I am actually not sure.
    Mr. Young. OK, well, find that out. Now, how many have been 
recognized in the last four years?
    Mr. Artman. The last four, I think that is getting closer 
to one.
    Mr. Young. One.
    Mr. Artman. Yes.
    Mr. Young. In four years.
    Mr. Artman. Strict to the math, yes, one.
    Mr. Young. What I am leading up to, Mr. Artman, my problem, 
my concern is you are being asked, let us go through the 
process, go through the Federal acknowledgement process. One in 
four years? And how many people have applied?
    Mr. Artman. How many people have applied?
    Mr. Young. How many tribes?
    Mr. Artman. There have been 62 petitions. But we are not 
going to, the ones that have, with complete petitions, 62.
    Mr. Young. And you have one.
    Mr. Artman. In the last four years.
    Mr. Young. In the last four years. Mr. Chairman, my case 
rests.
    Mr. Artman. Just to clarify, though, that has been 
acknowledged. There have been six others that have been denied 
through the process, as well.
    Mr. Young. One in four years out of 62. My case rests.
    The Chairman. The Chair recognizes the gentleman from North 
Carolina, Mr. Shuler.
    Mr. Shuler. Thank you, Mr. Chairman. Mr. Artman, one of the 
questions, we are obviously talking about the budget and 
restraints, and obviously to go through the recognition you 
would have to obviously increase the budget.
    But what about if, in fact, the Lumbees are recognized as a 
tribe? What would the impact be on the budget of the BIA?
    Mr. Artman. A couple of years ago, when asked a similar 
question, we did a study on that. And for the year, at that 
time that was Fiscal Year 2006, we determined that the initial 
implications to the budget would be approximately $80 million. 
After that, from 2007 to 2011, we determined that the impact 
would be $403 million, I believe.
    Mr. Shuler. So almost a half a billion dollars.
    Mr. Artman. Yes.
    Mr. Shuler. So if Congress didn't fund the increase on that 
budget, what would happen to the funds with the recognitions of 
the new tribes? What would happen if Congress did not increase 
the budget?
    Mr. Artman. Well, we would, of course, follow the letter of 
the law. And as written, I suspect that we would have to push 
back some of the petitioners that are in the acknowledgement 
process right now, and focus on the needs as mandated by 
Congress.
    Mr. Shuler. So we would actually be taking from other 
tribes some of the, basically the needs that they are so 
lacking now, as the Ranking Member Young had indicated, that 
some of the funds aren't necessarily getting totally to the 
people who need it.
    Mr. Artman. That is correct, Congressman.
    Mr. Shuler. When was the last time a tribe received 
recognition?
    Mr. Artman. The last time the Lumbees applied, do you have 
that, Leif? There have been a number of letters. We have 
received, we can focus on eight groups that have submitted 
petitions throughout the process, throughout the years, that 
could be recognized as Lumbee. Let us focus on the Lumbee 
Regional Development Association, 1980.
    Mr. Shuler. Was the process complete? Was it followed 
through completely?
    Mr. Artman. No, it wasn't. Right now the law prohibits us 
from considering them through the acknowledgement process.
    Mr. Shuler. All right. Mr. Chairman, I yield back.
    The Chairman. The gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. I understand that our 
colleague, Mr. Wolf, expressed some concerns about the Indian 
gambling process, and I was not here to hear his testimony. But 
I read an article in Business Week Magazine a few months ago 
which said that Indian gambling was just about out of control, 
and that it was now more than a $30 billion industry, and 
growing by leaps and bounds.
    And in fact, I think there would not be nearly as much 
interest in getting recognition by some of these Indian tribes 
if it was not for their interest in this very lucrative Indian 
gambling business.
    We now have half of the land in some type of government 
ownership, Federal, state, or local. Yet we keep taking over 
more. This sounds so good for a politician to create a park, 
yet we can't take good care of the parks that we already have.
    My point is we keep shrinking the tax base at the same time 
the schools and everybody else is coming to us wanting more 
money. And so I read a George Will column a few months ago 
which said that now every state but two, Utah and one other, I 
think, have some form of gambling. And we are just going 
gambling crazy in this country. And I am not opposed to some of 
it, but I am afraid the gambling addiction is going to become a 
big problem in this country in the years ahead, and maybe 
already is.
    And what I am wondering, Mr. Artman, then, have you ever 
considered recognizing that Indian gambling is excessive at 
this point, or almost out of control, and asking some of these 
tribes if they would be willing to accept recognition, but 
waiving or giving up their right to get into the gambling 
business?
    Mr. Artman. Thank you, Congressman. Right now Secretary 
Kempthorne has stated his concerns with the two-part 
determination, which seems to be where many of the tribes are 
focused right now in terms of Indian gaming. And right now we 
are currently finishing up the development of the Section 20 
regulations, which would further define the Indian Gaming 
Regulatory Act, specifically on areas such as allowing restored 
tribes, tribes with initial reservations, and tribes settling 
land claims, and how they would game through that, and also the 
two-part determination.
    In addition, we are beginning the deliberative process of 
amending the 151, or defeated trust regulations, as well. And 
there will be a heavy emphasis, and there has, as already been 
stated by both Secretary Kempthorne and myself, that we are 
going to be looking at the off-reservation gaming question in 
particular.
    So the Department of the Interior is doing what it can do 
within its parameters to take a look at that issue. We will be 
in consultation with both the tribes and the local communities 
that are impacted by this industry, as well.
    Mr. Duncan. Well, I can tell you that I think it is getting 
out of control. I know all the states have gone to it in a 
desperate attempt to get more and more revenue, but it is just 
becoming excessive. And I think it is creating a real problem.
    I would probably go along with some of these Indian 
recognition efforts--in fact, many of them--if these tribes 
would waive or give up their right to get into this lucrative 
gambling business in return for being granted recognition. But 
I don't believe they will do it. I believe that their primary 
goal is to get into this gambling business, and I think it has 
gone beyond the point of being at a reasonable level. And I 
wish that your department would take that into consideration.
    Thank you very much, Mr. Chairman.
    Mr. Artman. Thank you, sir.
    The Chairman. The Chair recognizes the gentleman from 
Oklahoma, Mr. Boren.
    Mr. Boren. Thank you, Mr. Chairman. I don't really have a 
lot of questions for the member of our panel, just really one.
    I do want to say thank you for having this hearing. I was 
able to meet with Chief Hicks, and I appreciate the dialogue 
that we have had. I also want to recognize a former Oklahoman. 
He is now in Indiana, our former basketball coach at the 
University of Oklahoma. We do miss him. He is a former neighbor 
of mine, actually. I used to live just a few blocks away, and 
would see him working out. Of course, I was the one who was 
sitting in my front yard.
    But anyway, I want to talk a little bit about the 
administrative process. I know there is a lot of motions going 
on right now; there are a lot of people on different sides of 
this issue.
    I have received several letters, one from Chief Smith, 
another from Chief Gray, that is in my packet, expressing their 
concerns about the legislation. But really what I want to do is 
talk about the process, the recognition process and the seven 
criteria.
    Could you describe that a little bit for some of us that 
are new to this recognition process? I don't want you to go in 
great detail, but talk a little bit about where the Lumbees 
would fall in if they were to go through this process, starting 
off with one, existence as an Indian tribe on a continuous 
basis since 1900; two, existence predominantly as a community, 
on down the list.
    Could you just touch in general terms about--because we 
have talked about only so many tribes have been recognized 
through the process. A lot of people are frustrated, and that 
is why you see a lot of people going to the legislative route.
    Could you tell us where the Lumbees would fall in? And I 
know you can't really go into great detail, but it would be 
nice to hear. Thank you.
    Mr. Artman. Sure. Thank you, Congressman. It would be 
difficult to sit here today and tell you exactly where the 
Lumbee are going to fall into how they would match up against 
the seven criteria for a number of reasons.
    First of all, since 1956 the Lumbee haven't been allowed to 
go through the Federal acknowledgement process. So as a rule, 
we haven't had an opportunity to review their record. And it 
would be likely to expect that because of that Federal mandate, 
that their record at this point might be incomplete, the record 
that we possess. I am sure that after this many years and with 
that many potential members, they probably have very complete 
records. So I can't really say which way, how they would fall 
in against all the criteria.
    Now, the criteria generally look at how far back is the 
existence, a continuous existence going back to a date certain. 
And you are looking at records, you are looking at government, 
you are looking at existence through oral history; any number 
of criteria. And generally, that is the core from which all 
seven of those criteria emanate.
    So without a complete record, because of that prohibition, 
without us having the ability to go through that, and I think 
it would be predeterminative to sit here and actually go 
through that. But so far the process has worked with the seven 
criteria.
    And again, just to reiterate, as I said before, the seven 
criteria are general rules that we follow to achieve what we 
consider to be, if it is a positive determination, a very 
solemn event. And that is the government-to-government 
recognition. It is a status that not many have. It is a status 
that is unique and special to American Indians. And it is one 
that we believe in protecting and making sure that it is done 
correctly.
    Mr. Boren. Just a real quick follow-up, and I look forward 
to our next panelists talking. There are some discussions about 
ancestry, and there is some debate. Could you tell us a little 
bit about, for those--I am just a second-termer on this 
committee--about how long the process takes?
    You know, there was some mention that hey, it doesn't take 
very long, others are very frustrated that it is taking a long 
time. Just about the process in general, not specifically about 
the Lumbee, but anyone who is coming through the BIA and 
needing assistance. And our Ranking Member mentioned that 
earlier.
    Could you talk about the timeliness of getting decisions 
and why it is taking so long? Or if not, if it is not taking 
long, could you talk to us a little bit about that?
    Mr. Artman. Sure. In a best-case scenario, starting with 
the best-case scenario, if we have a complete record and 
nothing, no other petitioners in front of that petitioning 
group, it should take about 25 months to do, to go through the 
process, assuming there are no challenges, no extension 
requests and what-have-you. But you do start looking at 
challenges. You have some groups split, or perhaps members will 
peel off and seek petition in another, seek their own petition 
for recognition.
    At the current time, with the 17 entities ahead--that is 
what we have on the ready and active list right now, 17 
petitioners--they have complete petitions. We have groups of 
four that include anthropologists, sociologists, genealogists, 
looking at, examining these records, and sometimes immense 
records: thousands of pieces of paper, reams of paper. Going 
through and making sure that they are accurate, that there is 
no fraud involved in the development of those records.
    With all that, at its current pace, if someone were to come 
on the ready and active list right now, and again in the best-
case scenario with that kind of line, you are looking at 
probably four to seven years for the recognition process. And I 
know with some there is accusations that it has taken decades, 
or over a decade, up to multiple decades. And I would say if 
you go back and look at a lot of those situations, you are 
looking at either incomplete records, requests for extensions. 
There are extenuating circumstances to that.
    Again, we used to have two groups that were looking at 
this. It was recently expanded to four groups in the last 
couple of years, I believe. And those individuals are working 
as hard as they can, both with what is in front of them, and 
also helping the other petitioners get into that, potentially 
get into that ready and active list.
    Again, I think it is probably, well, time is certainly 
where there is a lot of focus, and for good reason. Many of 
these tribes have been petitioners for many years.
    But I think it is probably best to look at the results, and 
the reason why we take so much time. Again, we are 
deliberative, because it is an important result. And as has 
been mentioned here today, there are privileges and immunities 
associated with becoming an Indian tribe, one of which is the 
potential for gaming. Others is a potential for funds, for 638 
funds for economic development, healthcare, education. A 
special status and standing compared to states, the United 
States and local governments.
    So this isn't something that we necessarily want to jump 
into quickly. We want to make sure we are right in doing this.
    Mr. Boren. Thank you, Mr. Chairman.
    The Chairman. The gentlelady from the Virgin Islands, Ms. 
Christensen.
    Ms. Christensen. Thank you, Mr. Chairman. Assistant 
Secretary Artman, the Chairman did make mention of the fact 
that your testimony was pretty silent on some of the issues 
regarding the Virginia tribes. But having heard, I want to ask 
a question that arises out of some of the testimony we did hear 
from Members of Congress.
    As you know, we are going to be receiving testimony from 
some of the Virginia tribes documenting deplorable actions 
taken by various individuals and the Commonwealth of Virginia 
against the native people of Virginia, which may prevent them 
from meeting all of the Federal acknowledgement criteria. And 
in addition, unlike tribes in the Western United States, 
historical times for the Virginia tribes goes back to the 
1500s, when little written documentation exists which may help 
them to meet the criteria. And then we heard that the other 
documents, much of the other documentation was destroyed.
    So what allowances do the Federal acknowledgement criteria 
make for actions such as these?
    Mr. Artman. Thank you, ma'am. There was testimony about a 
deplorable history there, and that goes without saying. And we 
have not yet received complete petitions from many of the six 
potential tribes, the six petitioners on the list.
    Ms. Christensen. But what I am particularly referring to is 
that there is a lot of documentation that is just not going to 
be available. So what allowances?
    Mr. Artman. That was one statement that was made. And 
without a complete record, without being able to look at the 
complete record, it is hard for us to make the determination, 
if what would be missing is something that would be important 
to us in this determination.
    For example, there was made mention of the fact that 
individuals would go into the records of the Native Americans 
and change their descendancy.
    Ms. Christensen. Yes.
    Mr. Artman. From I for Indian to C for color. That does not 
prohibit that record from being used as part of the petition. 
That is still something that we can look at. We can verify the 
descendancy of the ancestors in another, through other methods. 
That could be a piece of the puzzle that would complete the 
whole picture for us.
    So to say that they have been destroyed and unusable may be 
rushing to a conclusion. We, I guess, these records are 
thousands of pieces of paper. And we made these pieces 
together. We are looking at long and disparate histories, in 
some cases, and yet we still manage to put together a complete 
record.
    Ms. Christensen. So the lack or the changing or the 
destruction of the records does not have to be an obstacle to 
them going through the process successfully.
    Mr. Artman. In the hypothetical, it does not have to be, 
does not have to be an obstacle. Without seeing a completed 
petition submitted, it is difficult to answer that question 
thoroughly. But in the hypothetical, it does not have to be.
    Ms. Christensen. But you do recognize that some 
extraordinary steps would have to be taken by the Department 
because of the lack of complete or accurate records, due to 
some of the actions of the Commonwealth of Virginia.
    Mr. Artman. Yes, ma'am. The history of the tribes in 
Virginia is not unique. This is a story that is played out all 
across the country, and something that our Office of Federal 
Acknowledgement has had to contend with.
    Ms. Christensen. OK. And my next question, in 1956 Congress 
specifically enacted legislation recognizing the Lumbees as 
Indians, and some argued then terminating them at the same 
time, as other people have alluded to.
    Regardless, it was Congress's intent to demonstrate that in 
fact they are an Indian tribe. So I think you are saying that 
the Lumbee Tribe should go through the Federal acknowledgement 
process. Are you saying that the Department should have the 
authority to review and overturn Congress's decision to 
recognize the Lumbees as Indians? And if so, are you saying 
this power should apply to all Congressionally recognized 
tribes, or only the Lumbees?
    Mr. Artman. No, ma'am. And I would never say the Department 
has the ability to overturn a Congressional Act. I wouldn't 
even insinuate that.
    In this particular case, if we are to--the Lumbees have a 
complex history. And we have seen that, we have received 
numerous letters and petitions from various groups in Robeson 
County and the surrounding counties. So to say that one 
particular tribe is, or one particular group of people are 
Lumbee or not, we would need to look at a complete record. And 
that is all we are asking for, is the ability to do that.
    For example, are we to combine all of the groups, the 
Tuscarora, potential Cherokee, and Lumbee into one group, much 
as sometimes has been done in California, and recognize it as a 
Lumbee? Or are there distinct lines of different tribes, or 
perhaps even different branches of the same tribe?
    This is a history we haven't had the opportunity to look 
at. And as mentioned at the very beginning, Congress has 
plenary power, and we follow the letter of the law.
    Ms. Christensen. Thank you, Mr. Chairman.
    The Chairman. Thank you, Donna. The gentleman from North 
Carolina, Mr. McIntyre.
    Mr. McIntyre. Thank you. I will be brief because I am eager 
to allow our next panel to come before the full Committee.
    In summary, Mr. Assistant Secretary, you stated that you do 
agree that the 1956 Lumbee Act did not grant the Lumbees the 
full recognition that they would have as a Federally recognized 
tribe, correct?
    Mr. Artman. That is correct. There are privileges and 
immunities that the Lumbee cannot access.
    Mr. McIntyre. And you agree that the Solicitor General's 
opinion of 1989 forbids that from proceeding under the regular 
process, as currently stated, is that correct?
    Mr. Artman. Yes, sir.
    Mr. McIntyre. And then you also state that legislation is 
necessary for the Lumbee Indians to be afforded the opportunity 
to proceed with recognition, correct?
    Mr. Artman. Yes, sir.
    Mr. McIntyre. OK. Now, you have stated, in answering to Mr. 
Shuler earlier, you say that benefits the tribe would be due 
would be approximately $80 million per year, is that correct?
    Mr. Artman. That is the budget that we were required to go 
through the processes as mandated by the current law.
    Mr. McIntyre. And for every year that they suffer not 
having recognition, that is another year that passes that they 
receive absolutely no Federal benefits, is that correct?
    Mr. Artman. That is correct.
    Mr. McIntyre. OK. No further questions. Thank you, Mr. 
Chairman.
    The Chairman. Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman. I have no questions.
    The Chairman. The Chair will call panel number two to the 
table, with testimony on H.R. 65. And the panel is composed of 
the following individuals. Chairman James E. Goins, Lumbee 
Tribe of North Carolina, Pembroke, North Carolina; accompanied 
by Ms. Arlinda Locklear, Esquire, the attorney for the Lumbee 
Tribe of North Carolina; Principal Chief Michell Hicks, Eastern 
Band of Cherokee Indians, Cherokee, North Carolina; Mr. Kelvin 
Sampson, the Indiana University head basketball coach from 
Bloomington, Indiana. We welcome him to the Committee, and at 
the outset, of course, I would like to congratulate you, Coach, 
for your success in your first year as the basketball coach at 
Indiana, leading the Hoosiers to the NCAA tournament and an 
undefeated record of 15 wins at home. With what is reputed to 
be a great recruiting class coming to Bloomington, I wish you 
continued success, and of course that is excluding my alma 
mater, Duke. I also want to welcome Dr. Jack Campisi, the 
anthropologist consultant for the Lumbee Tribe of North 
Carolina.
    Lady and gentlemen, we welcome you to the Committee. We 
have your prepared testimonies, and they will, of course, be 
made part of the record as if actually read. And Mr. Chairman, 
do you want to start off? Mr. Chairman Goins, sorry.

 STATEMENT OF JAMES E. GOINS, CHAIRMAN, LUMBEE TRIBE OF NORTH 
  CAROLINA, PEMBROKE, NORTH CAROLINA; ACCOMPANIED BY ARLINDA 
   LOCKLEAR, ESQUIRE, ATTORNEY FOR THE LUMBEE TRIBE OC NORTH 
                            CAROLINA

    Mr. Goins. Chairman Rahall and Members of the Committee, 
thank you for the opportunity to testify in support of H.R. 65, 
a bill to extend full Federal recognition to the Lumbee Tribe 
of North Carolina.
    On behalf of the Lumbee people, I want to express our 
particular gratitude to you, Chairman Rahall and Congressman 
Young, for your support for our cause. Also on behalf of the 
Lumbee people I want to express our heartfelt appreciation to 
Congressman McIntyre, Congressman Hayes, Senator Dole, and 
Senator Burr for their leadership on this issue.
    I would like also to thank my elders, my veterans, and my 
leaders to tribal council for their attendance and support 
today.
    Mr. Chairman, my name is James E. Goins, and I am the 
Chairman of the Lumbee Tribe. I have a written testimony that I 
request be entered into the record.
    I am the great-great-grandson of Solomon Oxendine, who, 
along with 45 other Lumbee tribal leaders, petitioned the 
Federal government for Federal recognition in 1888. Today I 
stand before you once again requesting that you grant full 
Federal recognition to my people, the Lumbee.
    I am joined by Kevin Sampson, an enrolled member and 
celebrated basketball coach of Indiana, who will tell the 
Committee what Federal recognition means to our people. Dr. 
Jack Campisi will testify that we are in fact an Indian tribe. 
Finally, I am accompanied by the tribe's attorney, Ms. Arlinda 
Locklear, who will be available to answer any technical 
questions for the Committee.
    Some people try to create confusion about our name. These 
were the state-imposed names, not ours. The only thing we have 
chosen is the Lumbee Tribe, which derives from the river from 
where we have always lived. This short series of film clips 
that was taken earlier this month will show you key parts of 
our community and history. It has always amazed me how critics 
of the Lumbee people become believers once they visit Lumbee 
territory.
    So this morning I bring to you the land of the Lumbee, and 
I respectfully request that this short video segment be entered 
into the record.
    This panoramic view of St. Anna Church is we see the Lumbee 
River Holiness Methodist Conference. Excuse me, let me start 
over. I am a little nervous there.
    St. Anna Church, a historical Indian church, and one of 
more than 120 in our territory, shown here has been led by the 
Lumbee pastors for more than 100 years. This church is located 
in the Cheraw settlement, and was the perfect staging area for 
Fred Baker, a special Indian Agent ordered by the Commission of 
Indian Affairs to study the history and conditions of my 
people.
    The Indians report, one of 12, by the Department of 
Interior, stated that over 2,000 Lumbee met him at St. Anna. 
Mr. Chairman, I have these 12 reports here, and I would like to 
request they be made part of the record.
    Every single one of these reports identify us as Indian, 
and notes the strength of our community and leadership. In this 
panoramic view of St. Anna Church we see the Lumbee River 
Holiness Methodist Conference, created in 1900, and today this 
association remains the only all-Indian religious conference in 
the country.
    Education has always been important to our people. When the 
state recognized us in 1885, it established a school system 
controlled by the tribe, and lended it eligibility to our 
children. It is one of the earliest pictures of our Indian 
schools.
    Here is Prospect School that today sits on a portion of a 
Cheraw settlement. Prospect School has a student population of 
99.8 percent Indian. The principal, most of the teachers, and 
yes, even the superintendent of the Robeson County Public 
Schools are all Indian. This school is very dear to my heart. 
My grandfather attended this school, my father attended this 
school, I attended this school, even my children and now my 
grandchildren attend this school.
    The Indian Normal School, founded in 1887, established to 
educate Indian teachers, is now in the University of North 
Carolina at Pembroke. Due to the efforts of early leaders, our 
youth today attend predominantly Indian schools and live in 
Indian communities.
    This is the family home and burial site of the tribe's most 
noted hero, Henry Berry Lowrie. Lowrie led the effort to 
protect our people against constriction and to hard labor by 
the local militia during the Civil War. Lowrie watched militia 
execute his father and brother in 1865, and it is here where 
they are buried. This began his 10-year quest to protect his 
family and the Indian community against tyranny.
    Here you see Red Banks. This is where the BIA proposed to 
establish a resettlement program for our people in 1935. But 
the BIA transferred the program to the Department of 
Agriculture. Even so, the Red Banks Mutual Association, a long-
running all-Indian agricultural farming co-op, was established 
here.
    Now you see scenes of Lumbee homecoming, held annually in 
Pembroke, where over 25,000 Lumbee people gather to celebrate 
our culture and heritage. It is during this time that I give my 
state-of-the-tribe address, as mandated by our tribal 
constitution. These streets were closed to celebrate the 
passage of the 1956 Lumbee Act. We thought we had been 
recognized at last, only to discover that Congress had instead 
terminated Federal responsibility for our tribe.
    Finally, our veterans. Honor, duty, and love of country are 
qualities our brothers, our Lumbee veterans instill in our 
youth. These are not just empty words, but this is our way of 
life. My father, who served in World War II, passed these same 
qualities down to me. Lumbee veterans have defended your way of 
life and our way of life. No words can truly express my sincere 
appreciation for all Lumbee veterans who have served in every 
war and conflict since Bennett Locklear, one of my ancestors 
who fought in the Revolutionary War. As a result, I proudly 
served my country by enlisting in the Army, and served in 
Vietnam. For my service in Vietnam I was awarded the Purple 
Heart, the Bronze Star, and the Air Medal.
    We think it is time for Congress to complete what it 
started in 1956. In the words of my dear friend, Congressman 
Mike McIntyre, it is time for discrimination to end and 
recognition to begin.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Goins follows:]

                 Statement of Chairman James E. Goins, 
                Chairman, Lumbee Tribe of North Carolina

    Chairman Rahall, Congressman Young, and members of the committee, 
thank you for the opportunity to testify today in support of H.R. 65, a 
bill to extend federal recognition to the Lumbee Tribe of North 
Carolina. On behalf of the Lumbee people, I want to express our 
particular gratitude to you, Chairman Rahall and Congressman Young, for 
your support for our cause. Also on behalf of the Lumbee people, I want 
to express our heartfelt appreciation to Congressman McIntyre, Senator 
Dole, and Senator Burr for their leadership on this issue. With their 
efforts, the Lumbee people are hopeful that we will finally reach our 
goal of federal recognition this Congress.
    Mr. Chairman, my name is James Ernest Goins and I am the Chairman 
of the Lumbee Tribe. I am joined by Kelvin Sampson, an enrolled member 
and Head Basketball Coach for Indiana University, who, after my 
statement, will tell the Committee what the prospect of federal 
recognition means to our people. Finally, Dr. Jack Campisi, an expert 
anthropologist who has worked with the Tribe for more than twenty 
years, will testify that the Lumbee qualify as an Indian tribe. We are 
accompanied by the Tribe's attorney on recognition, Arlinda Locklear, 
who will be available to answer any technical questions for the 
committee.
    The Lumbee Tribe is well known in Indian country, both because of 
the Tribe's long quest for federal recognition and the number of 
prominent Lumbees who work throughout Indian country--political 
appointees in Indian affairs, educators, doctors, lawyers, and others, 
like Coach Sampson. In our relations with other tribes, we sometimes 
encounter people with questions about the Tribe's entitlement to 
federal recognition. We always invite these people to visit the Lumbee 
community, to walk among us in all Lumbee churches and schools, and to 
see where our history took place and continues to be made every day. 
When they do this, they are struck by the fact that Lumbee territory is 
Indian country: it is visible in the faces of our people and in the 
strong community ties that bind the Lumbees.
    Mr. Chairman, we wish the committee could visit our community and 
see these things as well. Since that is not possible, we have done our 
best to bring our community to you. I will present a series of short 
film clips, all of which feature key parts of our community and 
history. We believe you'll see through these clips that Lumbee 
territory is Indian country. As such, we are entitled to the same 
federal recognition enjoyed by the rest of Indian country.
    Before I show the film clips, though, I want to address something 
that the committee members are likely to hear a lot about today, and 
that is the name Lumbee Tribe. We Lumbees have not always been known by 
that name. In 1885, the State of North Carolina first recognized our 
ancestors as the Croatan Indians of Robeson County. In 1911, the State 
changed the law to recognize our ancestors as the Indians of Robeson 
County. And in 1913, the State again changed the law to recognize our 
ancestors as the Cherokee Indians of Robeson County. The Tribe did not 
choose any of these names. Instead, they were chosen by members of the 
State Legislature at the time who thought of themselves as amateur 
historians. Our people grew tired of all these names imposed by state 
law and, in 1952, asked the State to conduct a referendum on the 
adoption of the name Lumbee, drawn from the Lumber River where our 
people have always lived. The State agreed and the referendum passed 
overwhelmingly. In response, the State changed the law once again in 
1953 to recognize the Tribe as the Lumbee Indians of Robeson and 
adjoining counties. We have been recognized by the State as the Lumbee 
Tribe ever since. But whatever name the State called us, we are the 
same people that the State first recognized in 1885. In fact, I am a 
lineal descendant of one of the Croatan leaders who the State 
recognized in 1885 and who first petitioned the Congress for federal 
recognition in 1888. So the Lumbee community that you are about to see 
is the same Indian community that the State of North Carolina has 
recognized since 1885.
St. Anna's Church
    The first video clip shows St. Anna's Church. This church is more 
than a hundred years old. It has today and has always had a Lumbee 
minister and an all Lumbee congregation. There are more than 120 such 
churches in Lumbee territory. They are an important part of our 
community, with most people's social lives organized around their 
church and their families. This particular church is significant 
because this is one of the places where Fred Baker, then the BIA 
Superintendent for the Sisseton Indian Agency, held meetings with the 
Lumbee people in 1935. Agent Baker was sent to Lumbee territory by the 
Commissioner of Indian Affairs to study the history and condition of 
the Lumbee people. He reported that 2,000 Indians showed up at his 
meeting at St. Anna Church and that he was deeply moved by their hope 
for federal involvement in the Indian community there. His report on 
the Lumbees was one of twelve that the Department of the Interior has 
done, starting as early as the 1912 Pierce Report. All these reports 
document the Indian ancestry of the Lumbees, our tight knit 
communities, and the need for assistance for federal Indian services.
    The panoramic view around St. Anna's Church is also important. It 
shows other all Indian institutions in our community, for example, the 
Pembroke Volunteer Fire Department and the headquarters of the Lumber 
River Holiness Methodist Conference established in 1900, an all Indian 
conference of Holiness Methodist churches. This panoramic view also 
shows that our people continue to live in the same areas as their 
ancestors. The family settlement of Reverend Zimmie Chavis is here. The 
Chavis family has owned this land since before the Civil War and 
remains there today.
Prospect Elementary School
    This school is located in what the early land records identify as 
the Cheraw Old Field, the heart of the eighteenth century Cheraw 
community. Today, that community is known as Prospect. This school has 
an Indian principal, Indian teachers, and virtually all Indian student 
population. I attended this school as a child and my grandchildren 
attend it today.
    There are many other schools like this in our community. Indian 
education and schools have been an important part of our history. Our 
people first sought recognition from the State because our children 
were not allowed to attend white schools after the Civil War. So, in 
the 1885 state statute that first recognized the Tribe, the state 
established a separate school system just for Lumbee children. Tribal 
leaders were authorized to control the schools and determine 
eligibility to enroll; our people established what we called blood 
committees for this purpose. As far as we know, the Lumbee Tribe is the 
only one in the country to control its own school system under state 
law. And we did so for nearly a hundred years. We use the records of 
those blood committees today as one of the base documents to establish 
eligibility for tribal enrollment.
    In 1887, our people petitioned the State for a normal school to 
train Lumbees as teachers for our school system. In response, the State 
authorized and gave us some funding for the Pembroke Indian Normal 
School; today, the Normal School is the Pembroke campus of the 
University of North Carolina. The State gave us too little money, 
though, to maintain the Normal School, so we first asked for federal 
recognition in 1888 so that we could get federal Indian education 
assistance. We continued to operate our school system until the early 
1970's, when a federal judge ordered North Carolina to desegregate its 
schools. That judge told the Tribe that it could not maintain a 
separate school system since it was not federally recognized. So we 
lost our separate school system, but because most of our communities 
are predominantly Indian, many of our schools remain predominantly 
Indian.
    A particular incident in the history of our Indian schools shows 
the strength of Lumbee leadership and independence. In 1913, the North 
Carolina Attorney General issued an opinion saying that the county 
board of education could overrule decisions by the Tribe's blood 
committees on who was eligible to attend Lumbee schools. This was not 
acceptable to the Tribe. The Tribe's leaders convinced the North 
Carolina Legislature to effectively set aside the Attorney General's 
opinion by passing a statute which established a committee of all 
Lumbees, named in the statute, with exclusive authority to hear 
challenges to enrollment decisions in our schools.
Lowrie site
    This next film clip shows the homesite of Allen Lowrie, the father 
of Henry Berry Lowrie who led the Lowrie gang. This site is an 
important part of the Tribe's history dating back to the Civil War. 
Tribal members were prohibited from serving in the Confederate Army, 
but the Home Guard in the county conscripted our people into labor 
gangs and assigned to build fortifications to protect the City of 
Wilmington. Those who could escape did so and returned home where they 
hid out in the swamps of Robeson County, with the protection of other 
tribal members. Tension increased to the point of open hostilities by 
the end of the Civil War. Eventually the Home Guard captured Allen 
Lowrie and his son, William, at the Lowrie homesite, and executed them. 
This was in the winter of 1865. Henry Berry Lowrie, Allen's other son, 
launched a virtual war against the Home Guard and, by 1870, was able to 
strike the local authorities with impunity because of the protection of 
the Indian community. This continued until 1872, when Henry Berry 
disappeared in the swamps, never to be seen again. Henry Berry Lowrie 
is a folk hero among our people and we celebrate his exploits every 
year in an outdoor drama we hold called, ``Strike at the Wind.''
Red Banks
    This particular area is called Red Bank, located on the Lumber 
River. You'll remember the 1935 Baker Report that I mentioned before. 
Well, Agent Baker recommended to the Department of the Interior that it 
acquire land for settlement of the Lumbees under the recently enacted 
Wheeler-Howard Act, also known as the Indian Reorganization Act. He 
recommended that the land be purchased here, at Red Bank. The Bureau of 
Indian Affairs initiated the project, but the project was transferred 
from the BIA to the Resettlement Administration of the Department of 
Agriculture, for reasons that were never explained to the Tribe. Indian 
families did eventually settle here and established the Red Banks 
Mutual Association, a long running farming cooperative that was all 
Indian. The effort to use this land base to organize under the IRA 
failed, though, when local white were allowed to settle a portion of 
the land.
    Another effort by the Tribe to organize under the IRA should also 
be mentioned. At the same time that the resettlement effort was 
underway, Assistant Solicitor Felix Cohen wrote to Lumbee tribal 
leaders and laid out a plan that would allow the Tribe to become 
organized. First, tribal members had to consent to physical 
examinations to determine whether they were one-half or more Indian 
blood. Most of our people refused to consent to these examinations, 
testing hair, teeth, head size, and other such demeaning things. 209 of 
our people agreed to submit to these examinations and the BIA certified 
22 of these individuals as one-half or more Indian blood. This was 
really just made up science--in some cases, full blood brothers and 
sisters were said to have different quantum of Indian blood. But this 
effort eventually failed, too, when the BIA refused to take land into 
trust for these half-bloods so that they could organize under the IRA.
Main Street, Pembroke
    This film clip shows Main Street in the Town of Pembroke. Pembroke 
is in the heart of Lumbee territory. All its elected and appointed 
officials are members of the Lumbee Tribe--the mayor, the town council, 
town clerk, police department, etc. This particular clip shows an event 
that takes place in Pembroke every year that is important to Lumbees--
the annual Lumbee Homecoming that takes place every year at the Fourth 
of July. Thousands of Lumbees come home for this event because Robeson 
County is always home to us wherever we may live. During Homecoming we 
visit family and participate in tribal events such as a parade, beauty 
pageants, and a pow-wow.
    In 1956, the streets of Pembroke were closed for a parade and 
celebration of the passage of the 1956 Lumbee Act by Congress. As I 
mentioned earlier, the Tribe first sought federal recognition in 1888 
so that we could get federal assistance for the Indian normal school. 
That request was turned down by the Secretary of the Interior in 1890, 
because as he said, he had too little education funding for tribes 
already under his jurisdiction and the Lumbees, as a so-called 
``civilized'' tribe recognized by the State, should look to the State 
for assistance. After that, the Tribe's congressional delegation 
introduced a series of bills in Congress to extend federal recognition 
to the Tribe. These bills generally were copied from the most recent 
state legislation recognizing the Tribe. After the State amended state 
law to recognize the Tribe as Lumbee in 1953, an identical bill was 
introduced in the Congress to achieve federal recognition on the same 
terms. When this bill passed Congress in 1956, the Tribe celebrated in 
the streets of Pembroke.
    However, the 1956 Lumbee Act was not identical to the State law 
passed in 1953. The Department of the Interior had requested that 
Congress amend the federal bill by including termination language, 
language that the Department of the Interior said was necessary so that 
the Tribe would not get federal Indian services. The Congress included 
this termination language in the 1956 Lumbee Act. And because of that 
termination language, the Lumbee Tribe is not eligible for federal 
Indian services. Also because of that termination language, the Lumbee 
Tribe is not eligible for the administrative acknowledgement process at 
the Bureau of Indian Affairs. So as the law stands now, the Lumbee 
Tribe can be federally recognized only by an act of Congress. As far as 
we know, the Lumbee Tribe is the only tribe in the country in this 
position.
VFW Post, Pembroke
    This last film clip is particularly significant to me--it shows the 
VFW Post in Pembroke. All the members of this post are Lumbee Indians. 
It includes veterans from World War II, the Korean War, Viet Nam, and 
Dessert Storm. We also have a tribal color guard of our Indian 
veterans. Our tribal color guard members wear a special uniform that 
shows our pride in being Lumbee and our pride in our service to our 
country.
    I'm a proud member of this Post. I enlisted in the Army and served 
in Viet Nam. The men in my squad called me ``Chief.'' For my service in 
Viet Nam, I earned the Purple Heart, the Bronze Star, and the Air 
Medal. My father, too, serviced this country in World War II. Lumbee 
people have always served this country as far back as 1775 when we 
fought with the colonists. Many of our veterans' records identify them 
as Indian, yet the United States does not officially recognize us.
Conclusion
    Mr. Chairman and members of the community, our people have been at 
this work for federal recognition for more than one hundred years. The 
Bureau of Indian Affairs has studied us and the Congress has developed 
a voluminous congressional record on us. No other tribe has come to 
Congress with such an extensive record, one that consistently supports 
our Indian ancestry, our descent principally from the aboriginal Cheraw 
Tribe, and our separate community with distinct and strong leadership. 
Mr. Chairman, we hope these film clips have shown you what visitors to 
our community see, that we are Indian country and should be recognized 
as such.
                                 ______
                                 
    The Chairman. Thank you. Principal Chief Hicks.

 STATEMENT OF MICHELL HICKS, PRINCIPAL CHIEF, EASTERN BAND OF 
           CHEROKEE INDIANS, CHEROKEE, NORTH CAROLINA

    Mr. Hicks. Hello and good morning. Chairman Rahall, I 
appreciate the opportunity to be here today.
    Congressman Shuler, thank you for all that you did. You 
have made a very good name for yourself here in D.C., and 
Western North Carolina thanks you and we appreciate you.
    I want to thank the Members of the Resources Committee for 
allowing me to say a few words today and to testify on the 
views of the Eastern Band of the Cherokee. The Eastern Band is 
a fairly recognized tribe in Western North Carolina. We reside 
on the Cherokee Reservation known as the Kwala Boundary. It is 
about 56,000 acres. We have 13,700 members. We are the largest 
Federally recognized tribe east of the Mississippi; also, a 
member of the 25 USET tribes.
    The Eastern Band's ancestors were the Cherokees who 
resisted the Trail of Tears, this ugly scar on our American 
history that caused the deaths of thousands of our people, the 
Cherokee people. And for centuries the Cherokee people have 
fiercely protected our separate cultural identity, and that is 
what we are here about today is identity.
    We have a living, breathing culture with a unique spoken 
language, and also obviously a written language. The Federal 
government worked hard to destroy our language and destroy our 
ways, destroy our culture, but the Cherokee people have 
survived and flourished nonetheless.
    Our long-defended identity is threatened by several groups 
throughout the Southeast who have illegitimately claimed our 
Cherokee identity as their own. Without a doubt, the Lumbee are 
one of these many groups who fall unfortunately into this 
category.
    Since 1913, over 90 years ago, the Eastern Band has been 
concerned about the issue of Lumbee recognition. Long before 
they took the name Lumbee, this group sought recognition from 
the State of North Carolina as the Cherokee Indians of Robeson 
County. Over our opposition, that recognition was granted. And 
for more than 40 years they were state-recognized as a Cherokee 
tribe.
    In 1924 the Lumbee sought Federal recognition from the U.S. 
Congress, and I quote, ``The Cherokee Indians of Robeson and 
adjoining counties.'' In 1932 they sought once again to be 
recognized by Congress as a Cherokee tribe. Congress rejected 
both of these attempts.
    This uncertain history of Lumbee identity helps to explain 
the Eastern Band's position on Lumbee recognition and this 
bill. The Eastern Band opposes any legislation that would 
Congressionally acknowledge the Lumbee as an Indian tribe. 
Doing so would undermine the cultural and political integrity 
of the Eastern Band and other Federally recognized tribes who 
value the government-to-government relationship with the United 
States.
    We would not oppose, however, legislation that would clear 
the way for the Lumbees to get a fair shot--and I repeat, a 
fair shot--at Federal recognition through the Department of 
Interior's Office of Federal Acknowledgement. And I want to 
repeat, we would not oppose legislation that would allow the 
Lumbee to go through the process.
    Credible experts in genealogy raise serious questions about 
Lumbee identity that this committee cannot ignore. Dr. Virginia 
DeMarce, the former Chair of National Genealogical Society, and 
Paul Heinegg, an award-winning genealogist and author, have 
published research on Lumbee family genealogies, and reached 
conclusions that contradict the fundamental basis for the 
Lumbee Recognition Act.
    Heinegg summarizes his conclusions concerning Lumbee 
identity, referring to the Lumbee as a ``in all due respect, an 
invented North Carolina Indian tribe.''
    Dr. DeMarce's research demonstrates that many Lumbee 
families migrated into the Robeson County, North Carolina area 
from other places prior to 1800. Heinegg concurs. Dr. DeMarce 
also states that genealogical evidence does not bear out that 
these families significantly married into Indian families upon 
arrival in the Robeson County area in the 1800s.
    In fact, there is evidence that non-Indians in the area did 
not consider these Lumbee families to be Indians in the 1840s. 
Beyond these families, Dr. DeMarce also states that other 
notable genealogists frequently refer to other self-
identified--let me repeat, self-identified--Lumbee families as 
residing in other areas prior to any settlement in the Robeson 
County area.
    This uncertain background may somewhat explain why the 
Lumbees have sought Federal recognition as four different 
tribes over the years: The Siouan, the Croatan, the Cherokee, 
and now the Cheraw.
    This leads to my second point. The cultural and political 
integrity of the Eastern Band of the Cherokees and other tribes 
with living tribal languages and longstanding government-to-
government relationships with this great United States is 
undermined when this Congress acts arbitrarily in Federal 
acknowledgement matters, allowing politics and emotion to drive 
decision making, rather than facts about the real tribal 
identity.
    Eastern Cherokee leaders have raised these identity 
concerns about the Lumbees since at least 1913, when the 
Lumbees first claimed to be Cherokees. And for 40 years 
thereafter, they were known by the State of North Carolina to 
be Cherokees.
    Third, the Department of the Interior's Office of Federal 
Acknowledgement, while imperfect, is the only Federal entity 
equipped to make an informed, merits-based determination of 
Lumbee tribal identity and its recognition. Congress is not 
well equipped to evaluate and make these decisions, with all 
due respect.
    And finally, Congress should be absolutely certain that the 
Lumbees meet the objective criteria at Interior before it 
enacts a bill that would cost more than $800 million of 
taxpayer dollars estimated over a five-year period, based on 
the latest CBO numbers. And I hope through this process that a 
new CBO calculation is done.
    Today the Lumbees claim, as I understand--I have heard 
about four or five estimates of the membership--over 60,000 
members. This raises a rather obvious question. Where was the 
so-called Lumbee Tribe when President Andrew Jackson, in the 
1830s, and the U.S. Army were rounding up all the Indians in 
the Southeast, and forcibly removing us to the West?
    For these reasons, we strongly oppose the passage of H.R. 
65. And Mr. Chairman, there is an established process to review 
these issues and make a fact-based decision.
    We urge you to consider another approach, which I have 
heard earlier today, one that would give the Lumbee a fair 
chance, an equitable chance, a timely chance to meet the 
standard established criteria at the Office of Federal 
Acknowledgement. If they can meet those standards, then they 
will be recognized as a tribe, and we will welcome them, as we 
do all the other brothers as a Federally recognized tribe. And 
they deserve all the benefits that come with that.
    But please remember, the Lumbees submitted a petition for 
acknowledgement to the Interior Department on January 7, 1980. 
On November 20, 1989, the Solicitor determined they could not 
complete the process because of the 1956 Lumbee Act. That was 
over 18 years ago. If the Lumbee had agreed to legislation 
giving them a fair shot, which again we offer today a fair 
shot, at the administrative process, then they would have their 
answer today. There would be no questions.
    And the question we ask is whether the Lumbee want to avoid 
the administrative process because they believe it is unfair, 
or because they know it would truly examine the factual issues 
about Lumbee identity. The Eastern Band of Cherokee urges you 
to protect the integrity of all Indian nations, and oppose this 
current legislation today.
    I thank you for the opportunity to speak.
    [The prepared statement of Mr. Hicks follows:]

              Statement of Principal Chief Michell Hicks, 
                  The Eastern Band of Cherokee Indians

    Chairman Rahall, Ranking Member Young, members of the House Natural 
Resources Committee, I appreciate the opportunity to testify today 
before this Committee to provide the views of the Eastern Band of 
Cherokee Indians.
    The Eastern Band strongly believes that Congress should not enact 
H.R. 1324. As I testified on behalf of the Eastern Band three years ago 
before this Committee and last year before the Senate Indian Affairs 
Committee, this bill has factual and policy flaws that fundamentally 
make the bill unfair to the United States and existing federally-
acknowledged Indian tribes.
    First, there are serious problems with the tribal and individual 
identity of the Lumbee. Credible experts in the area of genealogy, who 
are not affiliated with the Eastern Band, have reached difficult 
conclusions concerning Lumbee identity that this Committee should not 
ignore. Paul Heinegg, whose work has been recognized by The American 
Society of Genealogists, concludes that the Lumbee are ``an invented 
North Carolina Indian tribe,'' <SUP>1</SUP> and that many of the 
persons who first self-identified as Indian in Robeson County, North 
Carolina, are not of Indian ancestry.
---------------------------------------------------------------------------
    \1\ ``The Lumbees' Long and Winding Road,'' Roll Call 13 (July 17, 
2006) (published following the Senate Indian Affairs Committee hearing 
on the Lumbee Recognition Act in 2006).
---------------------------------------------------------------------------
    Another indisputable expert in this area is Dr. Virginia DeMarce, 
who formerly served as Chair of the National Genealogical Association 
and as an expert in this area at the Department of the Interior. Dr. 
DeMarce concludes from her genealogical studies that many Lumbee 
families do not originate from the Robeson, North Carolina, area, but 
migrated there from other places.
    As you know, in past testimony before the Congress, Department of 
Interior officials also have raised serious concerns about Lumbee 
individual and tribal identity as well.
    This uncertain background may somewhat explain why the Lumbee have 
sought federal recognition as descending from four different tribes 
over the years: Cherokee, Siouan, Croatan, and now Cheraw.
    This leads to my second point. The cultural and political integrity 
of the Eastern Band and other tribes with living tribal languages and 
long standing government-to-government relations with the United States 
is undermined when Congress acts arbitrarily in federal acknowledgement 
matters, allowing politics and emotion to drive decision making, rather 
than facts about tribal identity. Eastern Cherokee leaders have raised 
these identity concerns about the Lumbee since at least 1910, when the 
Lumbees first claimed a Cherokee identity.
    Third, the Department of the Interior's Office of Federal 
Acknowledgement (OFA), while imperfect, is the only federal entity 
equipped to make an informed, merits-based determination of Lumbee 
tribal identity and recognition. Congress, while it certainly has the 
power to recognize tribal groups, is not as well equipped to evaluate 
and make these decisions as the Department of Interior.
    And finally, Congress should be absolutely certain that the Lumbees 
meet the objective criteria at Interior before it enacts a bill that 
could cost the taxpayers more than $800 million over five years, 
undermine the integrity of existing federally-recognized tribes, and 
further decrease the funds existing tribes and Indians receive. But due 
to the problems with Lumbee identity, Congress cannot be confident in 
the merits of this bill.
    A fair approach would be for Congress to clear the way for the 
Lumbees to get a fair shot at federal acknowledgement through the 
Department of the Interior's Office of Federal Acknowledgement.
Serious Problems with Claimed Lumbee Identity
``An Invented North Carolina Indian Tribe'': Credible Experts Raise 
        Serious Problems With Lumbee Identity
    Dr. Virginia DeMarce, the former Chair of the National Genealogical 
Society, and Paul Heinegg, an award-winning genealogist and author, 
have published research on Lumbee family genealogies and reached 
conclusions that contradict the fundamental bases for the Lumbee 
Recognition Act. Heinegg summarizes his conclusions concerning Lumbee 
identity, referring to the Lumbee as ``an invented North Carolina 
Indian tribe.'' <SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ ``The Lumbees' Long and Winding Road,'' Roll Call 13 (July 17, 
2006) (published following the Senate Indian Affairs Committee hearing 
on the Lumbee Recognition Act in 2006).
---------------------------------------------------------------------------
    Dr. DeMarce's research demonstrates that many Lumbee families 
migrated into the Robeson County, North Carolina, area from other 
places prior to 1800. <SUP>3</SUP> These include the Brayboy, Chavis 
(Chavers), Cumbo, Gowen, Locklear, Kersey, and Sweat families. Heinegg 
concurs and adds the Lumbee families of Carter, Hammond, Jacobs, James, 
Johnston, Lowry, Manuel, and Roberts to this list. <SUP>4</SUP> Dr. 
DeMarce also states that genealogical evidence does not bear out that 
these families significantly married into Indian families upon arrival 
into the Robeson County area in the 1800s. <SUP>5</SUP> In fact, there 
is evidence that non-Indians in the area did not consider these Lumbee 
families to be Indians in the 1840s. <SUP>6</SUP> Beyond those families 
listed earlier, Dr. DeMarce also states that other notable genealogists 
frequently refer to other self-identified Lumbee families as residing 
in other areas prior to any settlement in the Robeson County area. 
<SUP>7</SUP>
---------------------------------------------------------------------------
    \3\ Virginia DeMarce, ``Looking at Legends--Lumbee and Melungeon: 
Applied Genealogy and the Origins of Tri-Racial Isolate Settlements,'' 
National Genealogical Society Quarterly 81 (March 1993): 27-31.
    \4\ Paul Heinegg, Free African Americans of North Carolina and 
Virginia (Baltimore, MD: Clearfield, 1997, 3rd Ed.): 23.
    \5\ DeMarce, Legends at 37.
    \6\ DeMarce, Legends at 27. These genealogical findings are 
supported by Historian John Hope Franklin quoting a petition from the 
North Carolina Legislative Papers for 1840-41 that showed Robeson 
County inhabitants during the first half of the nineteenth century did 
not agree with the theory that the Lumbees were Indians but were 
migrants from Virginia. Id.
    \7\ DeMarce, Legends at 30.
---------------------------------------------------------------------------
    More broadly, Heinegg states that the Lumbees from Robeson County 
were not Indians but ``African American as shown by their 
genealogies.'' <SUP>8</SUP>
---------------------------------------------------------------------------
    \8\ Heinegg at 22.
---------------------------------------------------------------------------
    DeMarce states that Lumbee families had good reason to identify 
themselves as Indian at the time. The ``legal, social, educational, and 
economic disadvantages of being African-American were so great that it 
was preferable for a person to be considered almost anything else.'' 
<SUP>9</SUP> Heinegg adds that until about 1835, ``free African 
Americans in Robeson County attended white schools and churches, voted, 
and [congregated] with whites. However, the relations between the 
whites and free African American communities deteriorated rapidly after 
1835, and by the end of the Civil War they were strained to the 
breaking point.'' <SUP>10</SUP> The Lumbee claims of Indian ancestry 
allowed Lumbee children to go to different schools from the children of 
newly freed slaves. <SUP>11</SUP> According to DeMarce, not until after 
the Civil War did most communities of African Americans advance a claim 
of also being of Indian ancestry. <SUP>12</SUP>
---------------------------------------------------------------------------
    \9\ Virginia DeMarce, ``Verry Slitly Mixt'': Tri-Racial Isolate 
Families of the Upper South--A Genealogical Study,'' National 
Genealogical Society Quarterly 81 (March 1992): 6.
    \10\ Heinegg at 25.
    \11\ Heinegg at 25. According to the 1956 Lumbee Act, the Lumbees 
themselves were persons ``owning slaves.''
    \12\ DeMarce, Tri-Racial Isolates at 7.
---------------------------------------------------------------------------
    In 1900, over 120 Lumbee families, including the ones above, self-
identified as ``Indian'' in the federal census. Dr. Campisi relies on 
federal census records as the ``best source of evidence concerning the 
Lumbee community.'' <SUP>13</SUP>
---------------------------------------------------------------------------
    \13\ 109th Congress, Campisi testimony at 38.
---------------------------------------------------------------------------
The Lumbee Have Self-Identified As Four Different Tribes
    This uncertain genealogical background illuminates the remarkable 
story of Lumbee efforts to attain federal acknowledgement as four 
different Indian tribes, including the ``Cherokee Indians of Robeson 
and Adjoining Counties.''
    The Lumbee group seeking Congress's acknowledgement today has been 
before the Congress on numerous occasions in the past, beginning in 
1899. The tribal identity of the Lumbees, who have over the course of 
history self-identified themselves as four different tribes before 
Congress ``Croatan, Cherokee, Siouan, and now Cheraw--is highly in 
question. These appellations do not correlate with each other. 
Linguistically, the Croatan were Algonquian, the Cherokee Iroquoian, 
and the Cheraw were Siouan. Thus, these disparate references themselves 
implausibly covered three distinct and separate linguistic groups. 
Moreover, referring to themselves as the ``Siouan Tribe'' did not make 
sense because the term ``Siouan'' is simply a reference to a broad 
generic linguistic classification that encompassed many distinct tribal 
languages in North America, including Osage, Assiniboine, Dakota, 
Lakota, Catawba, Hidatsa, Crow, Mandan, Ponca, Biloxi, and Quapaw, to 
name a few.
    The origin of the Lumbee name comes not from a historic tribe but 
from a geographic location in the State of North Carolina, a place 
along the Lumber River. The term ``Lumbee'' is a modern creation that 
the group selected as its name in 1952.
Lumbee's Self-Identification as ``Croatan'' Indians
    The Lumbee sought federal services from the Congress as ``Croatan'' 
Indians in the 1880's and early 1900's. <SUP>14</SUP> In 1993, this 
Committee's House Report contained the following relating to the 
history of the Lumbee group, including its ``Croatan'' origins:
---------------------------------------------------------------------------
    \14\ ``Testimony of Dr. Jack Campisi, in Support of S. 420, United 
States Senate Committee on Indian Affairs'' (September 17, 2003) p. 6.
---------------------------------------------------------------------------
        The story of how the progenitors of the Lumbee came to live in 
        this area of North Carolina is a multifarious one. In fact, 
        there are almost as many theories as there are theorists. Up 
        until the 1920's, the most persistent tradition among the 
        Indians in Robeson County was that they were descended 
        primarily from an Iroquoian group called the Croatans. This 
        theory, though highly conjectural, is as follows. In 1585, Sir 
        Walter Raleigh established an English colony under Gov. John 
        White on Roanoke Island in what later became North Carolina. In 
        August of that year, White departed for England for supplies, 
        but was prevented from returning to Roanoke for 2 years by a 
        variety of circumstances. When he finally arrived at the 
        colony, however, he found the settlement deserted; no physical 
        trace of the colonists was found.

        The only clue to their whereabouts were the letters ``C.R.O.'' 
        and the word ``Croatoan'' carved in a tree. From this it was 
        surmised that the colonists fled Roanoke for some reason, and 
        removed to the nearby island of Croatoan which was inhabited by 
        a friendly Indian tribe. There, according to the theory, they 
        intermarried with the Indians, and the tribe eventually 
        migrated to the southwest to the area of present-day Robeson 
        County. The theory is lent some credence by reports of early 
        18th century settlers in the area of the Lumber River who noted 
        finding a large group of Indians--some with marked Caucasian 
        features such as grey-blue eyes ``speaking English, tilling the 
        soil, ``and practicing the arts of civilized life.'' In 
        addition, many of the surnames of Indians resident in the 
        county match those of Roanoke colonists. <SUP>15</SUP>
---------------------------------------------------------------------------
    \15\ H.R. Rep. No. 103-290, 103rd Cong., 1st Sess. at 179 (1993).
---------------------------------------------------------------------------
    Genealogist Paul Heinegg refers to this theory of Lumbee tribal 
background as well as the one posited today by the Lumbee as 
``fantastic theories on [Lumbee] origin....'' <SUP>16</SUP>
---------------------------------------------------------------------------
    \16\ Heinegg at 17.
---------------------------------------------------------------------------
Lumbee's Self-Identification as ``Cherokee'' Indians
    In the state of North Carolina, the Lumbee group sought recognition 
from the North Carolina legislature in 1913 as the ``Cherokee Indians 
of Robeson County.'' This legislation was passed, despite the Eastern 
Band's opposition, and the group was recognized in North Carolina as 
``Cherokee'' Indians. That continued for 40 years until 1953 when the 
North Carolina legislature, at the Lumbee group's request, passed 
legislation recognizing them as the ``Lumbee'' Indians instead of as 
the ``Cherokee'' Indians.
    After World War I, the Lumbees sought federal legislation in 
Congress for recognition as ``the Cherokee Indians of Robeson and 
adjoining counties.'' Specifically, in 1924, Dr. Campisi noted that the 
now-called Lumbee group had legislation introduced in the U.S. Senate 
that would have recognized them as ``Cherokee'' Indians. However, the 
Commissioner of Indian Affairs Charles H. Burke opposed the legislation 
and it failed to pass.
    In 1932, the Lumbees sought legislation that was introduced in the 
Senate that would have recognized them as ``the Cherokee Indians,'' but 
this effort failed also. <SUP>17</SUP>
---------------------------------------------------------------------------
    \17\ Id.
---------------------------------------------------------------------------
    In 1933, another Lumbee acknowledgement bill failed because the 
Lumbees themselves did not agree on whether the tribal affiliation 
should be changed from ``Cherokee Indians'' to ``Cheraw Indians.'' 
<SUP>18</SUP>
---------------------------------------------------------------------------
    \18\ Campisi testimony, 109th Congress at 40.
---------------------------------------------------------------------------
Lumbee's Self-Identification as ``Siouan'' Indians
    According to the Lumbee, they sought federal recognition as 
``Siouan'' Indians in 1924. In the 1930's, for purposes of the Indian 
Reorganization Act, the Lumbees self-designated themselves as the 
``Siouan Indian Community of Lumber River.'' <SUP>19</SUP> As stated 
above, the term ``Siouan'' is a reference to a generic linguistic 
classification that is spoken by many tribes in North America and is 
not a term that describes a distinct historical tribe.
---------------------------------------------------------------------------
    \19\ Id. at 9.
---------------------------------------------------------------------------
    It was not until 1952 that the Lumbees decided to refer to 
themselves as ``Lumbee'' based upon their geographic location next to 
the Lumber River. In 1956, Congress, at the request of the Lumbees, 
passed legislation commemorating their name change. <SUP>20</SUP>
---------------------------------------------------------------------------
    \20\ Id. at 9-10. Contrary to Lumbee claims that the 1956 Lumbee 
Act both acknowledged the Lumbee as a tribe and terminated that tribal 
status in the same law, the Act itself states that the Lumbee are 
individuals only ``claiming joint descent from remnants of early 
American colonists and certain tribes of Indians originally inhabiting 
the coastal regions of North Carolina....'' The legislative history of 
the Act also makes clear that it only commemorates a name change. 102 
Cong. Rec. 2900 (1956).
---------------------------------------------------------------------------
The Lumbees' Current Efforts to Link Themselves to the Cheraw Tribe Are 
        Tenuous
    The federal acknowledgement criteria require that the membership of 
a petitioning group consist of ``individuals who descend from a 
historical Indian tribe or from historical Indian tribes which combined 
and functioned as a single autonomous political entity.'' <SUP>21</SUP> 
The regulations define ``historical'' in this context as ``dating from 
first sustained contact with non-Indians.'' <SUP>22</SUP> The origin 
and ties to a historical tribe have been the subject of uncertainty not 
only among experts in the area but also the Lumbee themselves.
---------------------------------------------------------------------------
    \21\ 25 C.F.R. Sec. 83.7(e).
    \22\ Id. at 83.1.
---------------------------------------------------------------------------
    Experts at the Bureau of Indian Affairs have testified that the 
Lumbee ties to the Cheraw Tribe are tenuous. On August 1, 1991, 
Director of the Office of Tribal Services Ronal Eden testified on 
behalf of the Administration regarding federal legislation that would 
congressionally acknowledge the Lumbee. Regarding the Lumbee petition 
for federal recognition before the agency, the Director testified to a 
``major deficiency'' that ``the Lumbee have not documented their 
descent from a historic tribe.'' <SUP>23</SUP>
---------------------------------------------------------------------------
    \23\ Statement of Ronal Eden, Director, Office of Tribal Services, 
Bureau of Indian Affairs, Department of the Interior, Before the Joint 
Hearing of the Select Committee on Indian Affairs, United States 
Senate, and the Interior and Insular Affairs Committee, United States 
House of Representatives, on S. 1036 and H.R. 1426 (August 1, 1991) p. 
3-5.
---------------------------------------------------------------------------
    The testimony also stated that the 18th century documents used by 
Lumbee to support its claim that it is primarily descended from a 
community of Cheraws living on Drowning Creek in North Carolina in the 
1730's needed extensive analysis corroborated by other documentation. 
<SUP>24</SUP>
---------------------------------------------------------------------------
    \24\ Id.
---------------------------------------------------------------------------
    In his September 17, 2003 testimony before the Senate Indian 
Affairs Committee, Lumbee expert Jack Campisi relies on a report of Dr. 
John R. Swanton of the Bureau of Ethnology for concluding ``in the 
1930s that the Lumbees are descended predominantly Cheraw Indians.'' 
<SUP>25</SUP> The House Report specifically refutes this claim, stating 
that Swanton chose ``Cheraw'' rather than another tribal name he 
identified--``Keyauwee''--because the Keyauwee name was not well known. 
``In other words, the choice of the Cheraw was apparently made for 
reasons of academic ease rather than historical reality.''
---------------------------------------------------------------------------
    \25\ Campisi Testimony at 21.
---------------------------------------------------------------------------
    Furthermore, the head of the BIA's acknowledgement process 
questioned the adequacy of the underlying proof of Cheraw descent. He 
testified in 1989 that:
        The Lumbee petition...claims to link the group to the Cheraw 
        Indians. The documents presented in the petition do not support 
        [this] theory....These documents have been misinterpreted in 
        the Lumbee petition. Their real meanings have more to do with 
        the colonial history of North and South Carolina than with the 
        existence of any specific tribal group in the area in which the 
        modern Lumbee live.
    Arlinda Locklear, Counsel to the Lumbee, in her 2003 testimony 
before the Senate Indian Affairs Committee admitted that these concerns 
continue today. ``Department staff that administers the administrative 
acknowledgement process have expressed some concern about the absence 
of a genealogical connection between the modern day Lumbee Tribe and 
the historic Cheraw Tribe.'' <SUP>26</SUP>
---------------------------------------------------------------------------
    \26\ ``Testimony of Arlinda Locklear, Patton Boggs LLP, Of Counsel 
for the Lumbee Tribe of North Carolina in Support of S. 420 United 
States Senate Committee on Indian Affairs'' (September 17, 2003) p. 4 
fn. 1.
---------------------------------------------------------------------------
    On July 12, 2006, an Interior official testifying before the Senate 
Indian Affairs Committee restated the problem the Lumbee have had in 
identifying their historic tribe.
        ``[T]he uniqueness is the lack of pinning down of the 
        historical tribe. ``There is a considerable period of time 
        where evidence would be needed to fully understand who this 
        group was and is...[because] there have been approximately 26 
        bills introduced since 1899...[that] have provided possible 
        historical tribes and there are quite a number of them...One 
        report indicated...the Cherokee, another...the Cheraw, 
        another...the Croatan. One report included a whole group of 
        different historical tribes, such as the Eno, the Hatteras, the 
        Keowee, the Shakori. Even John R. Swanton, who is a renowned 
        anthropologist, in a 1946 report for the Bureau of Ethnology, 
        stated that there were several possibilities that the Lumbee 
        could descend from either the Cheraw, the Siouan Indians of 
        Lumber River, the Keowee, and another group known as the 
        Washaw. There is a whole number of possibilities.''
Claimed Lumbee Membership Not Tied to Cheraw Individuals
    The various documents on which the Lumbee membership list is based 
similarly cast doubt as to the ability of the Lumbee to meet the 
acknowledgement criteria. The Lumbees claim over 62,000 enrolled 
members who are descended from anyone identifying as ``Indian'' in five 
North Carolina counties and two South Carolina counties in either the 
1900 or 1910 federal census. The Lumbee Constitution refers to these 
census lists as the ``Source Documents.'' Yet the individuals on these 
lists cannot be specifically identified and verified as Cheraw Indians. 
In fact, these individuals cannot be identified as belonging to any 
tribe whatsoever. These are lists of people who self-identified or were 
identified by the census as ``Indian.''
    Members of this Committee have recognized the weaknesses and 
complexities in the Lumbee group's claim to tribal recognition in the 
past:
        The Lumbee...have never had treaty relations with the United 
        States, a reservation, or a claim before the Indian Claims 
        Commission; they do not speak an Indian language; they have had 
        no formal political organization until recently; and they 
        possess no autochthonous ``Indian'' customs or cultural 
        appurtenance such as dances, songs, or tribal religion. One of 
        the groups consultant anthropologists, Dr. Jack Campisi, noted 
        this lack of Indian cultural appurtenances in a hearing 
        colloquy with then-Congressman Ben Nighthorse Campbell:
    Mr. Campbell:   Do [the Lumbee] have a spoken language...?
    Dr. Campisi:    No.
    Mr. Campbell:  Do they have distinct cultural characteristics such 
as songs, dances and religious beliefs and so on?...Do the Lumbees have 
that?
    Dr. Campisi:   No. Those things were gone before the end of the 
18th Century.
    This absence of cultural appurtenances in part identify the Lumbee 
as part of what sociologist Brewton Berry has termed the ``marginal 
Indian groups.'' As Berry notes:
        These are communities that hold no reservation land, speak no 
        Indian language, and observe no distinctive Indian customs. 
        Although it is difficult to establish a firm historical Indian 
        ancestry for them, their members often display physical 
        features that are decidedly Indian. Because they bear no other 
        historic tribal names, they often emphasize a Cherokee 
        ancestry.
    These characteristics...point out that this is a case replete with 
out-of-the-ordinary complexities which require more than just a simple 
one-page staff memo to understand fully. Needless to say, if those 
[Members of Congress] charged with the day-to-day oversight of Indian 
affairs do not have the necessary expertise--or even knowledge--in this 
area, how will the balance of our Members appropriately exercise those 
judgments as they will be called upon to do when this legislation 
reaches the floor? <SUP>27</SUP>
---------------------------------------------------------------------------
    \27\ H.R. Rep. No. 103-290, 103rd Cong., 1st Sess. at 186-87 
(1993).
---------------------------------------------------------------------------
    Furthermore, in his 2006 Senate testimony, the BIA director 
identified ``over 80 names of groups that derive from these 
counties...[including] the Cherokee Indians of Robeson and Adjoining 
Counties, the Lumbee Regional Development Association, the Cherokee 
Indians of Hoke Count, Inc., the Tuscarora Nation of North Carolina, 
The Tuscarora Nation of Indians of the Carolinas...[in which] there is 
an overlapping of membership, there is an overlapping of some of the 
governing bodies and there is an overlap of the ancestry of these 
groups with the Lumbee.''<SUP>28</SUP>
---------------------------------------------------------------------------
    \28\ S. Hrg. 109-610, Lumbee Recognition Act, July 12, 2006, page 
16.
---------------------------------------------------------------------------
This Legislation Impacts the Integrity of Eastern Band and other 
        Established Tribes
    Since before the coming of Europeans to this continent, the 
Cherokee have lived in the southeastern part of what is now the United 
States, in the states of North Carolina, South Carolina, Alabama, 
Georgia, Kentucky, Tennessee, and Virginia. Through these years, the 
Cherokee have faced unending threats to our very existence--including 
the tragic Trail of Tears where more than 15,000 Cherokee Indians were 
forcibly removed by the U.S. Army from their ancestral homelands to the 
Indian Territory as part of the federal government's American Indian 
Removal Policy. Thousands died. The Cherokee came to call the event 
Nunahi-Duna-Dlo-Hilu-I or Trail Where They Cried. The Eastern Band of 
Cherokee Indians are the descendants of those Cherokees that resisted 
removal in the Great Smoky Mountains and escaped the Trail of Tears or 
who were able to return to their homeland in the Smoky Mountains after 
the Trail of Tears.
    Yet, through all of this, the Cherokee people have fiercely 
protected our separate identity as Cherokees. Many of our tribal 
members are fluent in the Cherokee language. We have a separate culture 
that makes us different than any group of people in the world. 
Leadership of the Cherokee and the Cherokee people themselves, with 
tenacity and determination, have fought to ensure that our way of life, 
our beliefs, and our sovereignty will survive. And we are still here 
today--proud and strong.
    Like other tribes across the country, we hold in high regard the 
long-standing government-to-government relationship the Eastern Band of 
Cherokee Indians has with the United States. We are proud that the 
United States has entered into treaties with the Cherokee that helped 
shape the government-to-government relations with all tribes.
    But today, like other tribes, we face a new threat to our separate 
identity: groups of people who claim, or who have claimed Cherokee, or 
other tribal affiliations whose legitimacy is doubtful at best. 
Unfortunately, we believe this to be the case with this bill.
    If Congress recognizes groups whose tribal and individual identity 
as Indians is seriously in doubt, it will dilute the government-to-
government relationships that existing federally recognized tribes have 
with the United States. We strongly believe that this bill would 
undermine the integrity of existing federally recognized Indian tribes 
due to the real problems that the Lumbee have in demonstrating that it 
is a tribe, including their inability to trace the genealogy of its 
62,000 members to a historic tribe.
Interior's Office of Federal Acknowledgement Is the Proper Forum for 
        Deciding Whether the Lumbee Should be Federally Recognized
    The Department of the Interior through the Office of Federal 
Acknowledgement (OFA) has an established, uniform administrative 
process with objective criteria that can make exactly the kind of 
substantive, merits-based determinations that the Congress is not able 
to make. To allow the Lumbees to circumvent that process would also 
undermine the federal recognition process, as it has evolved at the 
Department of Interior, and would be patently unfair to the hundreds of 
applicants that have gone through or are going through the process 
developed by the Department. Congressional approval of this legislation 
will short circuit the process and allow the Lumbee to avoid the proven 
regulatory process, which we believe the Lumbees seek to do because 
they have significant historic, cultural and genealogical gaps for 
which they can provide no proof of their existence as a sovereign 
entity, in favor of old-fashioned politics.
    Members of the Resources Committee have noted the harm that would 
come to long-standing federally recognized tribes from legislation like 
this:
        Bypassing the [administrative] process not only ignores the 
        problem [with that process], but is unfair to all of the 
        recognized tribes. There exists a formal government-to-
        government relationship between the recognized tribes and the 
        United States. If Congress creates tribes at will, without 
        meaningful uniform criteria or substantial corroborated 
        evidence that the group is indeed a tribe, then we dilute and 
        weaken that relationship. <SUP>29</SUP>
---------------------------------------------------------------------------
    \29\ Id. at 202.
---------------------------------------------------------------------------
Members of this Committee have acknowledged that a large number of 
tribes and tribal organizations supported strict adherence to a 
systematic administrative procedure, including:
        [T]ribes in twelve states, from regional intertribal 
        organizations representing all the tribes of the Pacific 
        Northwest, Montana and Wyoming, the United South and Eastern 
        Tribes (representing all the tribes from Maine to Florida and 
        west to Louisiana), all of the ten southwestern Pueblo tribes, 
        and twenty-five of the twenty-six tribes in Arizona. 
        <SUP>30</SUP>
---------------------------------------------------------------------------
    \30\ Id. at 202-03.
---------------------------------------------------------------------------
    Moreover, while the Lumbee have argued that the process is unfair, 
their bill, contrary to their argument, provides that the other North 
Carolina groups, who the Solicitor's office at Interior has also 
determined are barred from accessing OFA under the 1956 Lumbee Act, 
would be authorized to submit petitions to OFA for federal 
acknowledgement. If it is fair for these other groups to go through the 
OFA process, then it should be fair for Lumbee also.
    When substantially similar legislation came up in the past, members 
of this Committee argued strongly that the Lumbee should be required to 
follow the administrative process:
        [T]he argument that the Lumbee should be allowed to bypass the 
        process because it is too cumbersome and backlogged 
        is...specious. While the BIA recognition process is in need of 
        repair, it is not as decrepit as the majority would have us 
        believe. There is only a backlog of nine petitions, not the 120 
        cases often cited; and while we concede that the process is 
        imperfect, the most rational solution is to fix it. Bypassing 
        the process only ignores the problem, undermines the role of 
        the BIA, and is unfair to both recognized and unrecognized 
        tribes. <SUP>31</SUP>
---------------------------------------------------------------------------
    \31\ Id. at 206.
---------------------------------------------------------------------------
Congress Should Not Obligate Enormous Spending Where the Identity of 
        the Tribe is Uncertain at Best
    The impact on appropriations to other Indian tribes would be 
unprecedented in the history of federal acknowledgement. The 
Congressional Budget Office has determined that, based on an estimate 
of 34,000 Lumbees, that the cost of this legislation would be $430 
million over four years. Yet the Lumbees claim over 62,000 members. 
Based upon the Congressional Budget Office's estimate and the 62,000 
members claimed by Lumbee, the real cost of this bill would be over 
$835 million dollars.
    Accordingly, this bill would have a huge, negative impact on the 
budgets of Bureau of Indian Affairs and the Indian Health Service and 
would decrease even further the badly needed funds Indian people 
receive as a result of promises and trust obligations of the United 
States to Indians and tribes. This Committee and the Congress should 
not dive into support for this legislation for emotional or political 
reasons, particularly without being absolutely certain that this group 
constitutes an Indian tribe in accordance with the objective criteria 
utilized by the Office of Federal Acknowledgement for evaluating 
petitions for federal acknowledgement.
CONCLUSION
    If this Committee and the Congress choose to pass this legislation, 
the consequences will be dramatic for existing federally recognized 
tribes.
    First and foremost, politics will have won a decided victory over 
sound policy. The notion of ``taking the politics out of federal 
recognition'' will have suffered its most severe setback in history.
    Second, with federal acknowledgement comes the ability of a group 
to engage in serious activities associated with sovereign status, such 
as the ability to tax and enjoy certain tax advantages, the ability to 
exercise civil jurisdiction over non-Indians as well as Indians, and 
the right to engage in gaming. Enacting legislation like this only arms 
those who seek to erode sovereign rights with evidence that some of 
those with such rights were haphazardly afforded them.
    The Eastern Band of Cherokee Indians would welcome the Lumbees into 
the family of federally recognized tribes if they can successfully make 
it through the administrative process at the Department of the 
Interior. Absent their meeting the objective criteria at Interior, with 
complete vetting of their claimed tribal identity, membership lists, 
and other requirements, we believe that passing this legislation would 
be a serious mistake, with politics winning out over sound policy.
    If you determine that legislation is necessary to address this 
situation, we urge you to require the Lumbee provide evidence to 
Congress which shows that it meets the equitable and standardized 
requirements established in the administrative process.
                                 ______
                                 
    The Chairman. Coach Sampson.

  STATEMENT OF KELVIN SAMPSON, HEAD BASKETBALL COACH, INDIANA 
                UNIVERSITY, BLOOMINGTON, INDIANA

    Mr. Sampson. Good morning, Chairman Rahall. I would also 
like to thank Congressman McIntyre for what he is doing for the 
people of Robeson County, not just the Native Americans, but 
all people.
    I appreciate the opportunity to appear before the Committee 
this morning to testify in support of H.R. 65, a bill that 
would extend Federal recognition to the Lumbee Tribe of North 
Carolina, which is my tribe.
    I am the head basketball coach at Indiana University. I am 
also an enrolled member of the Lumbee Tribe. And it is my 
experience as a tribal member, a member of a tribe not 
recognized by the United States, that I would like to address 
this morning.
    Chairman Goins spoke about a 1956 Lumbee Act. This Act left 
the Lumbee Tribe in a legal limbo, lacking the status of all 
other Indian tribes in Indian country, and yet Indian 
nonetheless.
    The Lumbee people have suffered the same economic 
disadvantages of other Indian tribes. Discrimination by the 
dominant society, poor social services and resources as 
compared to the dominant society, and limited opportunities. 
But the Lumbee people have not enjoyed the Federal support that 
Federally recognized tribes enjoy. Support for our tribal 
government advantages in attracting industry to the area and 
special education opportunities.
    Nonetheless, many Lumbees have risen to prominence in their 
chosen fields, and made major contributions in the Indian 
country, as doctors, lawyers, judges, and yes, even major 
college basketball coaches.
    I would like to tell you my own story this morning. I want 
to tell you a story about a young boy growing up in Pembroke, 
North Carolina. My father held as many as four jobs every 
summer outside of his main occupation, which was high school 
teacher and coach at one of the many all-Indian high schools in 
Robeson County. And yes, it is pronounced Robeson County.
    One of his summer jobs was a foreman of a crew at a tobacco 
market. I was part of his crew. A memory that is etched in my 
mind forever was the names on the public restrooms. There was 
three. One was marked white, in relation to that time in our 
history. Another was marked colored, and the other was marked 
other.
    I was told to use the one marked other. Even though this 
had a profound effect on how I viewed others at the time, I did 
not allow this experience to define me or my family.
    As always, I moved on in life, as this served to motivate 
me, but not deter me. Growing up in Pembroke I always had great 
role models, including my mother and father, Ned and Eva 
Sampson, both Lumbees and both college graduates.
    Good or bad, we are all known for something. What I have 
just described is an identity. Looking back at my time living 
in Pembroke, I think the strength of the Lumbee people was our 
local college, which started as Indian Normal College, then 
became Pembroke State College, Pembroke State University, and 
is presently known as the University of North Carolina at 
Pembroke.
    Education became our foundation and our strength. Because 
of University of North Carolina at Pembroke being local and 
affordable, we had many of our people that could afford to go 
to college. With the University of Pembroke, we would not have 
as many college graduates.
    Living my life as a Native American Division One basketball 
coach, I have had the opportunity to influence and affect many 
lives. It has been an honor and a pleasure to speak at many 
Native American Indian seminars, symposiums, and heritage 
events over the years. When asked about my tribe, the Lumbees, 
many times the subject of Federal recognition comes up.
    I do think this carries a stigma, that somehow because we 
are not recognized or have full benefit, that we are different 
than other tribes. The issue of acceptance has created a 
perception of Lumbees not being completely whole.
    I know that a lot of highly successful Lumbees that would 
love to be here today, and I am honored to represent them and 
speak for them with my voice. Lumbee people have served, and 
continue to serve, other Indian tribes throughout the country 
as doctors, lawyers, judges, administrators, pharmacists, 
nurses, and educators. We have contributed our talents, time 
and efforts, because we believe in the support of the 
advancement of all native people.
    Indian country knows about all the contributions that 
Lumbee people have made in their tribal communities. We have 
worked with Indian people in national organizations such as the 
National Congress of American Indians, the National Council on 
Indian Education, and the National Indian Education 
Association. I am honored to speak on behalf of all of those 
Lumbees today.
    We are a proud and persistent people. My family taught me 
the value of hard work, the importance of going to school and 
earning the best education possible, understanding the value of 
family. And maybe most importantly, the importance of giving 
back to others.
    I have a camp scholarship program at Indiana University for 
Native American kids all over the country. This allows me the 
opportunity to not only help Lumbee kids, but Native American 
kids all over the United States.
    I think there are two areas that the Lumbee people will 
benefit most from being Federally recognized. Those are medical 
benefits and educational opportunities.
    I know a lot was said here about gaming. There is a large 
percentage, don't put every Native American, every Lumbee under 
a blanket, and say because someone thinks that this is the 
majority of what we believe, don't think that everybody 
believes that. Our people will be able to get much-needed 
medicine, and will also allow more deserving Lumbee children to 
dream of furthering their education all over the United States.
    You see, gentlemen, you not only have an opportunity to 
right a wrong; you more importantly have the power to create a 
legacy. I do not need your permission to call myself Native 
American, but unfortunately in today's world I do need your 
validation. This is what we, as Lumbee Indians, can accomplish. 
With Federal recognition, the Lumbee Tribe would become a full 
player in Indian country, no longer second-class Indians in the 
eyes of the Federal government. As such, we would employ our 
substantial skills and abilities to help correct problems faced 
by Indian country, and make significant contributions.
    I go back to Pembroke every year for Lumbee Homecoming. As 
a basketball coach, you learn the importance of motivation. And 
I have always thought the easiest people to motivate are those 
people who have a high self esteem. Most successful coaches, 
their motivational techniques will involve building people's 
self esteem.
    I was born in 1955. I viewed a lot of Lumbee Homecomings, 
if you will. If you go back and look at the last five Lumbee 
Homecomings, you see kids that walk around with their chests 
stuck out, their heads held up high. They are proud of their 
heritage. Chairman Goins and what he is doing for the Lumbee 
pride and the Lumbee people is apparent in every walk of life 
through our churches, through our schools, through our 
families.
    This is sometimes debated. And I don't think we should be 
narrow-minded people and only look at our side. And certainly, 
as Lumbees, we can't be like that, either. But sometimes 
through bureaucracy and through political means, sometimes we 
have to look through all the bad and say what is the right 
thing to do. Regardless of what our arguments may be. Some of 
them may be political in nature, some of them may be selfish in 
nature. But at the end of the day, sometimes common sense is 
our greatest map, sometimes it is our greatest compass.
    The only thing that I ask you to do today, as you view H.R. 
65, is don't look at why we should not do this; look why we 
should. And do the right thing.
    I thank you for giving me this incredible opportunity to 
come here and represent the Lumbee people.
    [The prepared statement of Mr. Sampson follows:]

   Statement of Coach Kelvin Sampson, Head Basketball Coach, Indiana 
    University, Enrolled member of the Lumbee Tribe, North Carolina

    Good morning, Chairman Rahall and Congressman Young. I appreciate 
the opportunity to appear before the committee this morning to testify 
in support of H.R. 65, a bill that would extend federal recognition to 
the Lumbee Tribe of North Carolina--my tribe. I am the Head Basketball 
Coach at Indiana University. I am also an enrolled member of the Lumbee 
Tribe. And it is my experience as a tribal member, a member of a tribe 
not recognized by the United States that I'd like to address this 
morning.
    Chairman Goins spoke about the 1956 Lumbee Act. This act left the 
Lumbee Tribe in a legal limbo--lacking the status of all other Indian 
tribes in Indian country and yet Indian nonetheless. The Lumbee people 
have suffered the same economic disadvantages of other Indian tribes--
discrimination by the dominant society, poor social services and 
resources as compared to the dominant society, and limited 
opportunities. But the Lumbee people have not enjoyed the federal 
support that federally recognized tribes enjoy--support for our tribal 
government, advantages in attracting industry to the area, and special 
education opportunities. Nonetheless, many Lumbees have risen to 
prominence in their chosen fields and made major contributions to 
Indian country--as doctors, lawyers, judges, and yes, even major 
college basketball coaches.
    I'd like to tell you my own story this morning...I want to tell you 
a story about a young boy growing up in Pembroke, North Carolina. My 
father held as many as four jobs every summer outside of his main 
occupation, which was school teacher, and coach, at one of the many all 
Indian High Schools in Robeson County. One of his summer jobs was a 
foreman of a ``crew'' at a tobacco market--I was part of his ``crew''. 
A memory that is etched in my mind forever was the names on the public 
restrooms. There were three. One was marked white, another was marked 
colored, and the last marked other. I was told to use the one marked 
other. Even though this had a profound effect on how I viewed others at 
the time, I did not allow this experience to define me, or my family. 
As I moved on in life, this served to motivate me, not deter me. 
Growing up in Pembroke, I always had great role models, including my 
mother and father, Ned and Eva Sampson, both Lumbees and college 
graduates. Good, or bad, we are all known for something. Looking back 
at my time living in Pembroke, I think the strength of the Lumbee 
people was our local college which started as Indian Normal College, 
then Pembroke State College/University to what it is presently known as 
UNC--Pembroke. Education became our foundation and our strength. 
Because of UNC-P being local and affordable, we had many of our people 
that could afford to go to college. Without UNC-Pembroke, we would not 
have as many college graduates.
    Living my life as a Native American, Division I basketball coach, I 
have had the opportunity to influence, and affect, many lives. It has 
been my honor and pleasure to speak at many Native American education 
seminars, symposiums, and heritage events. When asked about my tribe, 
many times, the subject of Federal recognition comes up. I do think 
this creates a stigma--that somehow because we are not ``recognized'' 
or have ``full benefit'' that we are different than other tribes. The 
issue of acceptance has created a perception of not being completely 
``whole''. I know there are a lot of highly successful Lumbees that 
would love to be here today. Lumbee people have served and continue to 
serve other Indian tribes throughout the country as doctors, lawyers, 
judges, administrators, pharmacists, nurses, and educators. We have 
contributed our talents, time, and efforts because we believe in and 
support the advancement of all native peoples. Indian country knows 
well the contributions that Lumbee people have made in their tribal 
communities. We have worked with Indian people in national 
organizations such as the National Congress of American Indians, the 
National Council on Indian Education, and the National Indian Education 
Association. I am honored to speak on behalf of all these Lumbees 
today. We are a proud, and persistent, people. My family taught me how 
to work hard, go to school and earn the best education possible, 
understand the value of family and maybe, most importantly, give back 
to others. I have a camp scholarship program through my camps at 
Indiana University, for Native American kids, all over the country. 
This allows me the opportunity to not only help Lumbee kids but Native 
American kids all over the United States.
    I think the two areas that the Lumbee people will benefit most from 
being federally recognized will be in medical benefits and education. 
Our people will now be able to buy much needed medicine, and will also 
allow more deserving Lumbee children to dream of furthering their 
education all over the United States.
    You see, gentlemen, you not only have an opportunity to right a 
wrong, you more importantly have the power to create a legacy. I do not 
need your permission to call myself Native American but unfortunately 
in today's world I need your validation.
    This is what we Lumbee Indians can accomplish. With federal 
recognition, the Lumbee Tribe would become a full player in Indian 
country, no longer second class Indians in the eyes of the federal 
government. As such, we would employ our substantial skills and 
abilities to help correct problems faced by Indian country and make 
significant contributions.
    We ask for that opportunity.
                                 ______
                                 
    The Chairman. Thank you, Coach. Dr. Campisi.

 STATEMENT OF JACK CAMPISI, ANTHROPOLOGIST, CONSULTANT, LUMBEE 
                    TRIBE OF NORTH CAROLINA

    Mr. Campisi. Good morning, Mr. Chairman and Members of the 
Committee. I am Dr. Jack Campisi. I worked on Lumbee history 
and community study for over 20 years, including document 
research and field work. I am also the principal author of the 
petition for Federal acknowledgement submitted by the tribe to 
the BIA in 1987.
    I will restrict my oral testimony to three points: Cheraw 
origins of the Lumbee Tribe, the name changes imposed by the 
State of North Carolina, and evidence of contemporary 
community.
    The Cheraw origin. As shown on the map, there is a 
collection of 18th century documents that identifies an 
historic Cheraw settlement on Drowning Creek. And that links 
the modern-day Lumbee community to this community.
    These documents include a 1733 map, a Moseley map, that 
shows the Cheraw and Keyawee settlement east of the Pee Dee 
River. Land record documents between 1737 and 1739 that 
specifically refer to the retention by the Cheraw of two old 
fields in what is now the Lumbee Community of Prospect.
    A 1753 statement by North Carolina Governor Rowan that 
identified the area occupied by present-day Lumbee Tribe as ``a 
frontier to the Indians.'' A 1754 report of 50 families living 
on Drowning Creek. A 1771 South Carolina newspaper article that 
identified a Cheraw community on Drowning Creek. And a 1773 
list of names taken by Bladen County that identified 21 
individuals with 11 surnames that are present among today's 
Lumbees.
    In 1809, North Carolina changed the name of Drowning Creek 
to the Lumbee River. Taken together, these documents show a 
presence of historic Cheraw community, and the descent of the 
Lumbee Tribe from it.
    Dr. John Swanton of the United States Bureau of American 
Ethnology was the first to make the connection between the 
Cheraw and Lumbee Tribe. The Department of Interior adopted Dr. 
Swanton's opinion in 1934, when it testified to Congress that 
the Lumbees descend from the Cheraw and related Siouan-speaking 
tribes.
    Dr. Swanton published his findings in 1936 and 1946. Later 
experts on Southeastern Indians, including the late Dr. William 
Sturdevant, Chief Ethnologist of the Smithsonian Institution 
and General Editor of the Handbook of North American Indians; 
Dr. James Merrow, Professor of History and a specialist in 
Catawba history; Dr. Ray Fogelson, Professor of Anthropology 
and a specialist in Cherokee history and culture, and Editor of 
the Southeast Volume of the handbook; and Dr. William Starner, 
Professor Emeritus of Anthropology and Iroquois specialist, all 
agree with Dr. Swanton's analysis.
    Name changes. Much is being made of changes in the name, in 
the tribe's name by the State of North Carolina over time. But 
we need to put this in perspective.
    In 1885 the state attached the name Croatan to the tribe 
because of an erroneous belief by the State Legislature that 
tribal members were descendants from the lost colony.
    Again, in 1911 and 1930, the tribe's name was changed by 
the state. Finally, in 1933, after a tribal referendum, the 
name was changed to the Lumbee. The important points are that 
regardless of the name applied, present-day tribal members are 
descendants of the same people for whom the 1885 law was made.
    While there was confusion over names on the part of the 
state, the tribal members certainly knew who they were and who 
their members were. And changes in the tribe's names are 
irrelevant. The regulations make that clear and certain.
    Contemporary community. The two most difficult criteria for 
tribes to prove under the Department's acknowledgement 
regulations, and the ones that every unsuccessful petitioner 
has failed to meet, are those relating to community and 
political authority. These are key to tribal existence.
    Under the Department's regulation, a tribe that proves 
community by so-called high evidence also conclusively proves 
political authority. Following a sampling protocol established 
by the then Branch of Acknowledgement and Research, I drew a 1 
percent systematic sample of the enrolled members of the Lumbee 
Tribe in 2002. The results showed that 64.6 percent of the 
tribal members live in the core area, many of these in 
communities that are almost exclusively Lumbee.
    A second part of the study consisted of analyzing the 
marriage patterns. The results show that 70 percent of tribal 
marriages were between tribal members. Under the regulations, 
these results meet the high-evidence standard, and thereby 
conclusively prove both of these most difficult criteria.
    Finally, I would note that this legend on the map listing 
present leaders of the tribe, and links them to the leading 
families of the tribe 100 years ago. Clear evidence of 
continuity of leadership.
    Because of its repeated efforts to obtain Federal 
recognition, there is a voluminous administrative Congressional 
record on the Lumbee Tribe. Not once does this record reflect 
any doubt by the Department of the Interior or the Congress 
about the Indian identity of the Lumbee people. In my opinion, 
the Lumbee meet every definition of an Indian tribe known to 
me.
    Thank you.
    [The prepared statement of Mr. Campisi follows:]

            Statement of Dr. Jack Campisi, Anthropologist, 
         Consultant, Lumbee Tribe of North Carolina, on H.R. 65

    I hold a doctorate in anthropology, have dedicated my career to 
research in tribal communities, and have taught these subjects as an 
adjunct professor at Wellesley College. Between 1982 and 1988, I 
conducted a number of studies for the Lumbee Tribe of North Carolina. 
Each of these included fieldwork in the community for periods of time 
varying from a week to three weeks. In all, I spent more than twenty 
weeks in Robeson County carrying out a variety of research projects. 
Besides being responsible for synthesizing the thousands of pages of 
documentation collected during the ten years it took to carry out the 
archival research, and for designing and carrying out the community 
research, I had the honor of writing the petition that was submitted on 
December 17, 1987, to the Branch of Acknowledgement and Research (now 
the Office of Federal Acknowledgement) under the federal regulations 
that govern acknowledgement of eligible Indian tribes, 25 C.F.R. Part 
83. Specifically, I drafted the Historical Narrative section, and 
researched and wrote the sections dealing with community and political 
continuity. Subsequent to the completion of the petition, I continued 
research with the Lumbee Tribe, most recently in 2002. The material 
that follows is based on my twenty years' research on the Tribe's 
history and community.
    Over the course of the past twenty-five years, I have worked on 28 
tribal petitions for federal acknowledgement. None has exceeded the 
Lumbee petition in documentation and no group has exhibited more 
evidence of community cohesion and political continuity than the Lumbee 
Tribe. It is my professional opinion that the Lumbee Tribe exists as an 
Indian tribe and has done so over history. I will outline below the 
main arguments and evidence in support of this conclusion.
An Overview of Lumbee Tribal History
Aboriginal origins of the Tribe
    At the time of sustained white contact, there existed a Cheraw 
Indian community precisely where the Lumbees reside today and this 
Cheraw community had the same, unique surnames as those common to the 
modern-day Lumbee community. A 1733 Moseley map showed the Tribe 
between the Pee Dee River and Drowning Creek, in 1737 John Thompson 
purchased land in the area from Robert, Chief of the Cheraw, and in 
1754, Governor Arthur Dobbs of North Carolina identified on ``Drowning 
Creek on the head of Little Pedee 50 families a mixt Crew [or Breed] a 
lawless people filled the lands without patent or paying quit rents 
shot a Surveyer for coming to view vacant lands being enclosed by great 
swamps.'' A document written in 1771 refers to ``the Charraw 
Settlement'' on Drowning Creek, and another document dated 1773 
contains a list of names that connect this community to the Cheraw in 
1737. Some of the same surnames as today's Lumbee population appeared 
on the list: Ivey, Sweat, Groom, Locklear, Chavis, Dees, and Grant (see 
Dr. James H. Merrill letter to Congressman Charlie Rose, October 18, 
1989 for further discussion). The 1790 federal census identifies 
families with these same surnames around Drowning Creek and modern day 
enrolled Lumbees can prove genealogical descent from those Indians. 
Thus, the community mentioned in the references cited in above and the 
community of Indians described in nineteenth century documents was the 
same, and were the antecedents of today's Lumbee Tribe.
    Early land records link the modern day Lumbee community to the 
historic Cheraw Tribe located on Drowning Creek. A 1754 deed refers to 
Major Locklear, who resided at the time on the north side of Drowning 
Creek. Present-day Locklears in the Tribe descend from or are related 
to Major and his brother John Locklear. These early Locklears and their 
descendants intermarried with other members of the Indian community 
whose surnames (Oxendine, Chavis, and Lowry) are prevalent among 
present day Lumbees. Genealogical records of present day members show 
that the vast majority descend from Locklear, Oxendine, Chavis, or 
Lowry families with many descending from more than of these family 
groups who comprised the early Cheraw settlement.
    These places are shown in relation to the boundaries of modern day 
Robeson County on this map. As you can see, the Cheraw settlement 
(spelled Saraw at the time) first identified on the 1733 Mosely map, is 
located within the Cheraw old fields, which in turn are identified in 
early land records as the location of families with traditional Lumbee 
surnames, and nearby Drowning Creek. In 1809, the North Carolina 
Legislature changed the name of Drowning Creek to the Lumber River. The 
modern day Lumbee Tribe, many of whose members trace back to families 
residing at the Cheraw old fields near Drowning Creek in the early 
eighteenth century, still reside today on and around that river. This 
genealogical connection is demonstrated by this overlay which shows the 
descent of the current tribal council members from those families.
    The federal census records are by far the best source of evidence 
concerning the early Lumbee community. It is clear from the names of 
the heads of households that the area of Robeson County around Drowning 
Creek, now the Lumber River, was occupied almost exclusively by tribal 
members. Based on the 1850 census (the first census to provide the 
names of the individual's resident in each household), it is possible 
to describe the residency patterns of the Lumbee community. We can 
identify 168 households headed by ancestors of present day Lumbees from 
the 1850 census. These households were clustered in three settlements 
that were almost exclusively Lumbee, with white settlements between 
them. The data also show that the Lumbee ancestors in these three 
settlements were all closely related, including multiple first cousin 
marriages. All of the signers of the 1887 and 1888 petitions for 
assistance to the Tribe, the first to the State of North Carolina and 
the second to the United States, appear as heads of households in these 
settlements. Thus, there can be no doubt that there was an Indian 
community present along Drowning Creek from the mid-1700s, separate 
from other communities in the area. It is also certain that this 
community had a well-established leadership structure and that it 
managed its affairs with relative autonomy.
    The oldest Lumbee community that can be continuously documented was 
called Long Swamp, now called Prospect and located within the core area 
in Pembroke and Smith townships--the heart of the modern day Lumbee 
community. It is also located right in the heart of the so-called old 
field of the Cheraw, documented in land records between 1737 and 1739. 
The earliest census records show the presence in this community of an 
extended Locklear family continuously since 1790. Members of this 
extended family appeared among the tribal leaders, both by descent and 
marriage, who petitioned Congress for federal recognition in 1888. 
Members of this extended family were also among those who were tested 
by physical anthropologist Carl Seltzer in 1936 for blood quantum. This 
includes Duncan Locklear and Henry Locklear, whose pictures are 
attached. The Tribe's attorney, Arlinda Locklear, is also descended 
from this extended family.
The Civil War period
    Federal census and state court records document the continued 
existence of a separate Indian community in Robeson County during the 
ante-bellem period. Although generally classified as free non-whites 
during the post-Revolutionary War years, the Lumbees appear to have 
been treated more generously than free blacks, being allowed to vote 
without challenge and to own property. However, in the 1830s two 
seemingly unrelated actions--one by the national government and the 
other by the State of North Carolina--converged, with disastrous impact 
on the Indians of the state. In 1830, Congress passed legislation 
providing for the removal of all Indian tribes east of the Mississippi 
River to land set aside in the ``Indian Territory'' in Oklahoma. Tribes 
such as the Cherokee and Creek were forced to leave. In the climate of 
removal, it did not benefit a tribe to overtly manifest its identity. 
Lumbees, like other Indians in the state, held their land in severally, 
but often without patents. Thus, they were in a precarious position.
    Added to the problem of tribal survival was the steadily worsening 
relationship between whites and ``people of color'' in North Carolina 
following Nat Turner's uprising in 1831. In 1835, the state passed a 
constitutional amendment denying tribal members rights they had 
previously enjoyed. Many refused to abide by the changes and some were 
charged with violations. One case, in particular, went far toward 
recognizing the Lumbees as Indians. In 1857, a William Chavers was 
arrested and charged as ``a free person of color'' with carrying a 
shotgun, a violation of state law. He was convicted, but promptly 
appealed, claiming that the law only restricted free Negroes, not 
persons of color. The appeals court reversed the lower court, finding 
that ``Free persons of color may be, then, for all we can see, persons 
colored by Indian blood, or persons descended from Negro ancestors 
beyond the fourth degree.'' The following year, in 1859, in another 
case involving a Lumbee, the appeals court held that forcing an 
individual to display himself before a jury was tantamount to 
compelling him to furnish evidence against himself. These cases 
generally resulted in the Lumbees establishing a special status under 
the law as Indians, one outside the limitations placed on others who 
were classified as ``free persons of color.''
    There is abundant evidence of tribal activity of 1860. During the 
Civil War, the Lumbee Indians were prohibited from serving in the 
Confederate Army and were, instead, conscripted into labor gangs and 
assigned to build the fortifications at the mouth of the Cape Fear 
River to protect the city of Wilmington. The conditions were harsh and 
the treatment brutal. Many Lumbee men escaped and returned home where 
they hid out in the swamps of Robeson County. Besides Lumbees, the 
swamps provided a refuge for Union soldiers who had escaped from nearby 
Confederate camps. Because of their treatment by the Confederacy, and 
more particularly the Home Guard, the Lumbees gave assistance and 
protection to the Union soldiers. As the number of Lumbees and Union 
soldiers ``laying out'' increased, so did the burden of feeding them. 
With so many men in hiding or conscripted, there were few to do the 
farm work. Gradually, the attitude of the Lumbees changed from a 
passive one to one marked by belligerence. In short order, a band 
emerged, led by the sons of Allen Lowrie.
    Matters came to a head in 1864 when members of the Allen Lowrie 
family, a leading Indian family, and the local authorities came into 
armed conflict and a number of individuals on both sides were killed. 
In March of 1865, the Home Guard captured Allen Lowrie and his son, 
William, and after holding them for a short time, executed them in a 
field near the father's house. This was followed by a virtual reign of 
terror during which the Home Guard tortured members of the Lowrie 
family and their kinsmen in order to learn the whereabouts of the band. 
With the death of his father and brother, Henry Berry Lowrie, who was 
barely twenty years old, took over the leadership of the band. For the 
next decade, led by Henry Berry Lowrie, and with the Indian community's 
support and protection, the band fought against local authorities who 
sought by a variety of means to oppress the Indian population in 
Robeson County. The Lowrie Band led a struggle that ended only after 
the disappearance of its leader in 1872, and the capture and death of 
the last of the band members in 1874. Henry Berry Lowrie remains a folk 
hero to the Lumbee Indians and his story is told every year in an 
outdoor drama called ``Strike at the Wind.''
    By the 1870s, the Lumbees were openly acknowledged to be Indians. 
While the Lowrie Band was carrying out its defense, others in the tribe 
were taking equally effective actions to assert their independence. 
Lumbees were denied access to the white schools in the county and they 
refused to attend the schools for blacks. This impasse was broken in 
1885.
Formal State recognition of the Tribe and efforts to obtain Federal 
        recognition
    In 1885, the State of North Carolina formally recognized the Tribe 
as the Croatan Indians as a means of addressing the school issues. The 
state statute established a school system for the children of tribal 
members only. Tribal members exercised complete control over who could 
attend the schools. Each Lumbee settlement had a school committee that 
determined eligibility. In order to be eligible, an individual had to 
prove Lumbee ancestry back through the fourth generation, that is, back 
to the 1770's. Because of the rigorous manner in which these rules were 
enforced in the nineteenth century, school enrollment records provide 
an accurate basis for determining present-day membership.
    Officials at the Bureau of Indian Affairs have acknowledged the 
particular significance of this early state recognition of the Lumbee 
Tribe. George Roth, an anthropologist who recently retired from the 
office that processes applications for acknowledgement from Indian 
tribes, wrote regarding the Lumbees:
        North Carolina legislation in 1885 established in law a 
        distinct status as Indian for the Lumbee (designating them as 
        Croatan Indians) and provided for a school system separate from 
        blacks. Though not colonially derived nor involving the 
        distinct legal status of the colonially derived reservations, 
        this North Carolina action was perhaps the earliest and 
        strongest postcolonial state-Indian relationship before the 
        modern era.
Roth, G., Indians of the Southeastern United States in the Late 20th 
Century (1992 U. of Alabama Press).
    In 1887, tribal members petitioned the state legislature again, 
requesting the establishment of a normal school to train Indian 
teachers for the Tribe's schools. Permission was granted, tribal 
members raised the funds, and along with some state assistance, the 
normal school began training teachers for the expanding Lumbee school 
system. That normal school has been in operation continually since, 
evolving into Pembroke State University and, recently, the University 
of North Carolina at Pembroke.
    The Tribe had difficulty, though, in supporting the Indian normal 
school financially. In 1888, the Tribe petitioned Congress for 
assistance for its normal school. The request was sent by the House 
Committee on Indian Affairs to the Commissioner of Indian Affairs, but 
no action was taken for nearly two years. Finally, in 1890, 
Commissioner Morgan responded to the Tribe, telling them that, ``So 
long as the immediate wards of the Government are so insufficiently 
provided for, I do not see how I can consistently render any assistance 
to the Croatans or any other civilized tribes.'' There is no doubt that 
the government's rejection of assistance was based solely on economic 
considerations, the commissioner implying that if sufficient funds had 
been available, services would have been provided to tribes he referred 
to as ``civilized.''
    The Lumbees made frequent attempts over the course of the next 
fifty years to receive assistance from the United States. In 1899, 
Congressman John D. Bellamy introduced legislation to provide 
educational assistance for the Croatan Indians (as the Lumbees were 
then called). Again, in 1910 and 1911, legislation was introduced in 
Congress to change the Tribe's name and to establish ``...a school for 
the Indians of Robeson County, North Carolina.'' To secure information 
on the Tribe, the Indian Office sent Charles F. Pierce, Supervisor of 
Indian Schools, to investigate. He reported favorably on the Tribe, 
finding ``...a large majority as being at least three-fourths 
Indian.''' He described them as being law abiding and industrious and 
``crazy on the subject of education.'' Pierce had no doubt that the 
Lumbees were Indians, or that they were a tribe. Nor did he doubt that 
federal educational assistance would be beneficial. He opposed the 
legislation because, in his words, ``[a]t the present time it is the 
avowed policy of the government to require states having an Indian 
population to assume the burden and responsibility for their education, 
so far as is possible.'' After lengthy deliberations, the bill passed 
the Senate, but not the House, because the chairman of the House 
committee felt that the Lumbees were eligible to attend the various 
Indian boarding schools.
    The Tribe continued its efforts to secure federal educational 
assistance, and in 1914, sent a delegation to Congress. Another 
investigation was carried out by the Indian Office at the direction of 
the Senate. Among other things, Special Indian Agent, O.M. McPherson 
found that the Tribe had developed an extensive system of schools and a 
complex political organization to represent its interests. He noted 
that the Lumbees were eligible to attend federal Indian schools, but 
doubted that these schools would meet their needs. His recommendation 
was that if Congress saw fit to establish a school, it should be one 
emphasizing agricultural and mechanical skills. Again, Congress took no 
action. Parenthetically, it should be noted that during this period 
tribal activity was generally at a low level across the United States. 
Not so for the Lumbees, who actively involved their congressmen in 
their efforts to achieve federal recognition.
    During the 1930s, the Tribe renewed its efforts to achieve federal 
recognition. In 1934, the Bureau of Indian Affairs asked the eminent 
anthropologist at the Bureau of American Ethnology John Reed Swanton 
for his professional opinion on the Lumbees. Swanton was emphatic 
concerning their Indian ancestry, specifying a Cheraw and other eastern 
Siouan tribes as their ancestry. A later report by Indian Agent Fred 
Baker (1935), who had visited the Lumbee community, gave further 
support that they constituted a tribe. Baker discussed a resettlement 
project with the Tribe in which the government would acquire land for 
the Lumbees' support, an alternative to the share-cropping and credit 
system then the predominant means of Lumbee livelihood. Baker reported 
to Congress:
        It may be said without exaggeration that the plan of the 
        government meets with practically the unanimous support of all 
        of the Indians. I do not recall having heard a dissenting 
        voice. They seemed to regard the advent of the United States 
        government into their affairs as the dawn of a new day; a new 
        hope and a new vision...

        I find that the sense of racial solidarity is growing stronger 
        and that the members of this tribe are cooperating more and 
        more with each other with the object in view of promoting the 
        mutual benefit of all the members. It is clear to my mind that 
        sooner or later government action will have to be taken in the 
        name of justice and humanity to aid them.
However, the Bureau of Indian affairs did not support recognition of 
the Tribe, despite four studies that all found the Lumbee to be Indian. 
The apparent reasons were the size of the Tribe and the costs to the 
government.
Twentieth Century efforts to obtain Federal Recognition
    Following the First World War, the Lumbees renewed their efforts, 
both in the state and with Congress, to improve their educational 
system. At the state level, they were able to get an appropriation of 
$75,000 for capital improvements at the Indian Normal School. The issue 
of the Tribe's name had become a concern, and tribal leaders sought 
legislation in Congress to recognize the name adopted by the state 
legislature--The Cherokee Indians of Robeson and Adjoining Counties in 
North Carolina. Such a bill was introduced in the Senate in 1924, and 
at first received favorable support from the Secretary of the Interior, 
although Commissioner of Indian Affairs Charles H. Burke opposed the 
legislation. The Secretary later dropped his support and the bill died.
    The efforts to obtain congressional recognition were resumed in 
1932. Senator Josiah W. Bailey submitted a bill designating the Indians 
of Robeson and adjoining counties as ``Cherokee Indians,'' but this 
effort also failed. The following year another bill was proposed, this 
time designating the Tribe as the ``Cheraw Indians,'' at the suggestion 
of Dr. Swanton. This name caused a split in the Tribe, with those 
tribal members led by Joe Brooks favoring it, while others, led by D.F. 
Lowry opposing it, fearing it would jeopardize the Tribe's control over 
its schools. Because of the split in the Tribe, the effort failed.
    With the passage of the Indian Reorganization Act, Brooks and his 
supporters attempted to organize the Tribe under a federal charter. 
Because the Tribe did not possess a land base, it was advised by 
Assistant Solicitor Felix Cohen to organize under the half-blood 
provision of the act. Cohen urged that the Tribe apply for land and a 
charter under the name of the ``Siouan Indian Community of Lumber 
River.'' Brooks immediately submitted a proposal that mirrored Cohen's 
recommendations. Over the course of the next two years, the two 
projects of establishing recognition under the IRA and receiving land 
through the Bureau of Indian Affairs proceeded, when suddenly, in 1936, 
the land acquisition proposal was shifted from the BIA to the Rural 
Resettlement Administration of the Department of Agriculture, and the 
land that was to be purchased solely for Lumbee use, was opened to non-
Indians. After a lengthy struggle, Brooks was able to have a part of 
the land set aside for tribal members, and incorporated under the name 
of the Red Banks Mutual Association.
    The Tribe was no more successful in achieving recognition under the 
IRA. The BIA formed a commission of three to investigate the blood 
quantum of the Lumbees. In 1936, Dr. Carl C. Seltzer, an anthropologist 
and member of the commission, visited Robeson County on two occasions 
and took physical data on 209 Indians applying for recognition as one-
half or more Indian blood. He found that twenty-two met the criteria. 
They were certified by the Secretary of the Interior. What made 
Seltzer's work so ludicrous was that in several cases he identified 
full siblings in different ways, one meeting the blood quantum 
requirement and the other not.
    After the Second World War, the Lumbees again tried to achieve 
federal recognition of their status as an Indian tribe. The issue of 
their name continued to cause them problems so, in 1952, the Lumbee 
leadership conducted a referendum on the name; at the Tribe's request, 
the state funded and provided other assistance for the conduct of the 
referendum. Of 2,144 tribal members who voted, all but 35 favored the 
use of the name ``Lumbee,'' derived from the Lumber River upon which 
they had always dwelled. Armed with this overwhelming support, the 
leader of the movement, D.F. Lowry, asked the state legislature to 
adopt the change. The legislature approved the name change in 1953. The 
Lumbee Tribe then took its case to Congress, which in 1956 passed the 
Lumbee Bill.
    There can be no doubt that for more than 200 years the Lumbees have 
been continuously and repeatedly recognized as American Indians. This 
was made explicit by the state in the 1880's and by the federal 
government from at least the beginning of the twentieth century on. 
Federal and state officials have, on numerous occasions, reviewed the 
evidence and at no time have they questioned the fact that the Tribe 
consisted of people of Indian descent. Federal reluctance to 
acknowledge the Tribe centered on questions involving the extension of 
services. It was unfortunate that each effort by the Lumbees to clarify 
their federal status and to receive services coincided with federal 
Indian policy shifts away from the trust relationship: the General 
Allotment Act in 1887; the Citizenship Act of 1924, and the termination 
policy of the 1950s. The exception, the Indian Reorganization Act, 
which could have provided a means to recognition, was subverted by bad 
anthropology and bureaucratic indolence.
Recent Lumbee History
Challenges to the Lumbee community and independence
    Since the passage of the Lumbee Act, the Tribe has faced a steady 
string of problems, beginning with an attempt by the Ku Klux Klan to 
intimidate tribal members in 1958 by a rally held within the Lumbee 
community. The Tribe's reaction to this threat was a spontaneous 
gathering that drove the klansmen from the field and broke up their 
rally, a confrontation that focused national attention for a time on 
the Lumbee community. The tribal members have exerted their influence 
in other ways. In the 1960's they organized voter registration drives 
that made their influence felt on local politics, electing members of 
the Tribe to state, county, and local public offices. When the local 
school authorities attempted to integrate only the black and Indian 
schools in the county, tribal members staged sit-ins and filed lawsuits 
to prevent the loss of tribal control over the schools. It must be 
understood that the school system was and is a key and integral part of 
tribal identity, and any threat to the Tribe's control would be 
resisted. And resisted it was!
    While the Tribe was struggling to maintain its schools, it was 
actively opposing the so-called ``double voting'' system, which allowed 
whites in the towns (which had separate school districts) to vote with 
whites in the county, who were in the minority, to maintain white 
control over the county school system. The students in the county 
school system were predominantly Indian and black. Tribal leaders took 
the case to federal court, and after losing at the district court, won 
a reversal at the court of appeals, thus ending double voting.
    At about the same time, tribal leaders became involved in an issue 
with high symbolic value to the Tribe. In 1972, the Board of Trustees 
of Pembroke State University decided to demolish the main building on 
the campus of the former Indian normal school and replace it with 
another structure. Very quickly, a group formed to ``Save Old Main.'' 
The group waged a statewide and national campaign to save the building, 
and just at the point when it seemed that they would be victorious, the 
building was burned to the ground. The Tribe overcame this blow and 
campaigned hard for the reconstruction of Old Main, which they 
eventually accomplished. The building was completed in 1975 and is now 
the site of the University of North Carolina at Pembroke's Native 
American Resource Center.
    Since the end of World War II, the Tribe has grown in stature and 
influence. It was a primary mover in the establishment of North 
Carolina Commission of Indian Affairs, an organization that has become 
a model for state Indian commissions. The Lumbees have played an 
instrumental role in county affairs, where they have represented a 
moderating influence.
    The Lumbee history is one of continual resistance to outside 
domination, beginning in the eighteenth century. In 1754, the ancestors 
of the Lumbees were described as a community of 50 families living on 
Drowning Creek, ``mixt Crew [or breed] a lawless people.'' In 1773, 
they were identified as ``A List of the Mob Railously Assembled 
together in Bladen County [later subdivided to create Robeson 
County].'' In the 1830s, Lumbees opposed the laws limiting their 
freedoms, and in the Civil War and Reconstruction years, under the 
leadership of Henry Berry Lowrie, they actively opposed, first the 
Confederate government, and later the United States.
The distinct and strong Lumbee community
    There is a variety of definitions of the term ``Indian tribe'' 
employed in a variety of contexts. Most experts agree that the most 
exacting definition is that used by the Department of the Interior in 
its federal acknowledgement regulations, 25 C.F.R. Part 83. Even as 
judged by this definition, though, there is no question that the Lumbee 
Indians constitute an Indian tribe.
    The Lumbees are held together by the same mechanisms and values 
that have kept them together for the past two hundred years or more, 
mechanisms and values that are typically Indian. First and foremost is 
the family, which serves as the center of Lumbee social activities. 
There is continual and widespread visiting among adults, particularly 
in the homes of parents and grandparents. Often, children live near 
their parents on land that was part of the family homestead. Members of 
families speak to and visit each other on an almost daily basis.
    The knowledge that the average Lumbee has of his or her kin is 
truly astounding. It is very common for individuals to be able to trace 
their parents' genealogies back five or more generations. Not only are 
individuals able to name their grandparents, great grandparents, great 
great grandparents etc., but often they can name the siblings of their 
ancestors, the spouses of their ancestors' siblings, relate where they 
lived in Robeson County, the church they attended, and the names of 
their offspring. It is common for an individual to name two or three 
hundred individuals as members of the immediate family. Every year 
there are family reunions that attract members from all over the 
country. They vary in size from small gatherings of a few hundred close 
kin to reunions involving a thousand or more persons.
    This kinship pattern is well illustrated by the mapping of all 
Lumbee heads of household based upon the 1850 federal census that I 
prepared for the Tribe's petition for federal acknowledgement. I 
identified 168 households headed by Lumbees in 1850. These heads of 
household are the ancestors of present day Lumbees and include 
descendants of the Locklear extended family documented on the old 
Cheraw field in 1790. The households were clustered in what is the core 
area today of the Lumbee Tribe; some areas, such as the Prospect 
community, were almost exclusively Lumbee. The households showed an 
extremely high rate of in-marriage, resulting in complex and multiple 
kinship and marriage ties among the members. This same kinship pattern 
persists today. When the relationships, both marital and kin, between 
the list of tribal leaders who appear on the 1887 petition to the state 
and the 1888 petition to Congress are mapped, it again reveals a 
remarkably tight community. And as I mentioned before, the modern day 
tribal leaders are related in the same way to the Tribe's historic 
leaders and households.
    Religion also serves to maintain the social boundaries of the 
Lumbee Tribe. By social boundaries, I mean that there are membership 
rules, special beliefs and values, a unique history, and a system of 
political authority and decision-making that marks the Lumbees as a 
separate community. There are more than 120 Lumbee Indian churches in 
Robeson County, and with one or two exceptions, each has a Lumbee 
minister. There are also two all Lumbee church conferences--the Burnt 
Swamp Baptist Association and the Lumber River Holiness Methodist 
Conference. Church membership crosses family lines and settlement 
areas, thus drawing together different sectors of the Tribe.
    For the Lumbees, church is more than a religious experience; it is 
one of their most important social activities. It involves many of them 
on a daily basis. The churches have Sunday schools, youth 
organizations, senior citizens' programs, Bible study programs, and 
chorus practices, to mention but a few of the activities available. It 
is common for members of the same household to attend different 
churches, and this behavior further acts to bring the tribal membership 
together.
    The family and the churches also provide the main avenues for 
political participation. In studying the Lumbee community, it is clear 
that leadership over the years has tended to surface in the same 
families from generation to generation, something like a system of 
inherited leadership. These leaders have gained prominence through 
their participation in the educational system and as church leaders. In 
the past, many of the Tribe's most dynamic leaders were ministers and 
teachers. Today, there are other avenues for the demonstration of 
leadership qualities, but family, education and religious values still 
command attention.
    The importance of the role played by the Lumbee churches in the 
political life of the Tribe cannot be overstated. During the 1990s, it 
was the leadership from the churches that initiated and sustained the 
process for preparing a tribal constitution. The delegates to the 
constitutional convention were selected by the churches and represented 
every segment of the Tribe. After nearly ten years of meetings, 
negotiations, court actions, and re-drafts, the constitution was 
presented to the tribal members for their approval. On November 6, 
2001, the tribal members voted on the constitution. Eighty-five [85] 
percent of those voting voted in favor of adoption. The approved 
constitution is recognized by the State of North Carolina, and it is 
the Tribe's governing document.
Geographic concentration of Lumbee Tribe
    Today, there are approximately 55,000 enrolled Lumbee tribal 
members. Each of these members completed a documented application for 
enrollment to establish that he or she meets the enrollment criteria. 
There are two membership criteria: first, that he or she descends from 
an individual who appears on the Tribe's base roll; and second, that he 
or she maintains contact with the Lumbee Tribe.
    Historically, there has never been a complete list of tribal 
members, since no federal or other purpose required the compilation or 
maintenance of such a list. So the base roll used by the Tribe consists 
of a collection of documents dating back to the late nineteenth or 
early twentieth century that consists of partial lists of tribal 
members. These records include the 1900 federal Indian census, Indian 
school records, and church records. In the few instances where an 
individual cannot identify an ancestor in these documents (which are, 
by definition, incomplete lists of tribal members), the person's 
ancestry is considered by an Elder's Review Committee. This is a group 
of tribal elders with great, personal knowledge about Lumbee kinship.
    The maintenance of tribal contact means that the tribal member 
maintains ties to the Tribe, through visits and otherwise, even if the 
member does not reside in the area. Again, if there are questions 
regarding a member's maintenance of contact, the Elder's Review 
Committee will make a determination. Individuals who do not maintain 
contact are not eligible for enrollment; those already enrolled can be 
disenrolled if they fail to maintain contact.
    Even though the Tribe is large, the Tribe remains concentrated even 
today in the area in and around the historic Drowning Creek, known 
today as the Lumber River. To determine the level of geographic 
concentration, a random sampling of tribal members was prepared. This 
is a methodology approved by the Bureau of Indian Affairs in its 
analysis of a tribe's community in the administrative acknowledgement 
process. A 1 percent systematic sample was drawn from the Lumbee 
membership files as of December 2002. Of the 543 files drawn, 29 were 
found to contain names of deceased individuals, or were missing from 
the files, leaving a balance of 514 files. This corresponds closely 
with the number of active members (52,850) as reported to the Lumbee 
Tribal Council in December 2002.
    The residency pattern of the Lumbee Tribal members is divided into 
three categories: core area where the tribal members live in either 
exclusively or nearly exclusively Lumbee geographical areas; those 
living somewhere in North Carolina; and those living elsewhere. 
Included in the first category are the following communities in Robeson 
County: Pembroke, Maxton, Rowland, Lumberton, Fairmont, St. Paul's, and 
Red Springs. Within these communities, there are areas that are 
exclusively (or nearly so) occupied by Lumbees. This is consistent with 
the analysis of tribal membership concentration used by the Office of 
Federal Acknowledgement, Department of the Interior, under its 
acknowledgement regulations.
    The data show that of the 511 for whom there was residency data, 
330 (64.6%) live in the core area. One hundred and two (19.9%) live in 
the State of North Carolina, and the 79 (15.4%) live elsewhere, almost 
all of them in the United States. This high degree of geographic 
concentration establishes the existence of a Lumbee community, even 
without any further evidence (see discussion below). Based on census 
and other data, the Tribe demonstrates the same high level of 
geographic concentration going back well into the nineteenth century, 
or as far as there are data available.
    A second indication of community is the level of in-marriage within 
a community. Using the same sample, there were 276 records that 
provided information on the age and marital status of individuals. Of 
these, 49 were younger than 16, the age selected as marriageable. 
Another 23 were identified as single, leaving 204 with known marriage 
partners. Of this number 143 (70%) were married to another Lumbee 
tribal member. Of the remaining 61, 59 were married to non-Indians and 
2 were married to members of other tribes. Again, this high in-marriage 
rate establishes the existence of a Lumbee community, even without any 
further evidence (see discussion below). As with residency, based on 
census and other data, it is certain that the Tribe can demonstrate 
comparably high in-marriage rates for the preceding periods, going back 
well into the nineteenth century, or as far as there are data 
available.
Political leadership among the Lumbee
    As discussed above, the Lumbee Tribe of North Carolina organized, 
ran, and largely financed its own school system and teacher's training 
college for nearly one hundred years. It has had and continues to have 
a complex network of churches that exclusively or nearly exclusively 
serve the tribal members. All of these demonstrate clear political 
authority within the community that is accepted as such by the outside 
world.
    A specific example of tribal political authority in the education 
context is illustrative. In 1913, State Attorney General Thomas Bickett 
issued an opinion that the Robeson County Board of Education, then 
controlled by non-Indians, had authority to overrule a Lumbee Indian 
school committee's decision to exclude a child who did not meet the 
Tribe's eligibility requirements from an Indian school. This was 
unacceptable to the Tribe. Tribal leaders sought and obtained state 
legislation in 1921 that reaffirmed the Tribe's authority to determine 
eligibility to attend the Lumbee schools.
    Another example of Lumbee political autonomy outside the context of 
education involved the ultimate political control--the ability to 
directly elect leadership for the Town of Pembroke--located in the 
heart of the Lumbee community and occupied almost exclusively by 
Indians (excluding the students and employees of the University of 
North Carolina, Pembroke). At the time of its incorporation in 1895, 
state law required that public officials of the town be appointed by 
the Governor rather than elected--the only incorporated town in the 
state so governed. Under pressure from Lumbee tribal leaders, this 
state law was changed in 1945 to allow for direct election of town 
officials by the residents there, just as in all other incorporated 
towns in the state. Since then, the mayor and town council of Pembroke 
have all been Lumbee Indians.
    From the 1960s on, the Lumbee leadership sought to maintain control 
over their schools and college, and when that was no longer possible, 
to share political power in Robeson County. They instituted lawsuits to 
abolish double voting, fought to save the college's main administration 
building, and when that burned down, to have it rebuilt, and elect 
Lumbee leaders to county positions. The Tribe submitted a petition for 
federal recognition under 25 CRF 83. Finally, beginning in 1993, the 
Tribe began the process that eventually led in 2002 to the present 
constitution and tribal government. The process started with funds from 
a Methodist Church grant, the delegates were chosen from the 
participating churches, and the process was deeply influenced by church 
leaders. The results were overwhelming endorsed by the tribal 
population in two referenda--1994 and 2001.
Lumbee Tribe of North Carolina and The Federal Acknowledgement 
        Regulations
    In 1978, the Department of the Interior established a regulatory 
process for the acknowledgement of Indian tribes. 25 C.F.R. Part 83. 
The Department has determined that the Lumbee Tribe is not eligible for 
this administrative process because of the 1956 Lumbee Act. However, 
the history and data establish that the Tribe nonetheless meets the 
seven mandatory criteria used in the Department's regulations to define 
an Indian tribe. Those seven mandatory criteria are:
    (a)  identification as an American Indian entity on a substantially 
continuous basis since 1900;
    (b)  a predominant portion of the petitioning group comprises a 
distinct community and has existed as a community from historical times 
until the present;
    (c)  the petitioner has maintained political influence or authority 
over its members as an autonomous entity from historical times until 
the present;
    (d)  a copy of the group's present governing document including its 
membership criteria;
    (e)  the petitioner's membership consists of individuals who 
descend from a historical Indian tribe or tribes which combined and 
functioned as a single autonomous political entity;
    (f)  the membership of the petitioning group is composed 
principally of persons who are not members of any acknowledged North 
American Indian tribe;
    (g)  neither the petitioner nor its members are the subject of 
congressional legislation that has expressly terminated or forbidden 
the Federal relationship.
Criterion (a) Identification as an Indian entity
    This criterion can be met by showing evidence of federal, state, or 
county relationships, or identification by historians or social 
scientists, in books or newspapers, or by relationships with other 
tribes or national, regional or state Indian organizations since 1900. 
There are repeated and numerous identifications of the Lumbee Tribe as 
an Indian entity since 1900, as shown in the summary of the Tribe's 
efforts to obtain federal recognition above. There can be no serious 
question that the Lumbee Tribe can and has demonstrated this criterion.
Criterion (b) Community
    This criterion provides a number of ways to demonstrate community, 
foremost among these are rates of in-marriage and residency patterns. 
The regulations provide that an Indian group has conclusively 
demonstrated this criterion by proof that 50 percent or more of its 
members reside in a geographical area composed exclusively or almost 
exclusively of tribal members, or that at least 50 percent of its 
members are married to other tribal members. These are the so-called 
high evidence standards. As established above, the Lumbee Tribe meets 
both these high evidence standards, both historically and in modern 
times. This means that the Lumbee Tribe has conclusively demonstrated 
community as defined by the regulations, typically the most difficult 
part of the administrative process for petitioning tribes. It should 
also be noted that this criterion specifically provides that changes in 
name of the group, such as those experienced by the Lumbee under state 
law, are irrelevant.
Criterion (c) Political authority
    The regulations provide that if community is proven by high 
evidence as exhibited by the Lumbee community, this is considered 
conclusive proof of political authority as well. In other words, the 
same high evidence of community exhibited by the Lumbee also 
conclusively demonstrates political authority for the Lumbee Tribe, 
both historically and in modern times. In addition, the actual evidence 
of political authority summarized above--from the substantial and 
active political relationship maintained with the State of North 
Carolina since 1885, repeated efforts organized by tribal leaders to 
obtain federal recognition, and persistent resistance to challenges to 
tribal independence--show vibrant and effective political leadership 
within the Tribe, both historically and in modern times.
Criterion (d) Governance
    This criterion requires that a petitioner submit either a statement 
describing its system of governance or its governing document. By the 
adoption of a tribal constitution, one that has been recognized by the 
State of North Carolina, the Tribe clearly demonstrates this criterion.
Criterion (e) Descent from a historical tribe or tribes
    As to criterion (e), Dr. John R. Swanton, a member of the staff of 
the Bureau of American Ethnology, a federal government agency, and one 
of the nation's foremost anthropologists and experts on American Indian 
tribes, particularly in the southeast, concluded in the early 1930s 
that the Lumbees are descended predominantly from Cheraw Indians. The 
Department of the Interior adopted this position in its 1934 statement 
to Congress on one of the proposed recognition bills, relying on Dr. 
Swanton's report. This has also been confirmed and supported by 
scholars such as Dr. William C. Sturtevant, Chief Ethnologist of the 
Smithsonian Institution and general editor of the Handbook of American 
Indians and Dr. James Merrell, Professor of History, Vassar College, 
and a leading authority on the colonial Carolinas.
Criterion (f) Petitioner's members are not members of any federally 
        recognized tribe
    The members of the Lumbee Tribe of North Carolina are not members 
of any federally recognized tribe. This can be demonstrated by a review 
of the Tribe's genealogical data.
Criterion (g) The petitioner has not been the subject of a federal 
        termination act
    The Solicitor for the Department of the Interior has determined 
that the 1956 Lumbee Act is an act forbidding the federal relationship.
Summary
    Typically, Indian tribes petitioning for acknowledgement under the 
administrative process have most difficulty with criteria (b) and (c), 
community and political authority respectively. Every tribe that has 
been denied acknowledgement through the process to date has failed 
because of the inability to prove these criteria, and perhaps others. 
As demonstrated above, the Lumbee Tribe's case on these criteria is so 
strong as to be conclusive. In light of the heavily documented history 
of the Tribe since 1900, neither can there be any doubt about the 
Tribe's ability to demonstrate the other criteria.
    In the past few years, the Bureau of Indian Affairs has expressed 
doubt as to the Tribe's evidence on criterion (e), that there is too 
little data on criterion e to prove descent from the Cheraw Tribe, 
specifically that a genealogical link between the Cheraw Tribe on 
Drowning Creek and all present-day members of the Lumbee Tribe on the 
renamed Lumber River cannot be made, despite the occurrence of shared 
and uncommon surnames and the clear descent of significant numbers of 
members from the Locklear family known to reside in the Drowning Creek 
area. Of course, the failure of the dominant society to record the 
births and deaths of Lumbees before 1790 is no fault of the Tribe; nor 
does this absence suggest that the Lumbee Tribe is not descended from 
the Cheraw Tribe. In fact, the Department testified in 1934 that the 
Tribe was descended from the Cheraw Tribe, based upon the work of the 
eminent Dr. Swanton. The Department's earlier opinion is also 
corroborated by the professional opinions of Drs. Sturtevant and 
Merrill. Thus, the Department's more recent view should be taken as 
more intellectual curiosity than serious doubt about the origins of the 
Tribe. And this new found curiosity should be judged in the context of 
the Department's long-standing determination to oppose recognition of 
the Tribe, even in the face of its past judgment that the Lumbees truly 
are an Indian tribe.
    The extensive record of the Tribe's history in the eighteenth, 
nineteenth, and twentieth centuries establish that the Lumbee Indians 
constitute an Indian tribe as that term is defined in the Department of 
the Interior's acknowledgement regulations. The Tribe fails only on the 
last criterion, that is, Congress has prohibited the Department from 
acting on the Tribe's petition in the 1956 Lumbee Act. Thus, the 
Congress can act on H.R. 65 with full confidence that the Lumbees are, 
in fact, an Indian tribe.
                                 ______
                                 
    The Chairman. Thank you. Let me ask my first question to 
Chairman Goins. Some have questioned the Lumbee as a tribe 
because of different names the tribe has been known as over the 
years.
    Did the Lumbee Tribe request or work with the state on 
amendments to state law regarding your name?
    Mr. Goins. In 1952 that did occur, sir. We went to the 
legislation that allowed us, for our people to come out and 
vote on their own particular name. That name was derived from 
the Lumbee River. Up until that point it was all designated by 
the State of North Carolina.
    The Chairman. Thank you. Mr. Campisi, let me ask you about 
the numerous studies that have been conducted over the years by 
Congress and the Department of Interior on Lumbee ancestry.
    Have any of these studies expressed doubt of the tribe's 
Indian ancestry?
    Mr. Campisi. No, Mr. Chairman, I have not read any study 
that expressed doubt about Indian ancestry.
    The Chairman. I appreciate that. Coach Sampson, I might ask 
you. First, your testimony was very eloquent, and your 
dedication to education is most commendable.
    After all that you have accomplished in your life, it seems 
you still yearn to be known as a member of a Federally 
recognized Indian tribe. And I highly respect you for that. How 
do you think that recognition will change the young Lumbee men 
and women growing up now?
    Mr. Sampson. It is my belief, and I speak from personal 
experience, when I travel across the United States with my team 
to play basketball--it may be in Los Angeles, it could be in 
Chicago. When I was in Oklahoma in the Big Twelve, the State of 
Oklahoma having the largest influence of Native Americans in 
the United States. They all accepted me as a Native American. 
They felt I was a Native American.
    But I knew that, in an almost sinister way, that there is a 
but at the end of the way that we are recognized. We are Native 
American, but there is a but at the end.
    What we would like to do, and I think this is where the 
self esteem and almost a complete generation could put their 
hands around this and embrace it, we would like to remove the 
but. I think our people deserve that.
    We are Native American. I don't look at my people as 
anything but Native American, never have. My father was Indian, 
my mother is Indian. Their mother and their father were Indian. 
I lived my life as an Indian, accepted as an Indian. But we 
have the problem with the word but. We need to remove but.
    The Chairman. Thank you so much, Coach. The gentleman from 
North Carolina, Mr. Shuler.
    Mr. Shuler. Thank you, Mr. Chairman. I would like to thank 
all the members of the panel and their testimony today, and for 
all your works. And Chairman Goins, a special thank you for 
your commitment to our country and serving in our foreign wars.
    Mr. Goins, or Chairman Goins rather, why did the Lumbee 
community seek recognition under, or did they seek recognition 
under the Cherokee name? I know you have alluded to this.
    Mr. Goins. Arlinda, do you want to answer?
    Ms. Locklear. If I may, Congressman, for the Chairman. 
There were two names that you referred to. The first, as a 
process of state law, the tribe itself did not seek that name 
change. That occurred in 1913. Chief Hicks is correct about 
that year. It happened because the State Legislature in both 
1885, 1911, and 1913, who thought they knew where the Lumbees 
came from, and enacted into state law their own version of 
amateur history.
    However, the Chief is also correct that there were efforts 
made in the Federal Congress to achieve recognition on the same 
terms that the state law had been passed. There was a simple 
reason for that.
    If you will recall from our history, in 1885 the state 
established a separate school system for Lumbee children. The 
record establishes that the tribal leaders feared use of any 
other name other than the one imposed by state law, or else 
they would lose their schools. And the record is clear on the 
Federal bills that there was, in fact, debate among the tribal 
leaders at the time on that issue. But the tribal leaders 
resisted use of any other name other than that imposed under 
state law, so that they could maintain control under state law 
of their state schools.
    Mr. Shuler. And Mr. Campisi, you had also alluded to that 
several times legislation has changed the names of the 
community, correct?
    Mr. Campisi. That is correct.
    Mr. Shuler. So Mr. Chairman, it seems to me that many times 
before, that legislative bodies have continued to be wrong, 
correct?
    Mr. Goins. Wrong about the name?
    Mr. Shuler. Correct.
    Mr. Goins. Correct.
    Mr. Shuler. Or the recognition thereof. So it seems like 
that we should continue to go through the due process to allow, 
in this circumstances that we are looking at, that the due 
process, that Members of Congress are, just as other 
legislators in our State of North Carolina have done, they too 
have been wrong, from what you are, the information which you 
have submitted today in front of our, in the hearing, that you 
said the state legislatures are wrong.
    So I guess my question would be if, in fact, that North 
Carolina has been wrong, and obviously Chief Hicks had alluded 
to that the use of the Cherokee name now being recognized, 
trying to be recognized under the Lumbee name, that at that 
point in time, we have seen how legislation has been wrong in 
not going through the due process, or actually having your 
community involvement was incorrect.
    Ms. Locklear. If I may comment on that.
    Mr. Shuler. Sure.
    Ms. Locklear. Congressman Shuler, there were two questions 
here. One is the use of a name. As Dr. Campisi testified 
earlier, the regulations make very clear that the use of 
various names is irrelevant.
    The other, however, is tribal existence. None of those 
bodies was wrong with regard to the tribal existence question. 
The Lumbee have existed, as Dr. Campisi testified, as an 
independent Indian community entitled to recognition, under 
whatever name they may have used at the time.
    So while they may have been incorrect on the name, they 
were not incorrect with regard to the recognition issue.
    Mr. Shuler. Well, in my heritage, our surname Shuler had 
been passed down, and I know where that has gone. So the 
Lumbee, when does the name Lumbee community come about?
    Ms. Locklear. As the Chairman indicated, out of frustration 
with the state's various names, the tribe did ask the state to 
conduct a referendum in 1952 on the adoption of the name. 
Because of the tribe's long-time association with Drowning 
Creek, later renamed Lumber River, the tribe itself chose the 
name Lumbee, derived from the Lumber River. That is the name 
that the tribe itself chose.
    Mr. Shuler. And what year was that?
    Ms. Locklear. It was chosen in 1953. The state recognized 
the name--I am sorry, 1952. The state recognized the name in 
1953. And the Congress did so in 1956 in the Lumbee Act.
    Mr. Shuler. So for many years the ancestors of the 
community have not had a name.
    Ms. Locklear. That is not correct. That is not correct. For 
many years this community has not been recognized by the United 
States. It is generally a function of Federal recognition that, 
number one, technical roles are prepared. We never had a 
technical role. And that number two, a legal body known by a 
particular name is authorized to represent a particular Indian 
people.
    Mr. Shuler. So what was the name of the tribe before 1952?
    Ms. Locklear. Under state law we were recognized----
    Mr. Shuler. No, in the community.
    Ms. Locklear. We didn't use a name other than Indian, 
because we were all Indian. We all knew who we were.
    Let me tell you a little story. We have one of our members 
who explains it this way. I am going to use Drew's grandfather 
as an example. He was born in 1886. When he was born, he was a 
Croatan Indian, under state law.
    When he married in 1913, he was, under state law, an Indian 
of Robeson County. When his children were born, he was, under 
state law, a Cherokee Indian of Robeson County. And by the time 
of his death, he was, under state law, a Lumbee Indian.
    Now, this is the same individual, mind you. And every 
individual in his family knew they were Indian, and really 
actually paid little regard to what the state law designated 
them as, other than the ability to maintain their separate 
schools.
    Mr. Shuler. OK. Mr. Chairman or whoever would like to 
answer this, if the mandate, the 1956 Congressional Ban was 
lifted, would you seek that recognition through the Department 
of Interior?
    Mr. Goins. Congressman, the question is, and it has always 
been since the 1956 Act, that Congress put us in this fix. And 
we are not the only tribe that has been treated like this, but 
we are the only tribe that is being left in this predicament.
    You have corrected the situation with the Tiwas. And I was 
saying is just treat us like you did the other tribes that 
Congress put in this fix. That is all we are saying. Just go 
back to right or wrong.
    Mr. Shuler. So would you seek the recognition, to my 
question, would you seek the recognition if the ban was lifted?
    Mr. Goins. If the ban was lifted, if that was the consent 
of the Congress, we would have no other choice but to go 
through the BIA process.
    Mr. Shuler. Chief Hicks, how has this affected the 
community? If, for an example, Congress does not increase 
funding, what impact would it be if we didn't increase the 
funding, and the resources were divided on a much greater, the 
pile was divided many more times? What impact would it have 
upon your community and the Kwala boundary?
    Mr. Hicks. Well, obviously I think the Committee is very 
privy to the current limitations in front in specifically 
healthcare, as an example. We are funded at about a 60 percent 
level of need at this point, so I think it would be 
overwhelming to not just the Eastern Band of Cherokee, but all 
tribes across the nation, especially the direct service tribes. 
It would have a significant effect.
    And again, the numbers at this point are still questionable 
in regards to whatever the latest CBO report is going to 
report.
    Mr. Shuler. Thank you. Chairman Goins, again, seeking 
recognition obviously with the caveat of banning gaming, would 
you also agree that being able to be recognized, but not having 
gaming?
    Mr. Goins. Congressman, if you noticed in that film clip I 
talked about the Lumber River holding this, holding this 
Methodist Conference. Sir, I am a member of that conference, 
and I take my relationship with my Lord very serious. In my 
personal opinion, I am not in favor of the lottery, but I 
cannot speak on behalf of the Tribal Council and the Lumbee 
people. It would be up to them to take on a referendum to vote.
    But personally, forget about gaming, as far as I am 
concerned.
    Mr. Shuler. Very good. And, Mr. Chairman, I note my time 
has expired, but I just would like to extend my special thanks 
to my colleague, McIntyre. It is not often the two of us 
actually ever disagree on any issue, and I continue to cherish 
my friendship, along with he and the Chairman, under these 
circumstances.
    And also, once again, Coach, congratulations to you and 
your hard work and your dedication. And Chief Hicks, thank you 
and your counsel for what you have been able to help both in 
the economic impact in our community, and for the wellness of 
our community. Growing up just six miles from the Kwala 
boundary was a very special time of my life and a time that I 
will always remember. And I thank all of you for your testimony 
here before us today.
    Thank you.
    The Chairman. Mr. McIntyre.
    Mr. McIntyre. Thank you, Mr. Chairman. I know the hour is 
late, and I will be brief. I do want to thank the Chairman for 
your patience and for your willingness to hear all of this 
testimony today. And thank you to my colleague, Congressman 
Shuler, for his kind words. I do greatly respect him, and is 
excited that he is here as a Member of our Congress and of this 
committee. And thank you for being with us today, and in a 
better understanding of this situation that my constituents in 
the Lumbee Tribe face.
    I would like to just ask Arlinda Locklear, who is the 
attorney for the tribe, if there is anything else from a legal 
standpoint. Ms. Locklear, I would like to give you that 
opportunity to speak to. I notice you have submitted for the 
record an excellent memorandum.
    And I notice one comment that you had here, that if you 
would just like to speak to. When you say Congress should deal 
with the Lumbee Tribe just as it has every other tribe in the 
same situation. That is, by an Act of Recognition Legislation, 
because the tribe is ineligible for the administrative process.
    Congress, you say, has never passed special legislation 
that will require administrative action on a tribe that is, 
under present law, ineligible for the administrative process. 
So in your reference here, if you would just expound upon that 
briefly. And we thank you again for your excellent preparation 
of this memorandum.
    Ms. Locklear. Thank you, Congressman McIntyre, I appreciate 
the opportunity. And I also thank you for your work on this 
bill. The community is very grateful.
    Yes, that is correct, Congressman McIntyre, that the 
Congress has never done as some have proposed today, which is 
to repeal a statute that precludes a tribe from going through 
the administrative process, and then require administrative 
action on that tribe's history. That was proposed by some in 
the Congress's consideration of the Pascua Yaqui Tribe in 1978. 
It was also mentioned by some in Congress's consideration of 
the Ysleta del Sur Tribe in 1987.
    And in both cases, the Congress declined to do so, and 
instead enacted comprehensive legislation for those tribes. 
Both of those tribes were subject to Acts of Congress 
comparable to the 1956 Lumbee Act that precludes administrative 
action on the tribe's status.
    But let me also point out that in the past, this committee 
has rejected that same alternative with respect to the Lumbee 
Tribe, as well. In both 1992 and 1993 when the issue was before 
the Committee, the Committee voted down that alternative in 
both Congresses.
    Mr. McIntyre. Thank you. And just one other clarification. 
You also mentioned as another point following that paragraph in 
your discussion of that particular issue that the Department of 
the Interior, and I quote, ``and the Congress have already made 
inquiry with regard to the Lumbee Tribe on numerous occasions 
in response to the tribe's repeated requests to Congress and 
the Department for Federal recognition.''
    The Congress and the Department have compiled a voluminous 
record on the tribe's history and community. In fact, what Dr. 
Campisi has referred to today and what you have submitted, can 
you tell us, in brief, the history of those records being 
provided already to this Congress with regard to the Lumbee 
status as Indians?
    Ms. Locklear. Yes, sir. Those investigations and reports 
arose out of the tribe's long effort to obtain Federal 
recognition. Typically what occurred was when the bill was 
introduced, Congress would request or direct the Secretary of 
the Interior to dispatch a special Indian agent to study the 
history and condition of the Indians in Robeson County.
    And it is important to point out that these were Indian 
agents with substantial background and experience among 
Federally recognized tribes. Mr. Baker, for example, who 
visited the community in 1935 was the agency at, the Sisseton 
Wahpeton agent at the time, agency at the time. They all, as 
instructed by Congress, produced reports which were then made 
part of the legislative history on those bills. And as Dr. 
Campisi testified, they all conclude that it is an Indian 
community in Robeson County, with a strong community sense and 
strong political leadership.
    And in fact, one of those, one of the early ones of those, 
done in 1934 by Dr. Swanton, as Dr. Campisi testified, 
concluded that the Lumbee Indians descend from the Cheraw and 
related Siouan-speaking tribes.
    The Department of the Interior relied on that report, in 
fact, in its testimony, adopted that view in its testimony to 
Congress on a bill in 1934. So it is a little disingenuous we 
believe for the Department now to express some doubt as to the 
ancestry of the Lumbee, when they appear to have known it for 
some time.
    Mr. McIntyre. Thank you. And thank you, Mr. Chairman, thank 
you again for your indulgence today, and for the opportunity to 
present this case on behalf of the Lumbee Tribe.
    The Chairman. Thank you, Mike. The gentleman from Maryland, 
Mr. Sarbanes, do you have any questions?
    Mr. Sarbanes. A very brief question for Ms. Locklear. You 
say there is other tribes that have been sort of similarly 
situated by having Congress recognize them, but deny them 
access to the administrative process.
    Ms. Locklear. Yes.
    Mr. Sarbanes. And in those instances, have those, have any 
of those occurred since 1956?
    Ms. Locklear. They both did.
    Mr. Sarbanes. They both did.
    Ms. Locklear. Yes.
    Mr. Sarbanes. OK. And in both of those instances there was 
subsequent legislation that did not require them to go through 
the process, is that correct?
    Ms. Locklear. That is correct.
    Mr. Sarbanes. OK. Thank you.
    The Chairman. Thank you. The gentleman from Pennsylvania, 
Mr. Brewster.
    Mr. Shuster. Thank you, Mr. Chairman, I appreciate it.
    The Chairman. Mr. Shuster, I am sorry.
    Mr. Shuster. You combined the Bill with the Shuster.
    The Chairman. That is what I did.
    [Laughter.]
    The Chairman. The gentleman from Pennsylvania, Mr. Shuster.
    Mr. Shuster. It is not the first time that I have been 
mistaken for other people.
    Thank you for correcting the record. And thank all of you 
for being here today.
    I generally support tribal recognition legislation. But it 
has been brought to my attention that some of the tribes around 
the country, and especially in the Northeast, I am aware of a 
situation where they have not been collecting state taxes or 
sales tax or excise taxes, and it has put some small 
businesses--mainly what I am talking about it convenience store 
operators, whether it is gas or whether it is tobacco, 
especially tobacco. I know there has been a pretty significant 
problem.
    When the tribes are exempt from charging the tribal members 
taxes, which I understand, but when they are selling it to 
people that aren't tribal members, members of the tribe, that 
causes a great hardship on these businesses. They can't 
compete, and in some cases I am aware that cigarette sales for 
one convenience store operator has dropped 80 percent because 
the tribe refuses to collect the taxes when they are selling it 
to people who aren't members of the tribe.
    And what I would like to do also is, for the record, put a 
letter in from the National Convenience Store Association, 
National Association of Convenience Stores, into the record. 
They oppose this legislation. And I understand why they oppose 
it, because they want to know what kind of protection are they 
going to have, what kind of mechanisms are in place in this 
legislation to make sure that the tribes are collecting those 
taxes.
    So I don't know if any of you can answer that question, but 
I would like you to speak to that matter. Because it is of 
great concern to convenience store operators, especially, as I 
said, with tobacco, sales of tobacco. So could anybody address 
that for me?
    Ms. Locklear. If I may, Congressman, I am aware of that 
concern. It does exist in several places in Indian country 
where there has been tension between the local government, 
among the local governments, the state governments, and the 
tribal governments with respect to the collection of taxes that 
are owed and payable. Largely, cigarette sales tax and other 
sales tax, cigarette excise tax and other sales tax.
    However, let me point out that the situation of Lumbee is 
politically different from those situations, because of its 
longstanding history with the State of North Carolina. The 
tribe has had, since 1885, a cooperative arrangement with the 
State of North Carolina, a very active political relationship, 
and has addressed all of its issues with the state through a 
true, genuine government-to-government basis.
    In those areas of Indian country where the issues on 
taxation do not exist, that is how it is solved there, as well. 
I am aware, for example, of the tribes in Wisconsin. I 
represent some tribes there who have entered into compacts with 
the State of Wisconsin to address those issues there, so that 
the tribes actually do pre-collect and remit those taxes to the 
state, and then the state rebates back a certain percentage of 
the tax to the tribes.
    That is the key. The key is a respectful government-to-
government relationship between the tribes and the states. And 
we fortunately already enjoy that at the Lumbee Tribe in North 
Carolina.
    Mr. Shuster. That is great to hear. And I would hope 
sometime maybe, Mr. Chairman, we could hold a hearing with some 
of these tribes that aren't collecting the taxes. Because as I 
said, for a lot of small business owners, a lot of these 
convenience stores are small businesses, they are facing great 
hardships.
    I appreciate you letting me know what is happening in your 
part of the world. And if anybody else would care to touch on 
that, that is fine. I think it is a huge problem, something we 
have to do. And again, if I could submit this letter into the 
record, thank you. And I yield back my time.
    [The letter submitted for the record by Mr. Shuster from 
Lyle Beckwith, Senior Vice President, Government Relations, The 
Association for Convenience & Petroleum Retailing, on H.R. 1294 
follows:]
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. The Chair thanks the panel very much for 
your patience this morning and your superb testimony. Thank 
each of you.
    Due to the limited seating in the Committee room and the 
Chair's desire to be fair to all this morning, we had to limit 
the seating for this morning's portion of the hearing to those 
interested in the Lumbee Tribe. There are others waiting 
outside the room that wish to enter in regard to the next 
panel's testimony, so I would ask if we could, in an orderly 
fashion, vacate the seats now to allow those that have been 
outside waiting to come in. And in order to accommodate that, 
the Chair will take a five-minute recess.
    [Recess.]
    The Chairman. The Committee will resume its sitting, and 
call to the witness table panel number three in regard to H.R. 
1294. The panel is composed of Chief Stephen R. Adkins, the 
Chickahominy Indian Tribe, Charles County, Virginia; Chief 
Kenneth Branham, the Monacan Indian Nation, Madison Heights, 
Virginia; Reverend Jonathan M. Barton, General Minister, 
Virginia Council of Churches, Inc., Richmond, Virginia; and Ms. 
Helen Rountree, Professor Emerita of Anthropology of Old 
Dominion University, Norfolk, Virginia.
    Lady and gentlemen, we welcome you to the full Committee on 
Natural Resources. And you may proceed in the order that I have 
announced. And as with previous witnesses, we do have your 
prepared testimony; it will be made a part of the record as if 
actually read, and you are encouraged to summarize.
    Chief Adkins.

  STATEMENT OF STEPHEN R. ADKINS, CHIEF, CHICKAHOMINY INDIAN 
              TRIBE, CHARLES CITY COUNTY, VIRGINIA

    Mr. Adkins. Thank you. I would say Charles City County, 
Virginia, versus Charles County. Charles City County.
    But thank you, Chairman Rahall and other distinguished 
Members of the Committee, for inviting me here today. And 
before I begin my talk, I would like to thank you for that 
moment of silence that you invoked, and for the galvanizing 
effect it had on the hearts and minds of the folks in this 
room. When something touches the Senecamaca, my homeland, it 
hits very hard.
    But even if this had not been in that territory, what you 
did was very appropriate, and I think it joined our hearts 
together. So thank you very much for setting the tone of this 
very, very important hearing today.
    The bill introduced by Congressman Jim Moran is titled 
``The Thomasina E. Jordan Indian Tribes of Virginia Federal 
Recognition Act of 2007,'' and it is H.R. 1294. And I am proud 
to appear today before this Congressional committee on behalf 
of the six named tribes in this legislation.
    As part of my testimony, or as part of the record, I would 
like to submit the statement from Governor Tim Kaine of 
Virginia. I think you got it electronically. As part of my 
statement, I would like to enter that into the record today.
    The Chairman. It will be.
    [The statement submitted for the record by Governor Kaine 
follows:]

        Statement of The Honorable Timothy M. Kaine, Governor, 
                 Commonwealth of Virginia, on H.R. 1294

    Thank you for the opportunity to provide a written statement 
supporting the long overdue Federal Recognition of the Native American 
Tribes of Virginia. In Virginia we are proud of the State Recognized 
Indian Tribes and the contribution their communities have made to our 
Commonwealth and the Nation.
    As a part of my Inaugural Address on January 14, 2006 at the 
Colonial Capital in Williamsburg, Virginia, I stated:
        ``Our Virginia might not exist today were it not for the 
        generosity extended to those first settlers by the native 
        Virginia tribes living in this region. Without the hospitality 
        of Chief Powhatan...those in Jamestown would have 
        perished...And, we should use this historic time to help those 
        who first helped us by working with the federal government to 
        see that Virginia's native Indian tribes are finally 
        recognized.''
    Next month we will be honoring the heritage of the Virginia Tribes 
and our early colonial history as we commemorate the 400th anniversary 
of the first permanent English Settlement at Jamestown.
    Almost immediately after first landing at Jamestown in 1607, the 
early English settlers and explorers came into contact with the 
Virginia Tribes living throughout Eastern Virginia. While the 
relationship between the Native Tribes and the English was not always 
easy, there can be little doubt that had it not been for accommodations 
on both sides, the settlement would not have survived. Indeed, 
Virginia's Native American Tribes played an integral role in helping 
settlers survive those first harsh winters.
    In this special anniversary year, it is especially tragic that 
these tribes still have not received equal status with the 562 other 
Federally Recognized Tribes in the United States. How can we 
commemorate their history and not recognize their existence? Now is the 
time to reconcile history. Let us, once and for all, honor their 
heritage. A heritage, I might add, that has been sorely tested by 
centuries of racial hostility and state-sanctioned coercive actions.
    Virginia Tribes are unique. Unlike most tribes that obtained 
federal recognition when they signed peace treaties with the federal 
government, tribes in Virginia signed their peace treaties with the 
British Monarchy.
    <bullet>  Most notable among these was the Treaty of 1677 between 
Virginia's Tribes and Charles the II--well before the establishment of 
the United States. This treaty has been recognized by the Commonwealth 
of Virginia every year for the past 330 years when the Governor of 
Virginia accepts tribute from the Tribes in a ceremony now celebrated 
at the State Capitol.
    However, while the Virginia Tribes have received official 
recognition from the Commonwealth of Virginia, acknowledgement and 
officially recognized status from the federal government has been 
considerably more difficult due to systematic mistreatment over the 
past century.
Recent History of Tribal Recognition Issue in Virginia
    For 34 years, from 1912 to 1946, Walter Ashby Plecker, at the 
Virginia Bureau of Vital Statistics, led an effort to actively destroy 
vital records and evidence of Indian existence in the Commonwealth. 
This practice was supported when the eugenics movement was endorsed by 
Virginia Universities and the Virginia General Assembly enacted the 
Racial Integrity Act in 1924--a race based statue that forced all 
segments of the population to be registered at birth in one of two 
categories ``white'' or ``colored''. No reference was allowed for other 
ethnic distinctions and no reference was allowed for Indian Tribal 
peoples in Virginia. Members of Virginia's Tribes were denied their 
identities as Native peoples. Essentially, Virginia declared, by law 
and the systematic altering of key documents, that there were no 
Indians in the Commonwealth as of 1924. The passage of these race based 
statutes in Virginia made it criminal for Native peoples to claim their 
Indian Heritage.
    <bullet>  For instance, married couples were denied marriage 
certificates or even forbidden to obtain the release of their newborn 
child from a hospital until they changed their ethnicity on the state 
record to read ``colored.''
    The Racial Integrity Act was not struck down by the Federal Courts 
until 1967.
    The eight Virginia Tribes are the Chickahominy, Eastern 
Chickahominy, Mattaponi, Monacan Indian Nation, Nansemond, Pamunkey, 
Rappahannock and the Upper Mattaponi.
    From 1983-1989 each Tribe gained official Recognition in the 
Commonwealth of Virginia. In 1997, then Governor George Allen signed 
legislation acknowledging the ``paper genocide'' of Indians in 
Virginia. This legislation provided that state records be corrected 
that had been deliberately altered to list Virginia Indians on official 
state documents as ``colored.'' In 1999, the Virginia General Assembly 
adopted a resolution calling upon Congress to enact legislation 
recognizing the Virginia Tribes.
    Each of the six tribes have also petitioned the U.S. Department of 
Interior and the Bureau of Indian Affairs (BIA) for official 
recognition under the process set forth in 25 CFR Part 83, ``Procedures 
for Establishing that an American Indian Group Exists as an Indian 
Tribe.'' Such Federal acknowledgement enables Indian Tribes to 
participate in Federal programs and establishes a government-to-
government relationship between the United States and the Indian Tribe.
    The Virginia Tribes have also submitted letters of intent and 
partial documentation to petition for Federal acknowledgement.
    Helen Rountree, noted anthropologist and expert on Native-Americans 
in Virginia, who will also be testifying today, has spent her life 
documenting the Virginia Tribes. Through her thorough analysis and 
research the Commonwealth of Virginia was provided with sufficient 
authentication to officially recognize these tribes. I believe that 
that research should also be sufficient to address the damage of the 
Racial Integrity Act era and meet the BIA's criteria.
Need for Congressional Action
    Six of the Tribes first came to Congress seeking recognition in 
1999. They joined together to request Congressional action on their 
application for Federal Acknowledgement through the ``Thomasina E. 
Jordan Indian Tribes of Virginia Federal Recognition Act'' (this year 
it is H.R. 1294). The six Tribes view Federal recognition as a basic 
issue of equality with the other 562 tribes.
    Under the United States Constitution Indian Commerce Clause, 
Congress has the authority to recognize a ``distinctly Indian 
community'' as an Indian tribe. I believe that the Tribes' situation 
clearly distinguishes them as excellent candidates for Congressional 
action.
    Under H.R. 1294, the six Tribes would finally, and at long last, be 
granted federal recognition. At the same time, I feel that the 
safeguards provided in this legislation would address some Virginians' 
concerns about Class III style gaming in the Commonwealth. Indeed, this 
legislation would give both the Governor and the General Assembly 
strict control over any possibility of the development of Indian 
Gaming.
    Specifically, sections 106(b), 206(b), 306(b), 406(b), 506(b), and 
606(b) of H.R. 1294 include the following language:
    (1)  GAMING.--No reservation or tribal land or land taken into 
trust for the benefit of the Tribe or a member of the Tribe shall be 
eligible to satisfy the terms for an exception under section 
20(b)(1)(B) of the Indian Gaming Regulatory Act (25 
U.S.C.2719(b)(1)(B)) to the prohibition on gaming on land acquired by 
the Secretary in trust for the benefit of an Indian tribe after October 
17, 1988, under section 20(a) of that Act (25 U.S.C. 2719(a)).
    (2)  APPROVAL OF COMPACTS.--No compact for class III gaming shall 
be valid unless approved or ratified by the Virginia General Assembly.
    I commend the committee for giving its time and attention to the 
Thomasina E. Jordan Indian Tribes of Virginia Federal Recognition Act. 
I would like to especially thank House Natural Resources Chair Nick 
Rahall (D-WV) for his leadership on this important issue.
    I would also like to thank Representative Jim Moran (D-VA) for his 
years of work on behalf of the native peoples of Virginia and his 
testimony today. I am heartened by the bipartisan Virginia Delegation 
support for H.R. 1294 and thank Representatives Jo Ann Davis (R-VA), 
Tom Davis (R-VA), and Bobby Scott (D-VA) for their original 
cosponsorship of the legislation.
    I would also like to commend the other individuals testifying 
today: Helen Rountree, Jon Barton from the Council of Churches, Chief 
Stephen R. Adkins of the Chickahominy Indian Tribe, and Kenneth Branham 
of the Monacan Indian Nation. Thank you for your efforts.
    Last summer, during ceremonies commemorating the 400th anniversary 
of the settlement of Jamestown, the British government reaffirmed its 
recognition treaties with the modern Virginia Tribes. It is time for 
these Virginia native peoples to be recognized by their own country. 
Recognition of the Tribes of Virginia is long overdue.
    Congress has the power to recognize these Tribes. It has exercised 
this power in the past, and it should exercise this power again with 
respect to our Virginia Tribes during this momentous year. Indeed, our 
commemoration of the 400 years of modern Virginia history will be 
incomplete without successful Federal recognition of these Virginia 
Tribes.
    Thank you for the opportunity to submit testimony on this important 
issue. I welcome your efforts to finally right an historic wrong for 
Virginia and the Nation.
                                 ______
                                 
    Mr. Adkins. But Governor Kaine in his inaugural address 
pledged his strong support for the Federal recognition of the 
Virginia tribes. That remains paramount in his objectives 
during his administration.
    Chairman Rahall, we are in the midst of many events in 
Virginia. The United Kingdom and even across this nation 
commemorating the 400th anniversary of the founding of the 
first permanent English settlement in America at Jamestown in 
May 1607. Reflecting on some of the comments I heard today, 
perhaps our mistake was trusting people. Little did we know 
that this very settlement would mark the beginning of the 
diminution of a culture that we had enjoyed for many thousands 
of years.
    But that spirit of trust still caused us to remain part of 
that infrastructure that helped that first permanent English 
settlement at Jamestown thrive.
    During the anniversary weekend in Jamestown, May 11 through 
the 13th of this year, visitors from all over the world, 
including leaders representing the United States, England, 
Native Americans and African-Americans and others will gather, 
acknowledging the birth of this great Republic, the United 
States of America, which blossomed in Jamestown.
    In July 2006, a delegation of 54 tribal members 
representing the gender and age demographic of the six tribes 
that we are talking about today had the opportunity to visit 
the United Kingdom as part of its 2007 commemoration 
activities. For many of us, it was the very first time to visit 
St. George's Church at Gravesend, which, by the way, is the 
final resting place of Pocahontas, the daughter of Paramount 
Chief Powhatan, and who became the wife of Englishman John 
Rolfe.
    And for us, through the experience we know so well what has 
happened to our people since the days of Pocahontas, the 
connection we felt to both the congregation at St. George's and 
Pocahontas was very palpable, sir, very real. The English have 
paid honor and tribute to her in a manner that no member of her 
family or her descendants has ever received in this country. 
This feeling of respect and honor in the church through its 
living congregation suffused the entire Virginia Indian 
delegation.
    I would like to share with you the words from the plaque on 
the wall of St. George's. I believe from these words you can 
sense the very sincere regard that English people feel for 
Pocahontas, and I quote. ``This stone commemorates Princess 
Pocahontas or Metoak, daughter of the mighty American Indian 
Chief Powhatan, gentle and humane. She was the friend of the 
earliest struggling English colonists whom she nobly rescued, 
protected, and helped. On her conversion to Christianity in 
1613, she received in Baptism the name Rebecca, and shortly 
after she became the wife of John Rolfe, a settler in Virginia. 
She visited England with her husband in 1616, and was 
graciously received by Queen Anne. In the 22nd year of her age, 
she died at Gravesend preparing to revisit her native country, 
and was buried near this spot on March 21, 1617.''
    Sir, as descendants, we have not felt the honor here at 
home that those in England feel for Pocahontas and bestowed 
upon us. Through this visit to Gravesend we saw Pocahontas as 
more than the legend we live behind. We in fact saw her as the 
first to brave the new world that opened up with first contact 
by the English. We saw Pocahontas as one with whom we can 
identify, as a soul who today can still touch us and remind us 
of who we are, and remind us that we have a proud heritage.
    She is not a myth. She is still inside all of us. And her 
death and burial in England remind us of how far and 
challenging our path has been since she braved that voyage to 
England. It was a tremendous experience to step into that 
church and feel the love of the English congregation.
    I wish there was time today to tell the full story of what 
has happened to the Virginia tribes since Pocahontas visited 
England and the Court of Queen Anne. The story of Chief 
Powhatan and his daughter Pocahontas is well known across this 
land. As a matter of fact, her very picture is in this Capitol 
Building with her English husband, John Rolfe.
    But public school textbooks throughout Virginia in the past 
had scant mention of who we are. The fact that we were so 
prominent in early history, and then so callously denied our 
Indian heritage, is a story that most don't want to remember or 
recognize.
    I and those Chiefs with me here today stand on the 
shoulders of many others besides Pocahontas and Powhatan. One 
story that has always made me sad, and which brings in a 
different picture than the love we experienced in England, is 
that of the Paspahegh led by Chief Wowinchopunk, whose wife was 
captured and taken to Jamestown Fort and run through with a 
sword. His children were tossed overboard, and then their 
brains were shot out as they floundered in the water, and whose 
few remaining tribal members sought refuge with a nearby tribe, 
possibly the Chickahominy.
    With this horrific action in 1610, August 1610, a whole 
nation was annihilated. This was the Nation that befriended 
strangers, and ultimately died at the hands of those same 
strangers. As we commemorate Jamestown 2007 and the birth of 
our nation today, those of Indian heritage in Virginia are also 
reminded of this part of history.
    Let me tell you how we got here today. The six tribes in 
this bill gained state recognition in the Commonwealth of 
Virginia between 1983 and 1989. Although there were meager 
attempts to gain Federal acknowledgement by some of the tribes 
in the mid 20th century, our sovereignty movement began 
directly after the passage of a legislation acknowledging the 
attack on our heritage.
    In 1997 this legislation, sponsored by Governor George 
Allen, acknowledged the state action that attacked our 
heritage, but it couldn't fix the problem. The damage to our 
documented history had been done. In 1999 we came to Congress, 
where we were advised by the BAR, which is the Bureau of 
Acknowledgement and Research, which is now the Office of 
Federal Acknowledgement, but we were advised that many of us 
would not live long enough to see our petition go through the 
administrative process. We were advised by employees, by folks 
at the BIA, that that was the reality we faced.
    Sir, I will tell you that that prophecy has come through. I 
am sad to say that we have buried three of our Chiefs since 
then, three Chiefs who worked a large portion of their lives 
trying to help us gain Federal recognition through the BIA 
process.
    Given the realities of the OFA and the historical slights 
suffered by the Virginia Indian tribes over the last 400 years, 
the six tribes referenced in H.R. 1294 feel that our situation 
clearly distinguishes us as candidates for Congressional 
Federal recognition.
    On a personal note, I have been asked why I do not have a 
traditional Indian name, and the answer is quite simple. My 
parents weighed the risks of assigning me an Indian name, of 
giving me an Indian name, opposite the risks of going to jail 
for one year. And guess what won out? I don't have an Indian 
name.
    The documentary genocide the Virginia Indians suffered at 
the hands of Walter Ashby Plecker, a rabid white separatist who 
ruled over the Bureau of Vital Statistics in Virginia for 34 
years, from 1912 to 1946, was well documented in an article 
written by Peter Harding of the Richmond Times-Dispatch in 
2000. It was socially unacceptable to kill Indians outright, 
and I thank God for that. But Virginia Indians became fair game 
for Plecker, as he led efforts to eradicate all references to 
Indians on vital records, a practice, sir, that was supported 
by the state's establishment when the eugenics movement was 
endorsed by leading state universities, and was further 
supported when the state's legislature enacted the Racial 
Integrity Act in 1924, a law that stayed in effect until 1967, 
and caused my parents and many other couples to have to travel 
to Washington, D.C. on February 20, 1935, in order to be 
married as Indians. This vile law forced all segments of the 
population to be registered at birth in one of two categories: 
white or colored.
    Our anthropologist says there is no other state that 
attacked Indian identity as directly as the lost past during 
that period of time in history. No other ethnic community's 
heritage was denied in this way. Our state by law declared 
there were no Indians in the state in 1924, and if you dared to 
say differently, you went to jail or worse.
    The Racial Integrity Act stayed in effect for half of my 
life. Our parents lived in the heart of the Plecker years, and 
carried those scars to their graves.
    Chairman Rahall, the story I just recounted to you is very 
painful. Quite frankly, I do not like to tell that story. Many 
of my people will not discuss what I have shared with you, but 
I felt that you needed to understand recent history opposite 
the romanticized, inaccurate accounts of 17th century history. 
You needed to know these facts.
    The legislation sponsored by former Governor George Allen 
in 1997 acknowledged the aforementioned injustice. 
Unfortunately, while this legislation allowed those of the 
living generation to correct birth records, the legislation, 
the law has not and cannot undo the damage done by Plecker and 
his associates to my ancestors, who endured pain and 
humiliation, and things as disparate as trying to obtain 
marriage licenses or being inducted into the armed forces of 
the United States as Indian. Again, all of this was because of 
distorted, altered, incorrect records.
    So we are seeking recognition through an Act of Congress, 
rather than the BIA, because actions taken by the Commonwealth 
of Virginia during the 20th century erased our history by 
altering key documents as part of a systematic plan to deny our 
existence. This state action separates us from the other tribes 
in this country that were protected from this blatant denial of 
Indian heritage and identity.
    We are seeking recognition through Congress because this 
history of racism in very recent times intimidated the tribal 
people in Virginia, and prevented us from believing that we 
could fit into a petitioning process that would understand or 
reconcile this state action with our heritage. We feared the 
process would not be able to see beyond the corrupted 
documentation that was designed to deny our Indian heritage. 
Many of the elders in our community also feared, and for good 
reason, racial backlash if they tried.
    As Chiefs of our tribes, we have persevered in this process 
for one reason. We do not want our families or our tribes to 
let the legacy of Walter Plecker stand. We want the assistance 
of Congress to give the Indian communities in Virginia their 
freedom from a history that denied their Indian identity. 
Without acknowledgement of our identity, the harm of racism is 
the dominant history. We want our children and the next 
generation to have their Indian heritage honored, and to move 
past what we experienced, and our parents experienced.
    We, the leaders of the six Virginia Indian tribes, are 
seeking Congress, asking Congress to help us make history for 
the Indian people of Virginia, a history that would honor our 
ancestors who were there at the beginning of this great 
country. We want to experience the honor and love that we felt 
was still alive in the congregation at St. George's.
    After our visit to England, I truly believed that Federal 
recognition of Virginia Indian tribes during the year of the 
400th commemoration will make a significant difference. It will 
reconcile history in this country between two cultures in a way 
that honors our history of learning to live together in peace 
and in love. This is what I want for our people and for our 
nation.
    Our decision to honor Pocahontas at her grave has 
strengthened our resolve to obtain Federal acknowledgement. It 
has made us understand that we deserve to be on a level playing 
field with the other 562-odd tribes who are Federally 
acknowledged. It has made us unwilling to accept being 
discriminated against because of both a historical oversight 
and the concerted efforts of our commonwealth to deny to us our 
rightful heritage.
    The aforementioned visit, invitation to visit England was 
not easy to give, not easy for us to accept.
    The Chairman. Chief, I am going to have to ask you to start 
wrapping up.
    Mr. Adkins. All right, sir. This year the Virginia tribes 
are part of the 400th commemoration of Jamestown. This year, 
with Jamestown expected to be visited by the Queen of England 
and the President of the United States, the Virginia tribes 
will have a much deeper understanding of who we are, fueled in 
part by our learning gained from our trip to England, and in 
our involvement in researching the truth about the 
underpinnings of the first permanent English settlement at 
Jamestown, and what our contribution meant to its success.
    We believe it is time for the U.S. Congress to stand 
alongside us and grant us the recognition we deserve, as we 
commemorate the birth of the greatest nation in the world. Yes, 
it is essential for Virginia's indigenous peoples to receive 
that honor in this significant year in the history of the 
Commonwealth of Virginia, the history of the United States of 
America, the history of the world, and then the history of 
indigenous peoples around the globe.
    I implore you to pass the Thomasina E. Jordan Indian Tribes 
of Virginia Federal Recognition Act of 2007.
    Thank you, Chairman Rahall, and thank you for being the 
friend that you have been to our people.
    [The prepared statement of Mr. Adkins follows:]

                 Statement of Chief Stephen R. Adkins, 
                       Chickahominy Indian Tribe

    Thank you Chairman Rahall and other distinguished members of this 
committee for inviting me here today to speak on House Bill 1294 which 
is pending before your Committee. The bill, introduced by Congressman 
Jim Moran is titled the Thomasina E. Jordan Indian Tribes of Virginia 
Federal Recognition Act of 2007--H.R. 1294. A hearing on our Federal 
Recognition bill was held by this committee in 2002. I am proud to 
appear before this Congressional Committee today on behalf of the six 
Tribes named in H.R. 1294 the Eastern Chickahominy, the Monacan, the 
Nansemond, the Upper Mattaponi, the Rappahannock, and my Tribe the 
Chickahominy. As part of the record today I am submitting the statement 
from our current Governor, Timothy Kaine, who in his inaugural address 
pledged his strong support for Federal Recognition of the Virginia 
Tribes. Beside me today is Dr. Helen Rountree, a renowned 
anthropologist specializing in the heritage of the Virginia Tribes, who 
worked on the petitions we filed with the BIA, and is prepared to 
assist with any questions you may have about our history. Also, with me 
today is Rev. Jon Barton from the Virginia Council of Churches who has 
worked tirelessly on our effort to gain Federal Recognition and Chief 
Ken Branham of the Monacan Indian Nation.
    Chairman Rahall, I am sure you are well aware of the events 
occurring this year in Virginia and the United Kingdom commemorating 
the 400th anniversary of the first permanent English Settlement in 
America in May 1607 The settlement became known as Jamestown and is 
located on the James River in Tidewater Virginia. On Anniversary 
Weekend at Jamestown, May 11-13, 2007, visitors from all over the world 
including leaders representing the United States Government, England, 
Native Americans and African Americans et al will gather acknowledging 
the birth of this Great Republic, the United States of America, which 
blossomed at Jamestown. In July 2006 a delegation of 54 tribal members 
representing the gender and age demographics of the Tribes recognized 
by the Commonwealth of Virginia had the opportunity to visit the United 
Kingdom as part of its 2007 Commemoration Activities. For many of us it 
was a first time visit to St Georges Church at Gravesend, the final 
resting place of Pocahontas, the daughter of Paramount Chief Powhatan 
and the wife of John Rolfe. History tells us that Pocahontas died when 
she returned with John Rolfe to England in 1616.
    The impact of our experience in Gravesend is something I want to 
share with you because it was beyond what any of us could have possibly 
imagined. The congregation of St. Georges Church brought home to us, 
the very real connection the English people feel with our heritage. And 
for us, who have experienced and know so well what has happened to our 
people since the days of Pocahontas, the connection we felt to both the 
congregation and Pocahontas was palpable and real. The English have 
paid honor and tribute to her in a manner that no member of her family 
or her descendants has ever received in this country. This feeling of 
respect and honor in the church through its living congregation 
suffused the entire Virginia Indian Delegation. But to my utter 
amazement, this attitude of honor and respect transcended the spiritual 
and emotional service within the church and was extended to us in every 
venue we attended from Kent University, to Kent County Council to the 
House of Commons and the House of Lords. If you would indulge me, I 
would like to share with you the words from a plaque which hangs on a 
wall of St. Georges Church I believe from these words you can sense the 
very sincere regard English people feel for Pocahontas. ``This stone 
commemorates Princess Pocahontas or Metoak daughter of the mighty 
American Indian Chief Powhatan. Gentle and humane, she was the friend 
of the earliest struggling English colonists whom she nobly rescued, 
protected, and helped. On her Conversion to Christianity in 1613, she 
received in Baptism the name Rebecca, and shortly afterwards became the 
wife of John Rolfe, a settler in Virginia. She visited England with her 
husband in 1616, was graciously received by Queen Anne wife of James I. 
In the twenty second year of her age she died at Gravesend preparing to 
revisit her native country and was buried near this spot on March 21st 
1617.
    I believe for our people to go back to England and be embraced by 
this church congregation was a significant reconciliation and healing. 
As descendants, we have not felt the honor here at home that those in 
England both feel for Pocahontas and bestowed upon us. Through this 
visit to Gravesend, we saw Pocahontas as more than the legend we live 
behind, we saw her as the first to brave the new world that opened up 
with first contact by the English. We saw Pocahontas as one with whom 
we can identify, as a soul who today can still touch us, and remind us 
of whom we are and remind us that we have a proud heritage. She is not 
a myth for she is still inside all of us, and her death and burial in 
England, remind us of how far and challenging our path has been since 
she braved that voyage to England. She was brave and she was alone. It 
was a tremendous experience to step into that church and feel the love 
of that English congregation. Appropriately, the St. George's Church 
Guide, contains this prayer:
    May your Church, Lord, be a light to the nations, the sign and 
source of your power to unite all men. May she lead mankind to the 
mystery of your love? Amen
    I could tell you the much publicized story of the 17th Century 
Virginia Indians, but you, like most Americans, know our first contact 
history. I wish there was time today to tell the full story of what has 
happened to the Virginia Tribes since Pocahontas went to England to the 
Court of Queen Ann. The story of Chief Powhatan and his daughter 
Pocahontas is well known across this land, her picture being in this 
very capitol building with her English husband John Rolfe. But what 
about our story, for years the Commonwealth of Virginia did not care 
about our story? Our public school textbooks had scant mention of who 
we are. So, what do you know or what does mainstream America know about 
what happened in those years between the 17th century and today. The 
fact that we were so prominent in early history and then so callously 
denied our Indian heritage is the story that most don't want to 
remember or recognize. This year we, the Virginia Indian Tribes, are a 
part of the commemoration of Jamestown. This year, 2007, when Jamestown 
is expected to be visited by the Queen of England and the President of 
the United States, the Virginia Tribes will have a much deeper 
understanding of who we are, fueled in part by our learning gained from 
our trip to England and in our involvement in researching the truth 
about the underpinnings of the first permanent English Settlement at 
Jamestown and, finally, what our contributions meant to its success. 
Our connection to Pocahontas and, by extension, to England must come 
full circle and extend to the Congress of the United States of America. 
We must feel the same honor and love from leaders of the United States 
of America as we do from the people from England with whom our last 
treaty was signed in 1677.
    I and those Chiefs here with me, stand on the shoulders of many 
others besides Pocahontas and Powhatan. One story that has always made 
me sad, and which brings in a different picture than the love we 
experienced in England, is that of the Paspahegh led by Chief 
Wowinchopunk whose wife was captured and taken to Jamestown Fort and 
``run through'' with a sword, whose children were tossed overboard and 
then their brains were ``shot out'' as they floundered in the water, 
and whose few remaining tribal members sought refuge with a nearby 
tribe, possibly the Chickahominy. With this horrific action in August 
1610, a whole Nation was annihilated. A Nation who befriended strangers 
and ultimately died at the hands of those same strangers. As we 
commemorate Jamestown 2007 and the birth of our Nation today, those of 
Indian heritage in Virginia are also reminded of this history.
    We are seeking recognition through an act of congress rather than 
the BIA because actions taken by the Commonwealth of Virginia during 
the 20th Century erased our history by altering key documents as part 
of a systematic plan to deny our existence. This state action separates 
us from the other tribes in this country that were protected from this 
blatant denial of Indian heritage and identity. The documentary 
genocide the Virginia Indians suffered at the hands of Walter Ashby 
Plecker, a rabid white separatist, who ruled over the Bureau of Vital 
Statistics in Virginia for 34 years, from 1912 to 1946 was well 
documented in an Article written by Peter Hardin of the Richmond Times 
Dispatch in 2000. Although socially unacceptable to kill Indians 
outright, Virginia Indians became fair game to Plecker as he led 
efforts to eradicate all references to Indians on Vital Records. A 
practice that was supported by the state's establishment when the 
eugenics movement was endorsed by leading State Universities and was 
further supported when the State's legislature enacted the Racial 
Integrity Act in 1924. A law that stayed in effect until 1967 and 
caused my parents to have to travel to Washington D.C. on February 20, 
1935 in order to be married as Indians. This vile law forced all 
segments of the population to be registered at birth in one of two 
categories, white or colored. Our anthropologist says there is no other 
state that attacked Indian identity as directly as the laws passed 
during that period of time in Virginia. No other ethnic community's 
heritage was denied in this way. Our state, by law, declared there were 
no Indians in the State in 1924, and if you dared to say differently, 
you went to jail or worse. That law stayed in effect half of my life.
    I have been asked why I do not have a traditional Indian name. 
Quite simply my parents, as did many other native parents, weighed the 
risks and decided it was not worth the risk of going to jail.
    Former Senator George Allen as Governor of the Commonwealth of 
Virginia sponsored legislation in 1997 acknowledging the injustice of 
the Racial Integrity Act. Unfortunately, while this legislation allows 
those of the living generations to correct birth records, the 
legislation or law has not and cannot undo the damage done by Plecker 
and his associates to my ancestors who endured pain and humiliation in 
venues disparate as trying to obtain marriage licenses to being 
inducted into the Armed Forces as Indian, all because of these 
distorted, altered, incorrect records.
    We are seeking recognition through Congress because this history of 
racism, in very recent times, intimidated the tribal people in Virginia 
and prevented us from believing that we could fit into a petitioning 
process that would understand or reconcile this state action with our 
heritage. We feared the process would not be able to see beyond the 
corrupted documentation that was designed to deny our Indian heritage. 
Many of the elders in our community also feared, and for good reason, 
racial backlash if they tried.
    My father and his peers lived in the heart of the Plecker years and 
carried those scars to their graves. When I approached my father and 
his peers regarding our need for state or federal recognition they 
pushed back very strongly. In unison they said. ``Let sleeping dogs lie 
and do not rock the boat''. Their fears of reprisal against those folks 
who had risked marrying in Virginia and whose birth records accurately 
reflected their identity outweighed their desire to openly pursue any 
form of recognition. Those fears were not unfounded because the threat 
of fines or jail time was very real to modern Virginia Indians.
    Chairman Rahall, the story I just recounted to you is very painful 
and I do not like to tell that story. Many of my people will not 
discuss what I have shared with you but I felt you needed to understand 
recent history opposite the romanticized, inaccurate accounts of 17th 
century history.
    Let me tell you how we got here today. The six tribes on this bill 
gained State Recognition in the Commonwealth of Virginia between 1983 
and1989. The legislation of 1997 placed the burden of cost to correct 
the inaccurate vital records on the Commonwealth of Virginia Governor, 
but it couldn't fix the problem--the damage to our documented history 
had been done. Although there were meager attempts to gain federal 
acknowledgement by some of the tribes in the mid 20th century, our 
current sovereignty movement began directly after the enactment of the 
aforementioned legislation acknowledging the attack on our heritage. In 
1999 we came to Congress when we were advised by the BAR (Bureau of 
Acknowledgement and Research) now OFA (Office of Federal 
Acknowledgement) that many of us would not live long enough to see our 
petition go through the administrative process. A prophecy that has 
come true. We have buried three of our chiefs since then.
    Given the realities of the OFA and the historical slights suffered 
by the Virginia Indian Tribes for the last 400 years, the six tribes 
referenced in H.R. 1294 feel that our situation clearly distinguishes 
us as candidates for Congressional Federal recognition.
    As Chiefs of our tribes we have persevered in this process for one 
reason. We do not want our families or our tribes to let the legacy of 
Walter Plecker stand. We want the assistance of Congress to give the 
Indian Communities in Virginia, their freedom from a history that 
denied their Indian identity. Without acknowledgement of our identity, 
the harm of racism is the dominant history. We want our children and 
the next generation, to have their Indian Heritage honored and to move 
past what we experienced and our parents experienced. We, the leaders 
of the six Virginia Tribes, are asking Congress to help us make history 
for the Indian people of Virginia, a history that honors our ancestors 
who were there at the beginning of this great country. We want to 
experience the honor and love that we felt was still alive in the 
congregation at St. Georges. After our visit to England I truly believe 
the Federal Recognition of the Virginia Indian Tribes during the year 
of the 400th commemoration will make a significant difference. It will 
reconcile history in this country between two cultures in a way that 
honors our history of learning to live together in peace and in love. 
That is what we want for our people and for our nation. The acceptance 
of the invitation to visit England to share our culture and history to 
describe our contemporary lifestyles as both contributors to the 
American way of life and aspirants to the American Dream and our 
decision to honor Pocahontas at her grave has strengthened our resolve 
to obtain federal acknowledgement. It has made us understand that we 
deserve to be on a level playing field with the other 562 odd tribes 
who are federally acknowledged. It has made us unwilling to accept 
being discriminated against because of both a historical oversight and 
the concerted efforts of our Commonwealth to deny to us our rightful 
heritage. The aforementioned invitation to visit England was not easy 
for us to accept. We did not know what to expect, and we were 
apprehensive. From an overall perspective this visit was destined to be 
for it brought us into the history we commemorate at Jamestown in a 
very positive palpable way.
    The Commonwealth of Virginia has taken definitive actions to right 
the wrongs inflicted upon its indigenous peoples and stands with us 
today as we commemorate the founding of the first permanent English 
Settlement 400 years ago on the banks of the James River at Jamestown, 
Virginia. We believe it is time for the United States Congress to stand 
alongside us and grant us the Recognition we deserve as we commemorate 
the birth of the greatest Nation in the world. Yes, it essential for 
Virginia's Indigenous Peoples to receive that honor in this significant 
year in the history of the Commonwealth of Virginia, the history of the 
United States of America, the history of the world and in the history 
of Indigenous Peoples around the Globe.
    Thank you for allowing me to address you on behalf of the six 
tribes in H.R. 1294.
                                 ______
                                 
    The Chairman. Mr. Branham.

  STATEMENT OF KENNETH BRANHAM, CHIEF, MONACAN INDIAN NATION, 
                   MADISON HEIGHTS, VIRGINIA

    Mr. Branham. Chairman Rahall and Members of the Committee, 
my name is Kenneth Branham. I am the Chief of the Monacan 
people. And as Chief, Steve Adkins just mentioned we will be at 
a lot of the Jamestown commemoration events this year in 2007.
    We are not part of the Powhatan confederation, so we are a 
little bit different than the Powhatans. The major difference 
was the language. They spoke Algonquin, we spoke a Siouan 
dialect. Our boundaries with the Powhatan Indians were the fall 
lines of the James River, just above Richmond, and we were the 
most western part of the state, the Piedmont area of Virginia. 
We were the only tribe from that region of the state that is 
state recognized today. And we were the last to be state 
recognized in 1989.
    The Monacan people lived off the land, hunting, fishing, 
and gardening small crops like corn, beans, squash. Our 
villages were located on flood plains of the rivers that ran 
through our land. The villages ranged anywhere from 30 to 40 
people, to maybe as many as three or 400, depending on the lay 
of the land and the natural resources there.
    The people in our tribe avoided the European contact. We 
didn't come in contact with the first Englishmen until 1608. 
And because we had people in our tribe that had prophesied that 
there would come a people from beneath the world to take our 
world away. If you think about it and look back, truer words 
have never been spoken.
    But the way that we lived, trading with each other, it 
wasn't long before trade goods from the new people started 
showing up in our villages. Although they made life a little 
easier, tasks a little easier, they also brought along 
different types of hardships: European diseases and things of 
that sort.
    The Powhatan Indians helped the European people to survive. 
But once they learned how to survive, plant the crops that were 
needed to grow in this area, their thinking toward the Indian 
people changed. And of course, more and more kept coming; and 
as they came, more and more land was needed. So the Indian 
people were eventually put on reservations, where they could 
not speak their language, practice their religion. And even 
today, without Federal recognition, a lot of our religion 
ceremonies can't be taught or used because we need special 
things to do those that we cannot have because we are not 
Federally recognized tribes.
    The Monacan people did whatever they could to survive and 
stay out of the onrush of the newcomers into our land. The next 
400 years, the Monacans, like other Virginia Indians, suffered 
many injustices. The Treaty of 1677 was signed by the Chief of 
the Monacans, Chief Shuwanoff, and the other Chiefs of the 
Powhatan Confederation, and things got better for a short 
period, and again went back to the old ways of taking land, 
treaties being broken, and those type things.
    The most devastating thing to happen to the Virginia 
Indians were the Racial Integrity Law of 1924. Walter Plecker, 
who was in charge of vital statistics in Virginia for over 30 
years, systematically went about changing records, death 
records, birth records, and in some cases destroying these 
records; anything that we had on there claiming to be Indian.
    In Amherst County, Walter Plecker had what we called the 
Walter Plecker hit list, with names like Branham, Johns, 
Adcock, Hicks, Clarks, Red Cross. These were Indian names, and 
he said that these people were claiming to be Indian, but were 
not. And anybody that would give them documentation stating 
that they were Indians could be fined or even lose their jobs. 
So it was forced, with a great deal of strength.
    Our mother and father and a lot of other Monacan people who 
got married actually went out of state to get married, to get 
away from the classification of being called colored. And that 
was a common practice. In my family, I am the oldest of four 
children, each one of us had a different race stated on our 
birth certificate, from colored to black to mulatto, and to a 
circle with a line drawn through it. We joked around with my 
sister and said that must have been she was orange or something 
or other.
    Our people in Virginia were denied a high school education. 
The Monacans, up until 1962, along with the other Virginia 
tribes, were not allowed at public schools. I am the first in 
my family to attend high school, and graduated in 1972.
    In 1961, the year before myself and five other Monacan kids 
were paraded in front of the school board--they wanted to see 
what we looked like. I guess they were looking for two heads or 
something or other. But anyway, the following year, 35 Monacan 
kids were allowed in the public schools. The remaining 45 
Monacan students were allowed in public schools the following 
year, closing the Indian school there at our church for good. 
In 1972 I became one of the first four to graduate from Amherst 
High School.
    I believe that Walter Plecker knew the sure way to 
eliminate Indian people were to keep them uneducated. And that 
is how you keep anybody down is to keep them uneducated.
    Federal recognition would give our elders the benefits that 
they need for proper healthcare. Our young people would be, 
doors would be opened that we can only dream of now for 
scholarships for education. Better healthcare, better housing, 
retrieving our ancestral remains, which is often overlooked, 
but the laws forbid us to retrieve our Federal ancestral 
remains, which we feel very strongly about.
    In June of 2006, eight Monacans went with the other 50-some 
Indians to England to celebrate the commemoration of Jamestown. 
We were very proud to be a part of this. It was difficult for 
our people to participate in events that are significant dates 
in American history, when our own heritage is denied. The 
Monacan people hosted, was the host tribe at Monticello, the 
home of Thomas Jefferson, for the kick-off of the Lewis and 
Clark Expedition. In this role, we were the only tribe asked to 
perform at the White House. Shortly before the occasion, our 
heritage was questioned by the Park Service when they realized 
we were not on the list of Federally recognized tribes.
    As Virginia tribes, we have played a significant role in 
the history of this nation, but we are constantly reminded of 
the legacy of the Plecker era. The Racial Integrity Act denied 
our identity.
    I have lived through this period of Virginia history. I 
want the next generation to be free from this legacy. Now is 
the time for the Congress to give Virginia Indians Federal 
recognition, which would restore that respect and dignity. 
Indian people in Virginia are proud of our heritage and 
culture, though some of it has been lost by the injustice 
bestowed upon them.
    My generation feels that it is our responsibility to teach 
our young people to be strong in their culture, and to stand up 
for their rights. And it is their rights to be proud of who 
they are.
    So I ask you and the other Members of the House to pass 
this Federal recognition bill so we can go on with our lives in 
a manner that we feel we should be able to do. Thank you.
    [The prepared statement of Mr. Branham follows:]

       Statement of Chief Kenneth Branham, Monacan Indian Nation

    Chairman Rahall and other distinguished members of this Committee:
    My name is Kenneth Branham, the Chief of the Monacan people. I 
would like to thank you for allowing me to speak today on behalf of the 
six Virginia Tribes that are seeking Federal Recognition. The Monacan 
people who live in the western part of the state have been living there 
for thousands of years. The Monacans survived by living off the land, 
hunting fishing, and raising gardens of corn, beans, and squashes. Our 
villages were located on the flood plains of the rivers that ran 
through our land. The villages ranged from as few as 30 to 40 people 
but in some cases several hundred people would make up the villages or 
towns. We had our own government and religion and we lived in peace 
with the other Tribes around us.
    In 1608 the Monacan people made contact with a new people from 
across the water, the first Englishmen. We had people in our Tribe that 
had prophesied of this strange group of people that would come to take 
our world away. Therefore, we tried to avoid contact with the new 
people. The Monacans like most Tribes traded with other groups of 
people and some began to get trade goods from the Powhatan Indians that 
came from the English. The new people were taught how to survive in 
this new land by the Indian people. When they could survive, things 
began to change. Increasingly people came and more and more land was 
needed to raise their crops, therefore, the Indian people were removed 
from their land for the new people. With the trade goods that made life 
easier also came European diseases that killed a lot of the Native 
people. Because of this, it was not too long before Virginia Indians 
were outnumbered and at the mercy of the English. Our land was taken 
and the people were put on reservations, and our religion and languages 
were forbidden to be used.
    The Monacans moved back into the mountains of Amherst County where 
the Monacan headquarters are located to this day. The Monacans did 
whatever they could to survive and stay out of the way of the rush of 
the newcomers into our land. For the next 350 years, the Monacans like 
the other Virginia Indians suffered many injustices. The Monacans as 
did the Powhatan Indians had a treaty with England and is still to this 
day recognized as a sovereign people by the English Government. The 
main treaty was the Middle Plantation Treaty of 1677 where our Chief 
signed along with Chiefs from the Powhatan Confederacy.
    One of the most devastating things to happen to the Virginia 
Indians was a law that was past in 1924 called the Racial Integrity 
Law. Mr. Walter Plecker who was head of Vital Statistics in Virginia 
From 1912 to 1948 was instrumental in getting this law passed. He went 
about systematically changing records of certain people pertaining to 
their race. His belief was that there were no Indians in Virginia and 
this new law stated that you were either white or colored. In Amherst 
Co. Mr. Plecker had a hit list, which stated names like Branham, Johns, 
Adcocks, and Hicks were not Indian people. However, in reality these 
were the major names of the Monacan Indian Tribe. He tampered with 
birth certificates and my family is living proof of that. I have three 
younger sisters who have the same mother and father and each one of us 
had a different race classification on our birth certificates. This was 
not uncommon for Virginia Indians.
    Our people would go outside of Virginia in order to be married and 
our people were not allowed in public schools until 1962. The Monacans 
and some of the other Tribes in Va. did have Indian Schools. The 
Monacans had a mission school that was operated by the local churches; 
however, your educational status was limited to a maximum of the sixth 
grade. I am 53 years old and I attended the mission school until I was 
in the third grade at which time after being paraded in front of the 
school board 35 Monacan children and I were allowed into public 
schools. The following year 45 remaining Monacan students were also 
allowed in public schools. However, the injustices and racial 
prejudices did not stop there. In 1972 the first four students 
graduated from Amherst High School. Many children did not graduate 
because of the racial tensions that they endured each day. I believe 
that Mr. Plecker knew that a sure way to annihilate Indian people was 
to keep them uneducated.
    We have fought hard to gain education for our children and Federal 
Recognition would give our children opportunities that they have not 
been afforded. Federal Recognition would also give our elders the 
benefits they need for proper health care. Our elders have suffered the 
hardships that Walter Plecker's actions burdened them with in order to 
live and I feel it is our duty to right this wrong. Our people need 
this federal recognition for education, health benefits, better 
housing, and retrieving ancestral remains for reburial. In July 2006 54 
Indian people from the Virginia Tribes traveled to England to be part 
of the 400th year commemoration of Jamestown. The Virginia Indians were 
treated with such respect and dignity and England recognized our 
sovereignty and honor our Treaty of 1677. It is very difficult for our 
people to participate in events commemorating significant dates in 
American history when our own heritage is denied. The Monacan Tribe was 
the host Tribe at Monticello the home of Thomas Jefferson for the kick 
off of the Lewis and Clark Expedition. In this role we were the only 
Tribe asked to perform at the White House. Shortly before that occasion 
our heritage was questioned by the Park Service when they realized that 
we were not on the list of Federally Recognized Tribes.
    As Virginian Tribes, we have played a significant role in the 
history of this Nation, but we are constantly reminded of the legacy of 
the Plecker era. The Racial Integrity Act denied our identity. I have 
lived through that period of Virginia history. I want the next 
generation to be free from that legacy. Now is the time for you to give 
Virginia Indians Federal Recognition which would restore their respect 
and dignity. Indian people in Va. are proud of their heritage and 
culture although some of it has been lost by the injustices bestowed 
upon them. My generation feels that it is our responsibility to teach 
our young people to be strong in their culture and to stand up for 
their rights. And it is their right to be proud of whom they are.
                                 ______
                                 
    The Chairman. Thank you. Mr. Barton.

    STATEMENT OF REV. JONATHAN M. BARTON, GENERAL MINISTER, 
     VIRGINIA COUNCIL OF CHURCHES, INC., RICHMOND, VIRGINIA

    Mr. Barton. Good afternoon, Chairman Rahall. I, too, would 
like to thank you for your comments at the opening. We in 
Virginia appreciate the prayers and thoughts as we work through 
Monday's events.
    I would also like to thank the elders and leaders of the 
Virginia tribes that are here for the opportunity to speak 
today, and to provide another voice and witness on behalf of 
the Virginia tribes.
    My name is Jonathan Barton, and I do serve as the General 
Minister for the Virginia Council for Churches. I would ask 
your permission to include my previous testimonies from 2002 
and 2006, and to revise and extend my comments.
    I would like to express my deep appreciation to the members 
of the six tribes present here today for inviting the council 
to stand with them in their request for Federal 
acknowledgement. And we do stand solidly with our tribes today 
in support of H.R. 1294.
    The Virginia Council of Churches is the combined witness of 
37 governing bodies of 18 different Catholic, Orthodox, and 
Protestant denominations within the Commonwealth. And during 
our 63-year history, we have an established record for justice, 
fairness, and dignity for all people. And we stand here today 
grounded in our faith and in our history and our values.
    Our faith means living not just by our feelings, but by our 
commitments. The assurance of things hoped for is often less 
about when a hoped-for dream becomes a reality than why that 
dream must become a reality.
    The conviction of things not seen isn't always even about 
how it will come to pass, but rather, why it deserves our 
energies and our efforts in the first place.
    We hold fast in our faith that the Virginia tribes will be 
recognized by our Congress, because we have the assurance in 
the rightness of it, and we have the conviction necessary to 
see it through.
    Four hundred years ago this month, when Christopher Newport 
sailed into the Chesapeake Bay, a relationship began between 
the Church and Virginia's indigenous people. There is little 
doubt in the historical record that one of the main purposes of 
Jamestown was to establish the Church in Virginia. And this 
relationship continues today.
    In 1999, both our Chambers in the Virginia General Assembly 
agreed to House Joint Resolution 754, urging Congress to grant 
Federal recognition to Virginia's tribes. They further 
admonished the delegation in Congress to take all necessary 
steps forthwith to advance it.
    Five years ago, I testified before this committee, and 
before the Senate Committee on Indian Affairs. At that time, 
Senator Ben Nighthorse Campbell made the comment, ``You know, 
Reverend Barton, the Indians and the Church have not always 
gotten along very well.''
    The Church has much to repent for in many of our early 
missionary efforts, and my presence here today represents a 
desire to repent for some of those past sins. The Reverend 
Robert Hunt and others of the early 1600s failed to find the 
image of God in these native people that they encountered. 
These early settlers were blinded by a doctrine of discovery, 
giving them the sense of divine calling and the right to do 
whatever they wished. They believed that in order to be a 
Christian, Indians needed to look, live, speak with an English 
accent. And even though the missionaries were excessively 
zealous, the scripture that they eventually brought provided 
the strength to many of these tribes and these people to endure 
over four centuries of oppression and discrimination. Thank 
goodness we have come a long way since those days.
    During that same hearing, I was also asked about concerns 
the council might have regarding gaming. I would like to thank 
and acknowledge Congressman Frank Wolf for his support of the 
tribes and his desire to see them recognized. I also appreciate 
his vigilance in gaming issue, because the Council of Churches, 
as do these tribes, share his concern about gaming.
    But we also, even though we stand in strong opposition and 
have always stood against all forms of gaming as the Council of 
Churches, believe that you cannot and should not deny 
recognition that is long overdue today because somebody, 
sometime, some part far off in the future may change their mind 
and do something that cannot be held against our tribes today.
    In Virginia, Council of Churches and my strong conviction 
that if gaming comes to Virginia, it will not be the 
responsibility of the Virginia tribes. This is still our 
conviction; that was my testimony five years ago.
    I have been blessed to know and to work with each of these 
Chiefs in the Virginia tribes, and I know them to be persons of 
great integrity and moral courage. Each brings a very strong 
sense of leadership to their tribes, and each brings a unique 
and special gift. They all share a common respect for their 
past, and a vision for their future.
    America's 400th anniversary is underway. The Queen will be 
here in two weeks. International guests and visitors are 
arriving every week. It is vital that we show the world that 
Virginia's people, the people who have lived here for 1,000 
generations, and who greeted the English as they landed in 
1607, still exist today. We need to recognize them. As we 
approach these public observances, we are called to review our 
complete history, to reflect upon it and to act as a people of 
faith, mindful of all of the significance of 1607. For what 
represented newness and hope and opportunity for some was the 
occasion of oppression, degradation, and genocide for others.
    For the Church, this is not just a time of celebration but 
a time of a committed plan of action ensuring that this kairos 
moment in history not continue to cosmetically coat the painful 
aspects of our American history of racism. These six tribes, as 
they stand before you today, ask only that you honor their 
being, honor their contributions to our shared history, honor 
their ancestors by acknowledging that they exist. This simple 
request is vital to healing the broken circle, broken when 
cultures collided, forever changing the history of this world.
    It is about the present, the recognition that despite the 
journey they have traveled, they have survived and are still 
here. It is about taking their proper place among the other 
tribes that are recognized by this government. It is about a 
hope that future generations may experience the fullness of 
life intended by their forebears and their Creator. Let us mend 
the circle so that we may move forward into that future.
    Let me close with the words from one of the songs that was 
created for our special anniversary celebrations, created and 
recorded by the Anniversary Voices for the Jamestown 
observance. Titled, ``Remember the Many.''
    ``We have been here for more than 10,000 years, and will be 
here for 10,000 more. Stand where I am standing. Take a look at 
my view. How should I feel? I was here before you. The time has 
arrived, recognition is due. Remember the many who have become 
the few.''
    The member Communions of the Virginia Council of Churches 
strongly encourage you to remember the few, and recognize our 
tribes in Virginia with the passage of H.R. 1294.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Barton follows:]

             Statement of The Reverend Jonathan M. Barton, 
             General Minister, Virginia Council of Churches

    Chairman Rahall, members of the House Committee on Natural 
Resources, Congressman Moran, Congressman Wolf, tribal leaders from the 
Virginia Tribes, thank you for the opportunity to speak here today. My 
name is Jonathan Barton and I serve as the General Minister for the 
Virginia Council of Churches. I ask your permission to include my 
previous testimony and to revise and extend my comments. I would like 
to express my deep appreciation to the members of Virginia's six tribes 
present here today for inviting the Council to stand with them in their 
request for Federal Acknowledgement. We stand with the Virginia tribes 
today in solid support of H.R. 1294, the ``Thomasina E. Jordan Indian 
Tribes of Virginia Federal Recognition Act of 2007,''
    The Virginia Council of Churches, established in 1944, is the 
combined witness of 37 governing bodies of 18 different Catholic, 
Orthodox, and Protestant denominations located within the Commonwealth 
of Virginia. A list of our member denominations is appended to my 
written comments. During our 63-year history, we have an established 
record for fairness, justice, and the dignity of all peoples. We stand 
here today in grounded faith, in our history and values. Faith means 
living not by our feelings but by our commitments. The assurance of 
things hoped for is often less about when a hoped-for dream becomes a 
reality than why that dream must become reality. The conviction of 
things not seen isn't always about when or even how it will come to 
pass but rather why it deserves our energies in the first place. We 
hold fast to our faith that our Virginia Tribes will be recognized by 
Congress because we have assurance in the rightness of it and have the 
conviction necessary to see it through.
    Four hundred years ago this month when Captain Christopher Newport 
sailed into the Chesapeake Bay, a relationship between the church and 
Virginia's Indigenous People began. There is little doubt in the 
historical record that one of the purposes of Jamestown was to 
establish the church in Virginia, this relationship continues today.
    In 1999 both chambers of the Virginia General Assembly agreed to 
House Joint Resolution 754 urging Congress to grant Federal Recognition 
to the Virginia Tribes. Our legislature asked the state's delegation in 
Congress ``to take all necessary steps forthwith to advance it.'' Five 
years ago when I testified before this Committee and the Senate 
Committee on Indian Affairs, Senator Ben ``Nighthorse'' Campbell made 
the comment: ``You know Rev. Barton, the Indians and the church have 
not always gotten along very well.'' The church has much to repent in 
our early missionary efforts. My presence here today represents a 
desire to repent for past sins. The Rev. Robert Hunt and others of the 
early 1600s failed to find the Image of God in the native people they 
encountered. They believed that in order to be a Christian, they needed 
to look, live, and speak with an English accent. Even though the 
missionaries were excessively zealous, the scriptures they brought with 
them eventually provided the strength for these tribes to endure four 
centuries of oppression and discrimination. We have come a long way 
together since those early days. During that same hearing Senator Allen 
asked me about concerns the Council may have regarding gaming. At that 
time I stated the Council's opposition to all forms of gaming and our 
conviction that if gaming comes to Virginia it will not be the Virginia 
Tribes who are the ones to introduce it. This is still our strong 
conviction today.
    The cultural landscape is similar with each of the Virginia tribes. 
As you enter their land, you find the church, the school and the Tribal 
Circle. As you approach the Circle you can hear the sounds of the 
Tribal Drum, you can feel the heartbeat of life move through your body, 
declaring you are on sacred ground. It is here where the tribal 
community is grounded. You must listen to the sound of the drum of the 
past, so that you can sing in the present and dance into the future. 
Here is where the faith and traditions of the Elders are passed to new 
generations.
    It has been a blessing for me to know and work with each of the 
chiefs of our Virginia tribes. I know them to be persons of great 
integrity and moral courage. Each brings strong leadership to their 
tribes. Each brings unique and special gifts, and they all share a 
common respect for their past and vision for the future.
    America's 400th Anniversary Commemorations are now center stage 
with special events drawing international guests and visitors every 
week. It is vital that we show the world that Virginia's Indigenous 
People, who have lived on this land for a thousand generations, and who 
greeted the English as they landed in 1607, still exist today. We need 
to recognize them, as we approach these public observances marking the 
400th Commemoration of the first permanent English Settlement at 
Jamestown. We are called to review our complete history, reflect upon 
it, and act as a people of faith mindful of the significance of 1607. 
The people in our churches and communities now look at the significance 
of these events differently. What represented newness of hope and 
opportunity for some was the occasion for oppression, degradation, and 
genocide for others. For the church this is not just a time for 
celebration but a time for a committed plan of action insuring that 
this ``kairos'' moment in history not continue to cosmetically coat the 
painful aspects of the American history of racism. These six Virginia 
Tribes; the Chickahominy, the Chickahominy--Eastern Division, the Upper 
Mattaponi, the Rappahannock, the Monacan, and the Nansemond, stand 
before you today after a four hundred year journey asking only that you 
honor their being, honor their contributions to our shared history, and 
honor their ancestors by acknowledging they exist. This simple request 
is vital to the healing of the broken circle, broken four centuries ago 
when cultures collided and forever changed the history of the world. It 
is about the present and the recognition that despite the journey these 
tribes have survived and are still here. It is about taking their 
proper place among the other 563 tribes recognized by the United 
States. It is about the future that future generations may experience 
the fullness of life intended by their forbearers and their Creator. 
Let us mend the Circle so that we may move forward into the future. Let 
me close with the words from one of the songs created and recorded for 
this special Jamestown observance by ``Anniversary Voices''

                           Remember the Many

 We are all part of the sacred earth, every deer, every stream, every 
                                  tree

 We have learned to respect all living things, and to live in harmony.

             We are riders on the sands, the sands of time,

                the Creator's in the wave in the shore.

          We have been here for more than ten thousand years.

                 We will be here for ten thousand more!

            Stand where I'm standing; take a look at my view

               How should I feel? I was here before you.

                The time has arrived recognition is due.

                Remember the many who've become the few!

    The member Communions of the Virginia Council of Churches, strongly 
encourage you to remember the few, recognize our tribes pass the 
Thomasia E. Jordan Indian Tribes of Virginia Federal Recognition Act of 
2006.
                                 ______
                                 

             The Rev. Jonathan M. Barton--General Minister

                      Virginia Council of Churches

        Testimony before the Senate Committee on Indian Affairs

                                 S. 480

  Thomasina Indian Tribes of Virginia Federal Recognition Act of 2005

                             June 21, 2006

    Mr. Chairman, members of the Senate Committee on Indian Affairs, my 
name is
    Jonathan Barton and I am the General Minister for the Virginia 
Council of Churches. I would like to thank you for the opportunity to 
speak with you today. I ask your permission to revise and extend my 
comments. I would also like to express my appreciation to Senator 
George Allen for his sponsorship of S. 480 and Senator John Warner for 
his cosponsorship. I would like to express my deep appreciation to the 
members of Virginia's six tribes present here today for inviting the 
Council to stand with them in their request for Federal 
Acknowledgement. We stand with the Virginia tribes today in solid 
support of the Thomasina E. Jordan Indian Tribes of Virginia Federal 
Recognition Act of 2005.
    The Virginia Council of Churches is the combined witness of 37 
governing bodies of 18 different Catholic, Orthodox, and Protestant 
denominations located within the Commonwealth of Virginia. A list of 
our member denominations is appended to my written comments. During our 
62-year history, we have always stood for fairness, justice, and the 
dignity of all peoples. The Council was one of the first integrated 
bodies within the Commonwealth. We stand here today in faith, grounded 
in our history and our value. In April of 1607, when Captain 
Christopher Newport sailed into the Chesapeake Bay, a relationship 
between the church and Virginia's Indigenous People began. This 
relationship continues today. There is little doubt in the historical 
record that one of the purposes of Jamestown was to establish the 
church in Virginia.
    Four years ago when I testified before this Committee, Senator Ben 
``Nighthorse'' Campbell made the comment: ``You know Rev. Barton, the 
Indians and the church have not always gotten along very well.'' The 
church has much to repent in our early missionary efforts. My presence 
here today represents our desire to repent for our past sins. The Rev. 
Robert Hunt and others of the early 1600s failed to find the Image of 
God in the native people they encountered. They believed that in order 
to be a Christian, they needed to look, live, and speak with an English 
accent. We have come a long way together since those early days.
    A few weeks ago, Mr. Chairman, you had the opportunity to be in the 
beautiful mountains of Virginia. You may not have realized as you gazed 
out over the horizon, that for as far as your eyes could see was home 
to the Monacan Indians for thousands of years. Just a short distance 
away, up a narrow winding road and nestled in the mountainside are the 
tribal grounds of this great Indian nation. On the same land there is a 
small Episcopal Church with a stream that runs under it. On the other 
side of the steam, there is the old one room schoolhouse where the 
Monacan people attended school until the 1960s. The Tribal Circle is 
just a little way up the path. It is here where the tribal community is 
grounded. Here is where the faith and traditions of the Elders are 
passed to new generations. The cultural landscape is the same with each 
of the Virginia tribes. As you enter their land, you find the church, 
the school and the Tribal Circle. Even though the missionaries were 
clumsy in their approach, the scripture provided strength for these 
tribes to endure four centuries of oppression and discrimination.
    It has been a blessing for me to know and work with each of the 
chiefs of our Virginia tribes. I know them to be persons of great 
integrity and moral courage. Each brings strong leadership to their 
tribes. Each brings unique and special gifts, and they all share a 
common respect for their past and vision for the future.
    As 2007 rapidly approaches, Jamestown will move onto the global 
stage. It is vital that we demonstrate to the world that Virginia's 
Indigenous People who have lived on this land for thousands of years, 
and who greeted the English as they landed in 1607, still exist today 
and that we recognize them. As we approach the public observances 
marking the 400th Commemoration of the first English Settlement at 
Jamestown, we are called to review our full history, reflect upon it, 
and act as a people of faith mindful of the significance of 1607. The 
people in our churches and communities now look at the significance of 
the event in different ways. What represented newness of freedom, hope 
and opportunity for some was the occasion for oppression, degradation, 
and genocide for others. For the church this is not a time for 
celebration but a time for a committed plan of action insuring that 
this ``kairos'' moment in history not continue to cosmetically coat the 
painful aspects of the American history of racism. These six Virginia 
Tribes; the Chickahominy, the Chickahominy--Eastern Division, the Upper 
Mattaponi, the Rappahannock, the Monacan, and the Nansemond, stand 
before you today after a four hundred year journey asking only that you 
honor their being, honor their contributions to our shared history, and 
honor their ancestors by acknowledging that they exist. This simple 
request is vital to the healing of the broken circle, broken four 
centuries ago when cultures collided and forever changed the history of 
the world. Let us mend the Circle so that we may move forward into the 
future. On behalf of the member Communions of the Virginia Council of 
Churches, I encourage you to recognize our tribes by passing the 
Thomasina E. Jordan Indian Tribes of Virginia Federal Recognition Act 
of 2005.
                                 ______
                                 

             The Rev. Jonathan M. Barton--General Minister

                      Virginia Council of Churches

        Testimony before the Senate Committee on Indian Affairs

                                S. 2694

  Thomasina Indian Tribes of Virginia Federal Recognition Act of 2002

                            October 9, 2002

    Mr. Chairman, members of the Senate Committee on Indian Affairs, my 
name is Jonathan Barton and I am the General Minister for the Virginia 
Council of Churches. I would like to thank you for the opportunity to 
speak with you today. I ask your permission to revise and extend my 
comments. I would also like to express my appreciation Senator George 
Allen for his sponsorship of this bill and the Senator John Warner for 
his cosponsorship and the other members of the Virginian Congressional 
delegation for all their efforts. To the members of the six tribes 
gathered here today, you continue to honor the Virginia Council of 
Churches greatly by your invitation to walk with you as you seek 
federal acknowledgement. We stand with you today in support of the 
``Thomasina E. Jordan Indian Tribes of Virginia Federal Recognition Act 
of 2002'' (S. 2694). Two weeks ago before the House Committee on 
Resources I made a public apology for any acts of injustice we may have 
been complicit or complacent in during the past. This apology is 
sincere and expresses a hope for our continued walk into the future.
    The Virginia Council of Churches is the combined effort of 34 
governing bodies of 16 different denominations in the Commonwealth of 
Virginia. A list of our member denominations has been appended to my 
written comments. I have also appended letters from various religious 
leaders in Virginia urging support for this bill. Together we include 
one out of every five Virginians. During our fifty-eight-year history 
we have always stood for fairness, justice and the dignity of all 
peoples. We were one of the first integrated bodies in the Commonwealth 
and have been for our entire history. We stand here today in faith, 
grounded in our history and our values. The churches have had a 
relationship with these tribes ever since our first European ancestors 
arrived and were welcomed by the ancestors of these men and women here 
today. These tribes have developed close ties to the Episcopal Church, 
the Baptist Church, the United Methodist Church and the Assembly of 
God. Three of our leading religious executives are Native American: The 
Rev. Dr. Wasena Wright, The Rt. Rev. Carol Joy Gallagher, and The Rev. 
Dr. Cessar Scott.
    Alexander Hamilton stated in 1775: ``The sacred rights of mankind 
are not to be rummaged for among old parchments, or musty records. They 
are written, as with a sunbeam in the whole volume of human nature, by 
the hand of the divinity itself; and can never be erased or obscured by 
mortal power.'' What we are addressing today are the ``sacred rights'' 
of these six tribes. Our history has not always been marked by peace 
and understanding. Treaties have been broken and land has been taken. 
There is suspicion and mistrust on both sides. There is perhaps, no 
deeper wound you can inflict on a person than to rob them of their 
identity. To relegate them to a box marked other. To proclaim, as we 
have done in Virginia during the time of Mr. Walter Plecker, that you 
do not exist. Those who bear the legacy of their forefathers, the first 
inhabitants of this great land, have suffered discrimination, bigotry 
and injustice. In the past they have been prevented from employment and 
attendance in public school. Churches sought to provide educational 
opportunity during this period, which often meant having to go out of 
state to attend Indian schools. Even as we prevented their attendance 
in our classrooms, we proudly placed their names on our school 
buildings. We took their names and we placed them on roads, towns and 
rivers. The discrimination they suffered not only erased their identity 
it also robbed them of their voice. These tribes have proudly served 
this nation even as this nation has turned its back on them.
    There has been much discussion regarding ``gaming'' during these 
proceedings. I would like to state clearly that the Virginia Council of 
Churches is on record opposing all forms of gaming and we are convinced 
that this is not relevant to our testimony here today. These tribes 
here today humbly ask nothing more than to have their identity 
acknowledged, to be recognized for who they are. You can make this 
possible so that the healing of these deep wounds might finally be 
realized.
    In 1983, the State of Virginia (Resolution No. 54) acknowledged the 
Chickahominy, Eastern Division; the Upper Mattaponi; and the 
Rappahannock and formally recognized them in a ceremony at the capital. 
The Nansemond tribe was recognized in 1985 and the Monacan tribe in 
1989 (House Joint Resolution No. 390). In 1999 both chambers of 
Virginia's General Assembly agreed to House Joint Resolution 754 urging 
Congress to grant federal recognition to the Virginian tribes. Our 
legislature asked the state's delegation in Congress ``to take all 
necessary steps forthwith to advance it.'' Senator George Allen in 
introducing the companion bill in the Senate stated: ``It is important 
that we give Federal recognition to these proud Virginia tribes so that 
they cannot only be honored in the manner they deserve ``There is 
absolutely no reason why American Indian Tribes in Virginia should not 
share in the same benefits that so many Indian tribes around the 
country enjoy.''
    God has called these people by name and has blessed them. God will 
recognize them as long as the sky is blue, even if it should turn gray. 
God will be there as long as the grass is green and when it turns 
brown. For as long as the water shall flow or on cold winter days 
freezes over, God will be there. It is now time for the United States 
Congress to do the same.
                                 ______
                                 

   STATEMENT OF HELEN ROUNTREE, PH.D., PROFESSOR EMERITA OF 
    ANTHROPOLOGY, OLD DOMINION UNIVERSITY, NORFOLK, VIRGINIA

    Ms. Rountree. I am going to be less grand-eloquent, and 
since I am coming off a chest cold, I shall probably croak at 
you. Sorry.
    Mr. Chairman, ladies and gentlemen of the Committee, I am 
Dr. Helen C. Rountree, Professor Emerita of Anthropology at Old 
Dominion University in Norfolk, Virginia. I originally worked 
with Western Shoshone people in Nevada, but since 1969 I have 
specialized in the Indian people of eastern Virginia, 
historical and modern. My seventh University Press book about 
them is due out in June.
    I have done the work with very little grant money, and no 
money from the tribes. I have never been hired by any of these 
tribes. I have mostly supported my work out of my university 
salary. So what you are going to hear is, in a very real sense, 
an independent scholar's testimony.
    It was not easy to find records about the people. Many 
records in Virginia were burned during the Civil War, though 
not in the 20th century.
    But Virginia was reluctant all along to accord the people 
an Indian label once they lost their reservations in the late 
17th and early 18th centuries. Having Pocahontas in the state's 
history actually made things worse. The public contrasted her 
exotic legend with the reality of modern Indians and usually 
turned up its nose.
    During the Racial Integrity era that began in 1924, not 
only Indian people who insisted on an Indian label in public 
records, but any non-Indians who allowed them that label, could 
be sent to jail. So records saying Indian were going to be 
limited.
    Instead, I had to work through personal names. And I agree 
with Mr. Artman's answer to Mrs. Christensen: if you have to 
turn to individual names and see how networks of people turn up 
in the records.
    Fortunately, several tribal rolls from the early 20th 
century were available to me. I scoured the Federal, colonial, 
state, and county records with the zeal of a collector for 
information about these individuals and their ancestors, and 
then I analyzed the whole collection to see what showed up.
    What I found in the records were distinct ethnic isolates, 
networks of kinsmen with Indian ancestry. One of the tribes is 
traceable through personal names of Indian people back to 1638. 
They have had formal institutions, like tribal churches, since 
the mid 19th century. My written testimony includes a quick 
reference chart that will point that sort of thing out.
    By the way, early in the present recognition process I 
wrote to the Office of Federal Acknowledgement offering to send 
copies of any or all of the records that I had found. And I 
mean photocopies. I invited scrutiny. I have never received a 
response to that offer. They dropped the ball.
    I have watched the tribes in the current era of self-
identification, when anybody can be what they want. They used 
to be accused of saying they were Indian so that they could 
eventually pass as white. They went on saying they were Indian. 
When it became possible to be whatever you wanted, they still 
went on saying they were Indian. And I hasten to point out that 
they were doing it before the Indian Gaming Act of 1988 was 
ever even discussed. That didn't make them say they were 
Indian; it is their history that makes them say Indian.
    So after nearly four decades of researching and working 
with the tribes before you today, I can tell you this. They 
really are what they say they are: Indian-descended tribes who 
have held together in spite of land loss and persecution by 
bigots. When they say they are not interested in gaming, they 
mean precisely that. And when they say they feel it keenly, 
having to go into Virginia's 400th anniversary year without 
Federal acknowledgement, they really mean that, too.
    Thank you.
    [The prepared statement of Ms. Rountree follows:]

      Statement of Helen C. Rountree, Ph.D., Professor Emerita of 
        Anthropology, Old Dominion University, Norfolk, Virginia

    Mr. Chairman, members of the Committee, and guests: I am Dr. Helen 
Rountree, Professor Emerita of Anthropology at Old Dominion University 
in Norfolk, Virginia. My training and publications are in 
``ethnohistory,'' a combination of cultural anthropology and history. 
Initially I worked with Shoshone Indian people in Nevada, but I began 
researching the Native Americans of eastern Virginia, historical and 
modern, in 1969. I am the only scholar, whether anthropologist or 
historian, who has been active in the specialty that long. I spent 
every free moment of the first eight years, when I was not teaching for 
a living, scouring the published and unpublished records from 1607 
onward. That included speed-reading the often unindexed county record 
books. I have spent substantial periods since then hunting for more 
records and studying other subjects, like ethnic identity, that are 
relevant to learning about Indian tribes. Shoehorned into all that work 
were face-to-face visits and occasional spells of living among the 
modern Virginia people, the people whose Indianness, compared with the 
Nevada Indians I knew, impressed me so much.
    I am not the first social scientist to work with these six tribes 
(see the attached quick-reference chart). My predecessors' work goes 
back nearly 120 years, beginning with James Mooney of the Smithsonian 
Institution and continuing with Frank Speck of the University of 
Pennsylvania, among others. Like them, I have written up my findings 
for others to read; unlike them, I have done it in no less than six 
books (so far), the most germane of them for this hearing being 
Pocahontas's People: The Powhatan Indians of Virginia Through Four 
Centuries (University of Oklahoma Press, 1990; no. 196 in the 
Civilization of the American Indian series). Roughly one-third of that 
volume is devoted to endnotes and bibliography, to prove I didn't make 
anything up. I have offered to send copies of the documents unearthed 
in my research to the BAR in the Bureau of Indian Affairs; the BAR has 
never yet seen fit to respond to my offer, not even when I talked to 
their representative face-to-face at the Senate committee hearing last 
summer.
    The last thing to say about my work is that I have always supported 
my research with funds saved back from my own salary and from small 
university grants. Like the tribes I work with, I don't have backers: I 
pay my own way. So the testimony you are about to hear is my own; the 
Indian people are my colleagues, not my employers. And that testimony 
is literally based upon decades of intensive research.
    I have been able to trace the existence of Indian groups across 400 
years in eastern Virginia. Many of today's tribes come from refugee 
communities, meaning reduced Indian populations that merged in order to 
keep going. But there were elements in them descended from the early 
seventeenth century tribes that give them their names today.
    It was not easy to find records about the tribes. In the 18th 
century, if a group never had a reservation (the Monacans) or if 
reservations were lost (the other five), the Commonwealth of Virginia 
took no further interest in the people. Meanwhile, local governments' 
records were mainly concerned with property and criminal behavior, 
neither of which involved many Indians. (If you were poor and law-
abiding, you were invisible.) Several of the key courthouses were 
burned in the 19th century. U.S. Census-takers did not record the names 
of family members--only the heads of household--until 1850.
    Aggravating the problem in finding Indian records was Virginia's 
reluctance to let Indians appear in the records as ``Indians.'' One 
relatively tolerant law of 1833 created a category they could fall 
into: POMBNBFNOM (Persons of Mixed Blood Not Being Free Negroes or 
Mulattoes). Needless to say, the people who got certified in that 
category never subsequently appeared in the records under that jaw-
breaking name. Instead before the Civil Rights era, Virginia racial 
policy became increasingly intolerant of anyone claiming an Indian 
identity rather than the catch-all ``colored'' one.
    In the first half of the 20th century, anybody claiming to be 
Indian and any non-Indian cooperating with such persons came in for 
humiliation that was severe and very public. That was possible because 
an entire state bureau, the Vital Statistics Bureau, became a policing 
agency on matters racial, issuing public announcements, sending a 
circular to all county officials statewide, and mailing pamphlets to 
thousands of private citizens--at taxpayers' expense. In both the 
circular and the pamphlet, the Indian tribes were specifically 
attacked. The effect upon the appearance of ``Indian'' entries in 
state, local, and even federal records like the U.S. Census schedules 
should be obvious. It didn't stop with humiliation. Thanks to the 
Racial Integrity Law of 1923, anyone insisting upon the ``Indian'' 
label in Virginia could legally be sent to jail; several Indian people 
did in fact go to jail for it.
    Therefore like a fieldworking anthropologist, I not only collected 
all documentary references to Indians, but I also acquired recent lists 
of Indian personal names--several 20th century tribal rolls being 
available--and then worked backward as far as I could in the records, 
constructing genealogies and collecting the records about the people in 
those genealogies to see how the communities shaped up.
    Social scientists like me look for several things in determining 
whether or not a group is a distinct ethnic group. I searched for the 
same things that the Bureau of Indian Affairs, later on, expected to 
see before acknowledging people as Indian tribes. I have found clear 
evidence that the people before you today meet those criteria as far 
back as the public records allow me to look: living in geographical 
clusters, being predominantly in-marrying, and having most of their 
associations with one another rather than with outsiders. After the 
Civil War, when free non-whites could openly have them in Virginia, 
those associations show up as tribal churches, followed by tribal 
schools. On several occasions, beginning in 1892, the federal Office of 
Indian Affairs (later the BIA) was contacted for financial help for 
those schools. The answer was always ``no''--not because the people 
were not Indians, but because the last treaty they signed (in 1677-80) 
had far predated the existence of the federal government. Washington 
was uncomfortable with that. The people of these six tribes had 
possessed informal political organizations--like many ethnic groups 
called ``tribes'' in the Third World--since the dying out of their 
chiefs in the early 18th century. When they formalized things in the 
20th century, the tribes took out charters with the State Corporation 
Commission, something the white supremacists could not legally prevent 
them from doing.
    Virginia was most definitely an anti-Indian state in the 19th and 
most of the 20th centuries, and ironically enough, some of the blame 
can be laid on Pocahontas. No other state has as many or as socially 
prominent descendants of that so-called ``princess.'' Her legend--for 
that is exactly what it is, a legend--has long blinded most Virginians 
to the existence of the modern Indian tribes in their midst. Even now, 
when I say I work with Virginia Indians, people nearly always start in 
asking me about Pocahontas. When Virginia wanted to make the ``one-
drop'' rule (i.e., one ``drop'' of non-white ``blood'' making a person 
``colored'') into a law, legislators found that it couldn't be done 
without making some of the state's aristocrats get into the Jim Crow 
coach. The bill had to be rewritten, making an exception for ``the 
Pocahontas Descendants.'' The tone of the defenders of the white race 
in Virginia was even more strident than elsewhere, as a result, for 
that exception was seen as a hole in the dyke by the die-hards, one of 
whom characterized the ``Indian'' racial category as a ``way-station to 
whiteness.''
    I have always found it amusing, how wrong the white-supremacists 
were in assuming that absolutely everybody would ``pass'' for white who 
could. The tribes I work with were not and are not interested in doing 
that. When Virginia repealed its racial definitions law in 1975, and 
anybody could claim to be anything, these people went right on saying 
they were Indian, as they had been doing all along. They had said it to 
James Mooney in the 1890s, and to the social scientists who followed 
him. Most of us social scientists have been North American Indian 
specialists, and we have worked with these Virginia communities because 
they are tribes of Indians. I submit to you that they deserve 
acknowledgement as such now.
                                 ______
                                 
    The Chairman. The Chair thanks the panel for their 
testimony.
    The Committee understands that the Virginia tribes have met 
with the Office of Federal Acknowledgement within the 
Department of Interior about the letter of intent that yours 
and other tribes have filed. But my question is to the panel, 
what was the Administration's reaction to Dr. Plecker's 
actions? And how has the Administration expressed its 
willingness to work with the tribes on meeting the consistent 
and continuous records requirement?
    Mr. Adkins. The Committee has offered technical assistance 
with their neighbors. Folks have come down, I am sorry, and we 
worked on some of those processes. However, our last visit as a 
group to the BIA to talk about our Federal recognition process, 
when we were so soundly apprised that many of us would not live 
to see that process work itself through, it kind of bashed our 
hopes against the rocks.
    And we felt like the process that they had in place, while 
we support those criteria, it wasn't a process that would 
neatly fit over our set of circumstances that were promulgated 
by action taken by the state beginning in the 20th century, 
with the Racial Integrity Act of 1924. We don't think it is an 
impossible process, but given those folks who have gone this 
way, who have had records that were fairly well intact, and we 
see decades before they get acknowledgement, we just say this 
process isn't going to fit as neatly for us as it does for 
people who have to wait decades for acknowledgement.
    The Chairman. Anybody else wish to respond? OK. Every year 
at least one of the Virginia tribes fulfill their duties under 
the treaties enacted hundreds of years ago, and provide payment 
to the Commonwealth of Virginia. Has anyone ever denied these 
tribes or their descendants of the signators of the treaty?
    And the second question is, has the Commonwealth of 
Virginia ever questioned the tribe's annual actions?
    Mr. Adkins. To my knowledge, it has never been questioned. 
But again, it may have, but to my knowledge it hasn't. Maybe 
someone else on the panel could speak to that, or even I would 
ask our lawyer if she is aware of that.
    Ms. Locklear. So far as I know, the Commonwealth has never 
denied that treaty should come in, according to the treaty. 
However, if you read some of the correspondence of Dr. Plecker 
in the Racial Integrity era, he doubted everybody, and was 
willing to say so far and wide.
    He had a very widespread correspondence to other states, as 
well. And that doubt is in his letters. Even about the 
reservation people, yes.
    The Chairman. The bill requires the Secretary of the 
Interior to place land in certain counties into trust for the 
various tribes if requested within 25 years after the date of 
enactment of the Act. The bill does not specify that the land 
will be considered each tribe's reservation.
    Was this an oversight? And did you think it would be 
automatic? Or is there a reason that the tribes do not want the 
land to be identified as a reservation?
    Mr. Adkins. Could I defer to Liz Walker?
    The Chairman. Sure.
    Ms. Walker. Chairman Rahall, we received some advice, and I 
think the staff for Jim Moran probably knows that detail 
better. But at that time we were advised that we didn't need to 
designate it as a reservation for it to be taken as land in 
trust. Because these are considered the landless tribes, and 
what land that would come in, land that they hold in fee today, 
would come in as their original reservation. That is what we 
were told, that we didn't need to designate it.
    If that is true, if that is different than what the legal 
advice the Committee has given now, then we do need to look at 
that. That may have been an oversight. But we were advised that 
they didn't have to designate it that way; that since they are 
what you call the landless tribes, that any land they take in 
initially would be their original reservation.
    The Chairman. OK. Just for the official record, would you 
identify yourself and your position?
    Ms. Walker. Yes. I am Elizabeth Walker. I am an attorney 
for the tribes seeking recognition.
    The Chairman. Thank you. Thank you. As we conclude, let me 
state that the hearing record will remain open for 10 days to 
accept any additional testimony. We may submit questions to the 
witnesses for a written response, and there may be other of my 
colleagues that are not physically present today that may have 
questions for the record, as well. And we will submit those to 
you and ask for written responses to them.
    Mr. Adkins. Thank you, Chairman.
    The Chairman. We thank each of you for your testimony. 
Thank you for being with us today.
    Mr. Adkins. The written testimony we submitted will be in 
the record, right?
    The Chairman. Yes, sir.
    Mr. Adkins. Thank you very much.
    The Chairman. In its entirety.
    Mr. Adkins. Thank you.
    The Chairman. Thank you for being with us. The Committee 
will stand adjourned.
    [Whereupon, at 1:20 p.m., the Committee was adjourned.]

    [Additional material submitted for the record follows:]

    [A statement submitted for the record on H.R. 1294 by The 
Honorable Jo Ann Davis follows:]

 Statement of The Honorable Jo Ann Davis, a Representative in Congress 
                from the State of Virginia, on H.R. 1294

    Chairman Rahall, thank you for holding this hearing on H.R. 1294, 
the Thomasina E. Jordan Indian Tribes of Virginia Federal Recognition 
Act.
    Several of the Virginia tribes are located within my congressional 
district and I am proud to be one of the primary sponsors of this 
historically significant legislation. The Indian communities have 
worked hard over the years to maintain their heritage, and it is 
appropriate as we approach the 400th anniversary of the settlement of 
Jamestown that we would also recognize the Virginians who descended 
from the Native Americans that were here at the founding.
    As a former member of the Virginia Council on the Indians, it is 
important to me that the Native Americans tribes who were here before 
the English landing at Jamestown in 1607 receive all the rights 
afforded other similarly situated Indian tribes. The Chickahominy, the 
Eastern Chickahominy, the Rappahannock, the Monacan Indian Nation, and 
the Nansemond Indian Tribes have been recognized by the state of 
Virginia and should be officially recognized by the U.S. government.
    The members of these tribes have worked tirelessly and desperately 
to secure greater autonomy and control to deal with tribal housing, 
health care and education. The tribes have begun the federal review 
process, however significant hardships and systematic efforts aimed to 
destroy the cultural and traditional history of Virginia's tribes have 
made the Department of Interior's current recognition process difficult 
for first contact tribes. I believe it is appropriate that Congress 
take steps to recognize these tribes and allow Virginia's Indians to 
pursue cultural preservation and local tribal issues.
    Additionally, this legislation provides significant prohibitions 
and protections to prohibit casino style gambling on tribal lands. In 
fact, the tribes themselves are opposed to gaming. Instead the focus 
should be on the long overdue recognition of these tribes who trace 
their ancestry before our nation's founding.
    Again, thank you Mr. Chairman for holding this hearing and for your 
attention to this issue important to Virginia.
                                 ______
                                 
    [A statement submitted for the record on H.R. 65 by Arlinda 
F. Locklear, Esquire, Attorney for the Lumbee Tribe of North 
Carolina, follows:]

              Statement of Arlinda F. Locklear, Esquire, 
            Attorney for the Lumbee Tribe of North Carolina

    It is my privilege to make this statement as counsel for the Lumbee 
Tribe of North Carolina in support of H.R. 65, a bill to extend full 
federal recognition to the Tribe. In the interest of full disclosure, I 
should inform the committee that I am also an enrolled member of the 
Tribe.
The hundred year legislative record on Lumbee recognition
    In one form or another, Congress has deliberated on the status of 
the Lumbee Tribe of North Carolina for more than one hundred years. On 
numerous occasions during that time, Congress has itself or directed 
the Department of the Interior to investigate the Tribe's history and 
conditions. On all such occasions, the Tribe's Indian identity and 
strong community have been underscored.
    Congress' first experience with the Tribe followed shortly upon the 
heels of formal recognition of the Tribe by the State of North Carolina 
in 1885. The 1885 state statute formally recognized the Tribe under the 
name Croatan Indians of Robeson County, authorized the Tribe to 
establish separate schools for its children, provided a pro rata share 
of county school funds for the Tribe's schools, and authorized the 
Tribe to control hiring for the schools and eligibility to attend the 
schools. See North Carolina General Assembly 1885, chap. 51. Two years 
later, tribal leaders sought and obtained state legislation 
establishing an Indian normal school, one dedicated to training Indian 
teachers for the Indian schools. See North Carolina General Assembly 
1887, chap. 254. The Indian Normal School was badly underfunded, 
though, leading to the Tribe's first petition to Congress for 
recognition and assistance in 1888.
    The 1888 petition to Congress was signed by fifty-four (54) tribal 
leaders, including all members of the Indian Normal School Board of 
Trustees. All the traditional Lumbee surnames are represented in the 
list of signatories--Sampson, Chavis, Dial, Locklear, Oxendine, and 
others--and descendants of these signatories are active today in the 
tribal government. The petition sought federal assistance for the then 
named Croatan Indians in general and funding for the Tribe's schools in 
particular. Congress referred the petition to the Department of the 
Interior, which investigated the Tribe's history and relations with the 
state. The Commissioner of Indian Affairs ultimately denied the request 
for funding, citing insufficient resources:
        While I regret exceedingly that the provisions made by the 
        State of North Carolina seem to be entirely inadequate, I find 
        it quite impractical to render any assistance at this time. The 
        Government is responsible for the education of something like 
        36,000 Indian children and has provision for less than half 
        this number. So long as the immediate wards of the Government 
        are so insufficiently provided for, I do not see how I can 
        consistently render any assistance to the Croatans or any other 
        civilized tribes.
Thus began the Department's long-standing opposition to federal 
recognition of the Lumbee Tribe, typically because of the cost of 
providing services.
    After the failure of the 1888 petition to Congress, the Tribe 
sought recognition more directly through proposed federal bills. In 
1899, the first bill was introduced in Congress to appropriate funds to 
educate the Croatan Indian children. See H.R. 4009, 56th Cong., 1st 
Sess. Similar bills were introduced in 1910 (See H.R. 19036, 61st 
Cong., 2d Sess.) and 1911 (See S. 3258, 62nd Cong., 1st Sess.) In 1913, 
the House of Representatives Committee on Indian Affairs held a hearing 
on S. 3258 where the Senate sponsor of the bill reviewed the history of 
the Lumbees and concluded that the Lumbees, then called Croatans, had 
``maintained their race integrity and their tribal characteristics;'' 
See Hearings before the Committee on Indian Affairs, House of 
Representatives on S. 3258, Feb. 14, 1913. In response to the same 
bill, the Department of the Interior dispatched C.F. Pierce, Supervisor 
of Indian Schools, to conduct an investigation of the Croatan Indians. 
Pierce reviewed the Tribe's history, acknowledged their Indian ancestry 
and the strength of their community, but recommended against federal 
assistance for the Tribe:
        It is the avowed policy of the Government to require the states 
        having an Indian population to assume the burden & 
        responsibility for their education as soon as possible. North 
        Carolina, like the State of New York, has a well organized plan 
        for the education of Indians within her borders, and I can see 
        no justification for any interference or aid, on the part of 
        the Government in either case. Should an appropriation be made 
        for the Croatans, it would establish a precedent for the 
        Catawbas of S.C., the Alabamas of Texas, the Tuscaroras of 
        N.Y., as well as for other scattering tribes that are now cared 
        for by the various states.
Those other tribes mentioned by Pierce have since been recognized by 
the United States.
    In 1914, the Senate directed the Secretary of the Interior to 
investigate the condition and tribal rights of the Lumbee Indians and 
report to Congress thereon. See S.Res. 410, 63rd Cong., 2d Sess. The 
Secretary assigned Special Indian Agent O.M. McPherson to conduct the 
investigation. According to the Secretary's letter to the President of 
the Senate transmitting the McPherson report, McPherson conducted ``a 
careful investigation on the ground as well as extensive historical 
research.'' The report covered all aspects of the Tribe's history and 
condition, running 252 pages in length. See Indians of North Carolina, 
63rd Cong., 3d Session, Doc. No. 677. McPherson's report again 
confirmed the tribal characteristics of the Lumbee Indians, but 
Congress took no action on the McPherson report.
    In 1924, yet another bill was introduced in Congress to recognize 
the Lumbee Indians as Cherokee Indians of Robeson County. See H.R. 
8083, 68th Cong., 1st Sess. This bill failed and in 1932 a very nearly 
identical bill was introduced in the Senate. See S. 4595, 72d Cong., 
1st Sess. This bill failed as well.
    The next federal bill was introduced in 1933 and was nearly 
identical to the prior two bills, except that it directed that the 
Croatan Indians ``shall hereafter be designated Cheraw Indians and 
shall be recognized and enrolled as such...'' H.R. 5365, 73d Cong., 1st 
Sess. In his statement at the hearing on the bill, the Secretary of the 
Interior attached an opinion of John Swanton, a well-respected 
specialist on southeastern Indians with the Smithsonian Institution, 
which concluded that the previously named Croatan Indians actually 
descended from Cheraw and other related tribes. The Secretary 
recommended that the United States recognize the Tribe as the Siouan 
Indians of Lumber River, but also that the Congress include termination 
language because of the expense of providing federal Indian services to 
the Indians. Rep.No.1752, House of Representatives, 73d Cong., 2d Sess. 
The committee adopted the change proposed by the Secretary and reported 
the bill out favorably, but the bill was not enacted. The following 
year, the Senate Committee on Indian Affairs took the same action on 
the identical bill in the Senate, S. 1632, but the Senate floor also 
did not act on the bill. See Rep.No.204, Senate, 73d Cong., 2d Sess.
    These numerous federal bills to recognize the Tribe under various 
names have a common and clear legislative history--that is, state 
statutes that modified the name by which the State of North Carolina 
recognized the Tribe. The 1899 federal bill would have recognized the 
Tribe as Croatan, just as the State had done in 1885. The 1911 federal 
bill would have recognized the Tribe as the Indians of Robeson County, 
just as the State had done in a 1911 amendment to state law. See North 
Carolina General Assembly 1911, chap. 215. The 1913 federal bill would 
have recognized the Tribe as Cherokee, just as the State had done in a 
1913 amendment to state law. See North Carolina General Assembly 1913, 
chap. 123. Indeed, a committee report on the 1913 federal bill 
explicitly acknowledged that the federal bill was intended to extend 
federal recognition on the same terms as the amended state law. 
Rep.No.826, House of Representatives, 68th Cong., 1st Sess.; see also 
S. 4595, 72d Cong., 1st Sess. [1932 bill which referred to the 1913 
state statute as its antecedent.] Thus, Congress consistently followed 
the lead of North Carolina in its deliberations on the Tribe's status 
and did so in finally enacting a federal bill in 1956. <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ In between the 1933 bill and the 1956 Lumbee Act, the Tribe 
attempted to obtain federal recognition through an earlier 
administrative process. Congress enacted the Indian Reorganization Act 
in 1934, which authorized half-blood Indians not then recognized to 
organize and adopt a tribal constitution, thereby becoming federally 
recognized. The Lumbee leadership wrote to the Commissioner of Indian 
Affairs, inquiring whether the act applied to the Lumbees. The inquiry 
was referred to Associate Solicitor Felix Cohen, the famous author of 
the foremost treatise on Indian law, the Handbook of Federal Indian 
Law. Cohen concluded that the Lumbees could organize under the act, if 
some members certified as one-half Indian blood or more and the 
Department approved a tribal constitution. The Tribe immediately asked 
the Department to make that inquiry and the Department dispatched Dr. 
Carl Seltzer, a physical anthropologist, for that purpose. 
Approximately 200 Lumbees agreed to submit to Dr. Seltzer's 
examination; interviews of these individuals were conducted as well as 
physical examinations. Dr. Seltzer certified 22 out of the 200 tribal 
members as one-half or more Indian blood, eligible to organize under 
the act. However, the Department refused to approve a tribal 
constitution submitted by those individuals, once again thwarting the 
Tribe's effort to become federally recognized.
---------------------------------------------------------------------------
Legislative history of the 1956 Lumbee Act
    In light of the mounting historical evidence compiled in Congress' 
deliberations on its recognition bills, including the McPherson Report 
and the Swanton opinion, the Indians of Robeson County grew 
dissatisfied with their designation under state law as Cherokee. Under 
pressure from the Tribe and after a referendum among tribal members, 
the State of North Carolina once again modified its recognition of the 
Tribe in 1953, renaming it Lumbee. North Carolina General Assembly 
1953, chap. 874. Two years later, a bill identical to that one enacted 
by the state was introduced in Congress. See H.R. 4656, 84th` Cong., 2d 
Sess.
    The federal bill passed without amendment in the House of 
Representatives and was sent to the Senate. The Department of the 
Interior objected to the bill in the Senate, just as it had done in the 
House, but with more success. The Secretary noted that the United 
States had no treaty or other obligation to provide services to these 
Indians and said:
        We are therefore unable to recommend that the Congress take any 
        action which might ultimately result in the imposition of 
        additional obligations on the Federal Government or in placing 
        additional persons of Indian blood under the jurisdiction of 
        this Department. The persons who constitute this group of 
        Indians have been recognized and designated as Indians by the 
        State legislature. If they are not completely satisfied with 
        such recognition, they, as citizens of the State, may petition 
        the legislature to amend or otherwise to change that 
        recognition....If your committee should recommend the enactment 
        of the bill, it should be amended to indicate clearly that is 
        does not make these persons eligible for services provided 
        through the Bureau of Indian Affairs to other Indians.
The Senate committee adopted the Secretary's recommendation and, when 
the bill was enacted into law, it contained classic termination 
language: ``Nothing in this Act shall make such Indians eligible for 
any services performed by the United States for Indians because of 
their status as Indians, and none of the statutes of the United States 
which affect Indians because of their status as Indian shall be 
applicable to the Lumbee Indians.'' Pub.L.570, Act of June 7, 1956, 70 
Stat. 254.
    Clearly, the 1956 Lumbee Act was intended to achieve federal 
recognition for the Tribe. The House sponsor for the bill wrote to 
Senator Scott, seeking his support for the bill, and noted that the 
bill was copied from the recent state law by which the State of North 
Carolina recognized the Lumbee Tribe. Senator Scott, who agreed to 
sponsor the bill in the Senate, issued a press release describing the 
bill as one to give federal recognition to the Lumbee Indians of North 
Carolina on the same terms that the State of North Carolina had 
recognized the Tribe in 1953. Senator Scott testified before a Senate 
committee that, ``The State of North Carolina has already by state law 
recognized the Lumbee Indians under that tribal name. Giving official 
recognition to the Lumbee Indians means a great deal to the 4,000 
Indians involved.'' <SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ The tribal population figure given by Senator Scott in his 
statement was repeated in the House and Senate reports on the bill. See 
H.Rep.No.1654, 84th Cong., 2d sess; S.Rep.No.84-2012, 84th Cong., 2d 
sess. The figure was erroneous. According to a correction to the figure 
published in contemporaneous newspaper accounts of the statement, the 
Senator intended to refer to 4,000 Indian families, not 4,000 
individual Indians. The total tribal population in 1956 was set in this 
account at 27,726. This account is consistent with 1950 federal census 
data.
---------------------------------------------------------------------------
    There are also excerpts from the legislative history of the 1956 
act suggesting that Congress did not intend to make the Tribe eligible 
for federal services, even without the amendment proposed by the 
Secretary of the Interior. For example, in a colloquy on the House 
floor, the House sponsor Mr. Carlyle was asked whether the bill would 
commit the United States to furnishing tribal services. Mr. Carlyle 
responded in the negative. Congressman Ford then stated that, ``[i]t 
simply provides for the change of name,'' and Mr. Carlyle agreed. 102 
Cong. Rec. 2900 (May 21, 1955). <SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ Because of the history of relations with the State, in which 
the recognized tribal name was changed several times over the years, 
the Tribe viewed the ``giving of a name'' as recognition. Even today, 
tribal members who inquire about the status of the pending bill will 
sometimes ask when Congress will give the Tribe its name.
---------------------------------------------------------------------------
    The eligibility for federal services, though, is not determinative 
of whether federal recognition has been bestowed. While federal 
recognition and eligibility for federal services are often viewed as 
interchangeable, they are not under federal law. The Department of the 
Interior has itself made this clear in the context of Congress' 
deliberations in 1977 on legislation to restore the previously 
recognized Siletz Tribe. In its comments on the bill, the Department 
recommended that the language in the bill restoring ``federal 
recognition'' be replaced with language restoring ``the federal trust 
relationship.'' The Department explained the reason for this proposed 
change as follows:
        Section 3(a) states: ``Federal recognition is hereby extended 
        to the tribe.'' This suggests that the Siletz Indians are not 
        now federal recognized. This is not the case; they are 
        recognized. The termination act simply dissolved the special 
        relationship between the Siletz Indians and the Federal 
        Government and terminated any federal services and supervision. 
        See 25 U.S.C. Sec. 691. Federal recognition and federal 
        services are often confused and erroneously used 
        interchangeably. Because of the close connection between 
        federal recognition and the provision of federal services, 
        etc., the error is understandable, but nonetheless federal 
        recognition and federal services are not synonymous and should 
        not be used interchangeably. In lieu of the above quoted 
        language, we would substitute the following: ``The trust 
        relationship between the Federal government and the Siletz 
        Indians is hereby restored.''
See 1977 U.S. Code Cong. And Admin. News, p. 3700. The 1956 Lumbee Act 
should be similarly construed to recognize the Tribe, even though there 
was no clear intent to provide federal Indian services. In effect, 
Congress simultaneously recognized and terminated the Tribe.
Administrative and judicial interpretation of the 1956 Lumbee Act
    Since 1956, federal agencies and courts have reached varying 
conclusions regarding the effect of the 1956 Lumbee Act. In 1970, the 
Joint Economic Committee of Congress described the Lumbee as having 
been officially recognized by the act, although not granted federal 
services. See ``American Indians: Facts and Future,'' Toward Economic 
Development for Native American Communities, p. 34 (GPO 1970). Also in 
1970, the Legislative Reference Service of the Library of Congress 
described the 1956 Lumbee Act as legislative recognition of an Indian 
people. See Memorandum, April 10, 1970, on Extending Federal 
Jurisdiction and Services to Hill 57 Indians, LRS, Library of Congress. 
And in 1979, the Comptroller General ruled that the 1956 act left the 
Lumbees' status unchanged, i.e., it neither recognized the Tribe nor 
terminated the Tribe's eligibility for services it might otherwise 
receive. The one court to construe the statute concluded it was 
intended ``to designate this group of Indians as `Lumbee Indians' and 
recognize them as a specific group..,'' but not to take away any rights 
conferred on individuals by previous legislation. Maynor v. Morton, 510 
F.2d 1254, 1257-1258 (D.C. Cir. 1975) [holding that the so-called half-
bloods certified under the Indian Reorganization act were eligible to 
receive Bureau of Indian Affairs' services].
    The Congressional Research Service (CRS) thoroughly reviewed the 
history and various interpretations of the 1956 Lumbee Act in 1988. It 
did so in response to a request from the Senate Select Committee on 
Indian Affairs, which had under consideration at the time H.R. 1426, a 
bill to provide federal recognition to the Lumbee Tribe. The CRS 
concluded as follows:
        The 1956 Lumbee legislation clearly did not establish 
        entitlement of the Lumbee Indians for federal services. It also 
        clearly named the group and denominated them as Indians. 
        Without a court decision squarely confronting the issue of 
        whether the 1956 statute confers federal recognition on the 
        Lumbee, there is insufficient documentation to determine if the 
        statute effects federal recognition of the Lumbees. It is, 
        however, a step toward recognition and would be a factor that 
        either the Department of the Interior or a court would have to 
        weigh along with others to determine whether the Lumbees are 
        entitled to federal recognition.
Memorandum dated September 28, 1988, reprinted in S.Rep.No.100-579, 
100th Cong., 2d Sess.
    Whatever its ambiguity otherwise, the 1956 Lumbee Act indisputably 
makes the Lumbee Tribe ineligible for the administrative 
acknowledgement process. See 25 C.F.R. Part 83. Under the 
acknowledgement regulations, the Secretary of the Interior cannot 
acknowledge tribes that are subject to legislation terminating or 
forbidding the federal relationship. Id., Sec. 83.3(e). In a formal 
opinion issued on October 23, 1989, the Solicitor for the Department of 
the Interior concluded that the 1956 Lumbee Act is such federal 
legislation and, as a result, the Department is precluded from 
considering any application of the Lumbee Tribe for federal 
acknowledgement.
    Thus, the Tribe continued its efforts to obtain full federal 
recognition from Congress. Companion bills were introduced in the 100th 
Congress for this purpose, H.R. 5042 and S. 2672. Hearings were held on 
the bills, once again establishing the Lumbee's tribal existence, and 
the Senate bill was reported favorably out of committee. Neither bill 
was enacted, however. Companion bills were introduced in the 101th 
Congress to recognize the Tribe [H.R. 2335 and S. 901], but neither was 
enacted. Once again in the 102d Congress, companion bills were 
introduced [H.R. 1426 and S. 1036]. This time, the House of 
Representatives passed the bill [with 240 yeas, 167 nays, and 25 not 
voting], but the Senate failed to invoke cloture on debate [with 58 
voting for and 39 voting against] and the bill failed. In the 103d 
Congress, H.R. 334, a bill virtually identical to that passed in 1991, 
was introduced; the bill passed the House again but was never acted on 
in the Senate. Most recently, the 108th Congress considered similar 
bills, S. 420 and H.R. 334 and the 109th Congress considered S. 660 and 
H.R. 21.
Legislative precedent for the bill
    Only one other tribe in the history of federal Indian affairs has 
been placed by Congress in precisely the same position as the Lumbee 
Tribe, that is, half in and half out of the federal relationship, by 
special legislation. <SUP>4</SUP> In 1968, Congress enacted a special 
act regarding the Tiwas of Texas, 82 Stat. 93, one that was modeled on 
the 1956 Lumbee Act and left the Tiwas in the same legal limbo.
---------------------------------------------------------------------------
    \4\ There is a third tribe that was subject to similar 
legislation--the Pascua Yaquis of Arizona. In 1964, Congress passed a 
statute conveying federal land to the Pascua Yaqui Association, Inc., 
an Arizona corporation. See 78 Stat. 1195, Pub. L. 89-14. The final 
section of this statute, like the Lumbee and Tiwa acts, provided that 
the Yaqui Indians would not be eligible for federal Indian services and 
none of the federal Indian statutes would apply to them. Congress has 
since extended full federal recognition to the Pascua Yaqui. See 25 
U.S.C. Sec. 1300f. The position of the Pascua Yaqui was somewhat 
different from that of the Lumbees and Tiwas, since the earlier federal 
statute involved a state corporation and arguably would not have 
recognized a tribe, even without the termination language. Also, the 
Pascua Yaqui recognition legislation was enacted in 1978, before the 
administrative acknowledgement process was in place. Nonetheless, the 
Department proposed that Congress repeal the 1964 Pascua Yaqui bill and 
require that the Yaquis go through the soon to be established 
administrative acknowledgment process. See S.Rep.No. 95-719, 95th 
Cong., 2d Sess. 7, reprinted in 1978 U.S. Code Cong & Admin. News 1761, 
1766. Congress refused to do so and enacted the recognition 
legislation.
---------------------------------------------------------------------------
    Like the Lumbee Tribe, the Tiwas of Texas had been long recognized 
by the state. In the 1968 Tiwa Act, Congress designated and recognized 
the Indians as Tiwas, expressly terminated any federal trust 
relationship, and precluded the delivery of federal Indian services--
just as it had done in the 1956 Lumbee Act. In fact, the Senate 
committee specifically noted in its report on the 1968 Tiwa Act that 
the bill was ``modeled after the act of June 7, 1956 (70 Stat. 254), 
which relates to the Lumbee Indians of North Carolina.'' S.Rep.No.1070, 
99th Cong., 2d Sess. According to the Department of the Interior, this 
1968 Tiwa Act made the tribe ineligible for administrative 
acknowledgement, a decision that clearly presaged the Department's 
construction of the 1956 Lumbee Act in 1989. Because of this unique 
circumstance, the Department expressed no opposition to special 
legislation extending full recognition to the Tiwas of Texas. In 1987, 
Congress removed the Tiwas of Texas from the restrictions imposed upon 
them in the 1968 Tiwa Act. Congress enacted the Ysleta del Sur Pueblo 
Restoration Act, Pub.L. 100-89, Act of August 18, 1987, 101 Stat. 667, 
to restore the federal trust relationship with the Ysleta del Sur 
Pueblo of Texas, previously known as the Texas Tiwas. Just as the 1968 
Tiwa Act created a special circumstance justifying special legislation 
for that tribe, so does the 1956 Lumbee Act for the Lumbee Tribe.
    Further, just as it did for the Tiwas of Texas, the Congress should 
enact comprehensive legislation as proposed by the Lumbee Tribe, 
legislation that resolves all related issues--status, service delivery 
area, base roll, jurisdiction, etc. The Congress should not enact 
another half measure, one that repeals the 1956 Lumbee act and requires 
administrative action on the Tribe under the acknowledgement 
regulations for numerous reasons.
    First, as a matter of fundamental fairness, the Congress should 
deal with the Lumbee Tribe just as it has every other tribe in the same 
situation, that is, by enacting recognition legislation because the 
tribe is ineligible for the administrative process. Congress has never 
passed special legislation that would require administrative action on 
a tribe that is under present law ineligible for the administrative 
process. The Lumbee Tribe is the last tribe in the country left in that 
position. There is no legitimate reason to depart now from Congress' 
legislative tradition in such circumstances, particularly since to do 
so would impose a tremendous burden on the Tribe--first, obtaining the 
passage of special legislation amending the 1956 Lumbee act, and 
second, subjecting the Tribe to the intrusive, time consuming, and 
expensive administrative acknowledgement process.
    Second, there is no good purpose to be served by sending the Lumbee 
Tribe to the current administrative process. That process provides the 
Department an opportunity to examine a group's history and community to 
determine whether the group is, in fact, an Indian tribe. The 
Department of the Interior and the Congress have already made that 
inquiry with regard to the Lumbee Tribe on numerous occasions. In 
response to the Tribe's repeated requests to Congress and the 
Department for federal recognition, the Congress and the Department 
have compiled a voluminous record on the Tribe's history and community. 
Because that record plainly establishes the status of the Lumbee 
Indians as an Indian tribe, further study of the Tribe would be a 
considerable waste of time (indeterminate period before active 
consideration and between five and ten years time before final agency 
action) and substantial waste of tribal and federal resources (in the 
hundreds of thousands of dollars.)
    Third, despite some suggestion to the contrary by other witnesses, 
there is simply no magic to the current administrative acknowledgement 
process. That process is not the source of all knowledge or wisdom 
regarding the status of Indian tribes. To the contrary, the 
overwhelming majority of tribes now recognized by the United States 
were recognized by Congress. According to a GAO report, there were 561 
federally recognized Indian tribes as of November 2001. Of those, 530 
were recognized by Congress and 31 were recognized by the Department of 
the Interior. Out of the 31 recognized by the Department of the 
Interior, 10 were recognized before the 1978 regulations were adopted, 
14 were recognized after 1978 and under those regulations, and 7 were 
recognized after 1978 but without regard to the regulations. In short, 
there is no historical or other necessity for subjecting the Lumbee 
Tribe to the current administrative process.
    Finally, given the hundred year history summarized above, the 
Lumbee Tribe has every reason to be skeptical of unbiased and even-
handed treatment by the Department of the Interior. The Department has 
successfully blocked federal recognition of the Tribe for over one 
hundred years, both before Congress and administratively. It is simply 
not realistic to expect the Department now to do what it has never been 
able to do in the past--base its judgment about the Lumbee Tribe purely 
on the facts and not on fiscal or other considerations.
    For more than one hundred years now, the Lumbee Tribe has been 
studied and ``processed.'' The record produced by these studies, even 
those by the Department, consistently shows an independent Indian 
community descended from Cheraw and related Siouan speaking tribes that 
has existed from white contact until the present as a separate 
community with known and visible leaders. Under present law, the Lumbee 
Tribe can only be recognized by an act of Congress. Legislative 
precedent under these circumstances supports the enactment of H.R. 65, 
comprehensive recognition legislation, not another half measure.
Major provisions of H.R. 65
    Congressman McIntyre's bill is appropriately structured as an 
amendment to the 1956 Lumbee Act, thus allowing Congress to complete 
the task it began in 1956. Specifically, the bill provides for:
    <bullet>  explicit federal acknowledgement of the Tribe, including 
the application to the Tribe of all laws of the United States of 
general applicability to Indians and Indian tribes; <SUP>5</SUP>
---------------------------------------------------------------------------
    \5\ One of the statutes generally applicable to Indian tribes is 
the Indian Gaming Regulatory Act, 25 U.S.C. Sec. 2701 et seq [IGRA.] 
This statute was enacted in 1988, exactly one hundred years after the 
Lumbee Tribe first sought federal recognition. Clearly, the Lumbee 
Tribe's quest is not motivated by gaming; neither has the Tribe 
expressed any current interest in gaming. However, the Tribe strongly 
believes that Congress should not pick and choose among statutes that 
apply to it and subject it, once again, to second class treatment as 
compared to other recognized Indian tribes. It should be noted, though, 
that Congressman McIntyre's bill imposes greater restrictions on the 
Tribe's ability to game under IGRA than on those tribes that are 
recognized through the administrative process. H.R. 65 does not create 
an Indian reservation; as a result, even if the Lumbee membership 
authorized tribal leadership to negotiate a gaming compact with the 
State (the Lumbee tribal constitution explicitly requires a special 
tribal referendum to authorize such), land for such uses could only be 
taken into trust by the Secretary of the Interior with the consent of 
the Governor of North Carolina. In contrast, tribes acknowledged 
through the administrative process can by-pass gubernatorial consent 
through the designation of an initial reservation by the Secretary of 
the Interior. 25 U.S.C. Sec. 2719(b)(1)(B)(ii).
---------------------------------------------------------------------------
    <bullet>  the eligibility of the Tribe and its members for all 
programs, services, and benefits provided by the United States to 
Indian tribes and their members, such services to be provided in the 
Lumbees' traditional territory of Robeson, Cumberland, Hoke, and 
Scotland Counties, North Carolina;
    <bullet>  the determination of a service population, to be done by 
the Secretary of the Interior's verification that all enrolled members 
of the Tribe meet the Tribe's membership criteria; and
    <bullet>  the granting of civil and criminal jurisdiction to the 
State of North Carolina regarding the Lumbee Tribe, to insure 
consistent and continuous administration of justice, until and unless 
the State of North Carolina, the Tribe, and the United States, agree to 
transfer any or all of that authority to the United States.
    These are provisions typically found in recognition legislation and 
reflect the federal policy of self-determination for Indian tribes. 
Most importantly, it finally accomplishes the goal long sought by the 
Lumbee people--treatment like every other recognized tribe in the 
United States.
Conclusion
    Congress and the Department of the Interior have over the last 
century repeatedly examined the Tribe's identity and history and have 
consistently found the Tribe to be an Indian community dating back to 
the time of first white contact. There is no need for further study of 
the Tribe's history. There is no need for another half measure by 
Congress. There is need for an act of Congress that comprehensively and 
once and for all addresses the status of the Lumbee Tribe and all 
related issues. On the Tribe's behalf, I urge the committee's favorable 
action on H.R. 65.
                                 ______
                                 
    [A statement submitted for the record on H.R. 1294 by 
Michael J. O'Connor, President, Virginia Petroleum, Convenience 
and Grocery Association, follows:]

   Statement of Michael J. O'Connor, President, Virginia Petroleum, 
                  Convenience and Grocery Association

    Good morning Mr. Chairman and members of the Committee. My name is 
Michael J. O'Connor, and I am the President of the Virginia Petroleum, 
Convenience and Grocery Association (VPCGA). The VPCGA is a non-profit, 
statewide trade association, founded in 1948, to represent the 
petroleum and food industries. Our membership includes approximately 
450 independent businesses operating over 4,000 convenience and grocery 
stores from Pennington Gap to Chincoteague. These members employ more 
than 10,000 Virginians. Membership includes petroleum marketers, travel 
centers, convenience stores, and chain and independent supermarkets.
    All of our members stand to be affected by H.R. 1294, the Thomasina 
E. Jordan Indian Tribes of Virginia Federal Recognition Act of 2007, 
should it be enacted. While honorable in its intentions, H.R. 1294 
poses a serious threat to small businesses across our state. If passed, 
HR1294 will create an anticompetitive marketplace for goods such as 
tobacco and gasoline and will strain the state budget by reducing 
excise tax revenues on these goods.
    I would like to address a misconception many have when they 
consider tribal recognition issues. Many people believe the only 
concern we should have when recognizing tribes is the potential for 
more gaming activity. That is not the reason for VPCGA's concerns. 
There is another issue that, if ignored, can be a major problem for 
states with new tribes--that problem is tribes opening retail 
operations that do not collect and remit state taxes.
    In fact, if passed, the impact of H.R. 1294 will be multifaceted. 
The United States Government and the government of the Commonwealth of 
Virginia would recognize as sovereign the Chickahominy, the 
Chickahominy--Eastern Division, the Upper Mattaponi, the Rappahannock, 
the Monacan, and the Nansemond groups. As sovereign entities, these 
groups would no longer be subject to the police power or taxing power 
of the Commonwealth.
    Pursuant to H.R. 1294, these groups would be permitted to purchase 
and take into trust land in some of the most populous counties in 
Virginia. In fact, it appears that one of the groups could acquire land 
anywhere in Virginia and turn it into a reservation. This will create 
havoc for state laws and law enforcement. For our members, the single 
greatest concern is that these tribes will have the ability to 
establish retail businesses outside of the jurisdiction of traditional 
state powers to collect taxes. This means that any convenience store, 
travel center, or smoke shop established by one of the recognized 
tribes could sell gasoline and tobacco to the public free of state 
taxes.
    Virginia small businesses would suffer the consequences of this 
statutorily bestowed competitive advantage. Businesses would be hurt, 
some would likely go under, and the Commonwealth of Virginia would lose 
revenue
    The type of tax evasion I am speaking about is not conceptual. It 
is occurring today in many states and has led to high-profile disputes 
in New York, Oklahoma, Kansas and New Mexico, among others. In these 
states, Native American tribes have used recognition to open 
convenience stores and truck stops that sell gasoline and tobacco 
products tax-free to non-Native Americans in spite of U.S. Supreme 
Court rulings saying that such sales can be subject to state taxes. For 
instance, In New York it is estimated that $360 to $400 million of 
revenue is not recouped due to cigarette excise tax evasion alone by 
tribes. <SUP>1</SUP> Some estimate that New York State has failed to 
recoup nearly $4 billion in cigarette excise taxes on sales to non-
reservation residents since 1995. <SUP>2</SUP> In Oklahoma it is 
estimated that the tobacco excise tax there is ``under-collected by 
about $4 million a month.'' <SUP>3</SUP>
---------------------------------------------------------------------------
    \1\ Representatives Alexander Grannis and William Magee, New York 
State Assembly, Uphold Tax Law on Indian Reservations, Letter to the 
Editors, The Times Union, Albany, New York (April 26, 2006).
    \2\ Id.
    \3\ Tom Droege, Henry: Tobacco Tax Loser is Likely, Tulsa World, 
(April 15, 2006).
---------------------------------------------------------------------------
    Nothing can erase the hideous racism or the marginalization of our 
fellow citizens of the Commonwealth that occurred for decades, but 
perhaps recognition can help heal some of those wounds.
    Let me be clear about our position, we are NOT opposed to the 
recognition of any Virginia tribes.
    However, the people whom I represent do not deserve to have their 
life's investment threatened by a marketer selling gasoline to non 
tribal members at a 37 cent price advantage--an advantage that is 
achieved solely thru tax evasion. We have just emerged from a four year 
long debate in Richmond with a plan that will produce the first new 
road building program in a generation. Just imagine the impact to the 
Virginia Transpiration Trust fund if this legislation becomes law. 
Because this legislation is not just recognizing existing reservations 
but is pulling other areas of the state into new reservations, the 
incidence of excise tax evasion may be far reaching and competitively 
disadvantage large numbers of convenience store and motor fuels 
retailers.
    Mr. Chairman, any legislation of this kind must ensure that non-
tribal members are required to pay all excise taxes on gasoline, 
tobacco and other products. Accordingly, unless strong protections 
against excise and sales tax evasion are included the H.R. 1294, VPCGA 
must strongly oppose the bill in its current form.
    However, we would welcome the opportunity to work with the 
Congressman Moran, and other proponents to address these concerns as 
this legislation evolves Thank you for the opportunity to present our 
views.

                                 <all>

</pre></body></html>
